<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2014 
budget request for programs within the subcommittee's 
jurisdiction.]

  Prepared Statement of the Agriculture and Food Research Initiative 
                            (AFRI) Coalition

    The Agriculture and Food Research Initiative (AFRI) Coalition is 
pleased to submit the following testimony on the fiscal year 2014 
appropriation for the Department of Agriculture's (USDA) Agriculture 
and Food Research Initiative (AFRI). The AFRI Coalition, comprised of 
more than 40 scientific societies and science advocacy organizations, 
is dedicated to raising awareness of the importance of AFRI and the 
research it funds. The AFRI Coalition understands the very difficult 
budgetary environment we currently face and urges Congress to fund AFRI 
with at least $383 million in fiscal year 2014.
    AFRI, administered by the National Institute of Food and 
Agriculture (NIFA), is the premier competitive grants program for 
fundamental and applied research, extension and education in support of 
our Nation's food and agricultural systems. AFRI grants support 
research in areas of critical concern including: food safety and 
security, agricultural production and products, plant and animal 
health, nutrition and human health and agricultural economics, among 
others.
    In December 2012, The President's Council of Advisors on Science 
and Technology (PCAST), released a report on the agriculture research 
enterprise and concluded that ``our Nation's agricultural research 
enterprise is not prepared to meet the challenges that U.S. agriculture 
faces in the 21st century.'' In fiscal year 2012, AFRI was funded at 
only $264 million but received research proposals in excess of $4 
billion.
    The AFRI Coalition urges Congress to fund AFRI with at least $383 
million in fiscal year 2014, far less than its authorized level of $700 
million. The research supported by AFRI aims to solve critical 
scientific, agricultural and societal problems and deserves steady, 
predictable and sustainable funding. The future of our food and 
agricultural systems, a basis for human health, rely on it. 
Additionally, for every Federal dollar spent on publicly funded 
agricultural research, $20 or more is generated in the U.S. economy.\1\ 
A strengthened commitment to investments in science for food and 
agriculture, especially during difficult economic times, is essential 
to maintain and grow our Nation's food, economic and national security.
---------------------------------------------------------------------------
    \1\ The Economic Returns to U.S. Public Agricultural Research, 
Alston, Julian M.; Andersen, Matthew A.; James, Jennifer S.; Pardey, 
Philip G., University of Minnesota, Department of Applied Economics, 
July 2011, http://purl.umn.edu/95522.
---------------------------------------------------------------------------
    The AFRI Coalition appreciates the opportunity to provide written 
testimony and would be pleased to assist the subcommittee as it 
considers the fiscal year 2014 appropriation for AFRI. To learn more 
about the Coalition or to see a list of members, please visit: http://
africoalition.org.
                                 ______
                                 
         Prepared Statement of the Alliance for a Stronger FDA

    Chairman Pryor and Ranking Member Blunt: The Alliance for a 
Stronger FDA respectfully requests that the subcommittee recognize the 
critical role and expanding public health mission of the U.S. Food and 
Drug Administration and provide appropriations funding in fiscal year 
2014 that fully restores the agency's base lost in the fiscal year 2013 
sequester and adds additional funding above that level. Specifically, 
we are requesting budget authority appropriations of $2.60 billion.
    The Alliance is a 200-member coalition of all FDA's stakeholders--
consumers, patients, health professionals, trade groups and industry. 
Our sole purpose is to advocate for increased appropriated resources 
for the FDA, an agency that oversees 100 percent of drugs, vaccines, 
medical devices, and personal care products and 80 percent of our 
Nation's food supply. Altogether, the products and industries regulated 
by FDA account for nearly 25 percent of all consumer spending in the 
United States.
    FDA's pre-sequestration budget authority (BA) appropriation of 
$2.53 billion is dramatically less than the amount the agency needs. 
The sequestration and FDA's growing public health and safety 
responsibilities puts the agency's mission ``at risk.''

  RECOGNIZING THAT FDA'S PUBLIC HEALTH MISSION IS VITAL AND GROWING, 
               CONGRESS CONTINUES TO PASS FDA LEGISLATION

    New laws take enormous resources to implement. Once implemented, 
they permanently increase agency responsibilities. Since 2009, Congress 
has identified a number of additional public health needs that fall 
within FDA's jurisdiction, resulting in at least six new laws:
  --Family Smoking Prevention and Tobacco Control Act (2009);
  --Biologics Price Competition and Innovation Act (2010);
  --Secure and Responsible Drug Disposal Act (2010);
  --Combat Methamphetamine Enhancement Act (2010);
  --Food Safety Modernization Act (2011); and
  --FDA Safety and Innovation Act (2012), including re-authorization of 
        the Best Pharmaceuticals for Children Act and the Pediatric 
        Research Equity Act.
    This year's legislative requirement--renewal of two Animal Drug 
User Fees--is a possible vehicle for other FDA mandates. Freestanding 
legislation is also being considered for: compounding; counterfeit/
track and trace; drug shortages; and incentives for innovation.
    In sum, the current appropriations level is totally inadequate to 
make up for decades of underfunding and all of the new laws enacted 
since 2009 and also under consideration.
   globalization and scientific complexity require fda to expand its 
activities each year to protect and expand public and individual health
    Even were Congress not active in legislating new mandates for FDA, 
the agency's mission and responsibilities would grow enormously each 
year for reasons unrelated to new laws. Our remarks will concentrate on 
two: globalization and increasing scientific complexity.
    One of FDA's highest priorities over the last 6 years has been to 
adjust for the accelerating globalization in all product categories 
overseen by the agency. For example:
  --Food imports are growing 10 percent annually. Altogether, 10-15 
        percent of all food consumed in the United States is imported. 
        This includes nearly two-thirds of fruits and vegetables and 80 
        percent of seafood.
  --Device imports are also growing about 10 percent annually. 
        Currently, about 50 percent of all medical devices used in the 
        United States are imported.
  --Drug imports are growing even more quickly, about 13 percent 
        annually. About 80 percent of active pharmaceutical ingredients 
        (API) are manufactured abroad, as are 40 percent of finished 
        drugs.
    Inspections at U.S. ports-of-entry are critical, but ultimately 
less than 2 percent of shipments can be inspected. Instead, FDA is 
following congressional direction by increasing foreign inspections and 
establishing foreign offices to work globally to improve the standards 
and quality of products entering the United States.
    The value of this approach cannot really be quantified. The cost of 
illness, death and lost markets--from just a single bad actor in a 
single food category--can cost as much or more than the entire 
investment we put into FDA's food safety activities. Drugs and devices 
are harder to track for a variety of reasons, but there is no reason to 
doubt a similar effect.
    Greater scientific complexity is diffused into every part of the 
agency and its mission. FDA has adopted a number of initiatives, 
including creation of a commissioner-level science office, investment 
in regulatory science, expanded and more intensive training, changes in 
time and manpower allotments for complex assignments, and significant 
reworking of the drug and medical device approval pathways.
    Specifically, we have identified five areas in which FDA is 
improving product reviews to respond to more complex science. Each 
comes at a cost in additional dollars/manpower:
  --sponsors need more meeting time and other feedback from FDA;
  --applications require more patients, study sites and analysis;
  --enhanced timeliness and consistency of product review;
  --expansion of pre-and post-market safety; and
  --enhance innovation, speed approvals.
    Further, safety inspections have also become more complex--
requiring more scientific training, more preparation and, often, more 
time during the inspection itself.
    FDA's vital, complex worldwide public health responsibilities 
cannot be accomplished with its existing budget, particularly post-
sequestration. The agency's mission is ``at risk.''
    FDA is a staff-intensive organization. More than 80 percent of its 
budget is devoted to staff-related costs. If the agency budget fails to 
grow over the next few years:
  --food will be less safe and consumers put at risk;
  --drug and device reviews will be slower, conflicting with promises 
        made to consumers and companies;
  --problems with imports and globalization will become more numerous; 
        and
  --critical efforts to modernize the agency and improve its support 
        for innovation will stall.

    [This statement was submitted by Diane E. Dorman, President, 
Alliance for a Stronger FDA.]
                                 ______
                                 
 Prepared Statement of the American Commodity Distribution Association 
                                 (ACDA)

    On behalf of the American Commodity Distribution Association 
(ACDA), I respectfully submit this statement regarding the budget 
request of the Food and Nutrition Service for inclusion in the 
subcommittee's official record. ACDA members appreciate the 
subcommittee's support for these vital programs.
    We urge the subcommittee to fully fund administrative expense 
funding for the Emergency Food Assistance Program (TEFAP) at $100 
million; to make TEFAP food purchase dollars available for 2 fiscal 
years; to approve sufficient funding to maintain caseload in the 
Commodity Supplemental Food Program (CSFP) and provide an increase of 
$5 million to begin operations in six additional States approved by 
USDA, and to require an interagency panel at USDA for continuous 
evaluation and improvement of the USDA Foods program.
    ACDA is a nonprofit professional trade association, dedicated to 
the growth and improvement of USDA's Commodity Food Distribution 
Program. ACDA members include: State agencies that distribute USDA-
purchased commodity foods; agricultural organizations; industry; 
associate members; recipient agencies, such as schools and soup 
kitchens; and allied organizations, such as anti-hunger groups. ACDA 
members are responsible for distributing over 1.5 billion pounds of 
USDA-purchased commodity foods annually through programs such as 
National School Lunch Program, the Emergency Food Assistance Program 
(TEFAP), Summer Food Service Program (SFSP), Commodity Supplemental 
Food Program (CSFP), Charitable Institution Program, and Food 
Distribution Program on Indian Reservations (FDPIR).

         FULLY FUND TEFAP ADMINISTRATIVE FUNDS AT $100 MILLION

    We urge the subcommittee to fully fund TEFAP Administrative Funds 
at $100 million.
    Food banks around the Nation are facing more demands than ever, 
while resources available to them have been shrinking. Food prices have 
increased, reducing the volume of food that can be acquired. Natural 
disasters and changes in agricultural production practices have reduced 
available supplies so that USDA has acquired substantially lower 
volumes of bonus commodities than had been the case in recent years. At 
the same time, the number of Americans who are turning to food banks 
for assistance continues to increase. Since the appropriation for TEFAP 
Administrative Funds declined to $48 million in fiscal year 2012 
following higher amounts provided as a result of the American Recovery 
and Reinvestment Act of 2009, food banks have had to increasingly 
depend upon converting food dollars to administrative expense funds in 
order to maintain their operations.

          MAKE TEFAP FOOD DOLLARS AVAILABLE FOR 2 FISCAL YEARS

    We continue to urge the subcommittee to make TEFAP food dollars 
available for 2 fiscal years, as was done under ARRA.
    While the agencies of the Department of Agriculture work closely 
with food banks to provide as much food for distribution as possible, 
there are occasions when food dollars are at jeopardy through no fault 
of recipient agencies. If food orders are canceled by either USDA or 
vendors for any reason near the end of the Federal fiscal year, State 
agencies must either purchase whatever items might be available through 
USDA, or lose these end-of-year balances.
    As we have done previously, we respectfully point out to the 
subcommittee that when ARRA was passed, TEFAP food dollars were allowed 
to be carried over from fiscal year 2009 to fiscal year 2010. This 
procedure helped food bank operators to make responsible decisions and 
to take maximum advantage of available resources.
    We urge the committee to make TEFAP food dollars available for 2 
years, and urge the Secretary of Agriculture to allow those States who 
made responsible efforts to use their TEFAP Food dollars to roll over 
to the next fiscal year balances unexpended through no fault of the 
TEFAP operator.

          FUNDING FOR THE COMMODITY SUPPLEMENTAL FOOD PROGRAM

    ACDA supports funding for at least maintain the current caseload 
for the Commodity Supplemental Food Program (CSFP), and urges the 
committee provide an additional $5 million to begin CSFP operations in 
six States that now have USDA-approved State plans--Connecticut, 
Hawaii, Idaho, Maryland, Massachusetts and Rhode Island. This 
additional funding would make CSFP available in 45 States. We 
appreciate the President's request for $202.682 million for CSFP in 
fiscal year 2014, but believe that this amount is not sufficient to 
allow these new States to begin operation. CSFP overwhelmingly serves 
elderly individuals, many of whom are homebound. States currently 
operating CSFP requested 116,350 additional caseload slots for the 
current program year, clearly showing the need for this program.

  INTERAGENCY PANEL FOR EVALUATION AND IMPROVEMENT OF THE USDA FOODS 
                                PROGRAM

    ACDA urges the creation of an interagency panel at USDA for 
continuous evaluation and improvement of the USDA Foods program. The 
USDA Foods program is a shared responsibility of the Food and Nutrition 
Service, the Agricultural Marketing Service, Farm Services Agency, and 
the Food Safety and Inspection Service. There is currently no formal 
oversight structure integrating these agencies' efforts. ACDA believes 
that as part of its oversight function the committee should direct the 
Secretary to establish an interagency panel to ensure effective 
management of the USDA Foods programs including contracting procedures 
and product specifications.
    We look forward to continuing to partner with you and USDA in the 
delivery of these needed services.

    [This statement was submitted by Wanda Shepherd, President, 
American Commodity Distribution Association.]
                                 ______
                                 
    Prepared Statement of the American Farm Bureau Federation (AFBF)

    The American Farm Bureau Federation has identified the following 
two areas for emphasis and funding in the fiscal year 2014 agriculture 
spending bill: Programs that enhance and improve food safety and 
protection; and programs that further develop renewable energy.
    Farm Bureau strongly opposes any cuts to funding of the farm safety 
net. The farm bill discussion has begun, and the House and Senate 
Agriculture Committees should continue to have the primary 
responsibility to ensure farmers and ranchers have a viable farm safety 
net.

      PROGRAMS THAT ENHANCE AND IMPROVE FOOD SAFETY AND PROTECTION

    Farm Bureau recommends that adequate funding for food protection at 
the FDA and Food Safety Inspection Service (FSIS) be directed to the 
following priorities:
  --increased education and training of inspectors;
  --additional science-based inspection, targeted according to risk;
  --effective inspection of imported food and feed products;
  --research and development of scientifically based rapid testing 
        procedures and tools;
  --accurate and timely responses to outbreaks that identify 
        contaminated products, remove them from the market and minimize 
        disruption to producers; and
  --indemnification for producers who suffer marketing losses due to 
        inaccurate Government-advised recalls or warnings.
    Farm Bureau supports funding for a National Antimicrobial Residue 
Monitoring System (NARMS) to detect trends in antibiotic resistance. 
NARMS protects human and animal health through integrated monitoring of 
antimicrobial resistance among foodborne bacteria. Farm Bureau requests 
that Congress direct that stakeholder involvement and industry input be 
a priority in the ongoing Federal review.
    Farm Bureau supports funding for the Food Animal Residue Avoidance 
Databank (FARAD) at the authorized level of $2.5 million. FARAD aids 
veterinarians in establishing science-based recommendations for drug 
withdrawal intervals. No other Government program provides or 
duplicates the food safety information FARAD provides to the public.
    Farm Bureau opposes the administration's request for new user fees 
for inspection activities. Food safety is for the public good, and as 
such, it is a justified use of public funds.

       PROGRAMS THAT SUPPORT THE DEVELOPMENT OF RENEWABLE ENERGY

    Farm Bureau supports funding for the Renewable Energy for America 
Program (REAP). REAP offers grants, guaranteed loans and combination 
grant/guaranteed loans for agricultural producers to purchase renewable 
energy systems and energy efficiency improvements, in addition to 
offering funding for energy audits and feasibility studies.
    Farm Bureau has identified seven other areas of importance for 
funding. They are:
  --Programs that promote animal health;
  --Programs that promote conservation;
  --Programs that expand export markets for agriculture;
  --Programs that ensure the availability of crop protection tools;
  --Programs that strengthen rural communities;
  --Programs that support wildlife services; and
  --Research priorities.

                  PROGRAMS THAT PROMOTE ANIMAL HEALTH

    Farm Bureau supports a $5.3 million increase for the Animal and 
Plant Health Inspection Service (APHIS) to a total of $14 million for 
voluntary Animal Disease Traceability (ADT). The ADT program requires 
strong Government oversight on the expenditure of funds and is 
essential for animal health.
    Farm Bureau supports $4.79 million for the Veterinary Medicine Loan 
Repayment Program (VMLRP) administered by the Department of Agriculture 
(USDA) National Institute for Food and Agriculture (NIFA). VMLRP 
veterinarians ensure animal health and welfare, while protecting the 
nation's food supply.
    Farm Bureau supports $123.4 million for the FDA's Center for 
Veterinary Medicine (CVM). The CVM oversees the safety of animal drugs, 
feeds and biotechnology-derived products.

                   PROGRAMS THAT PROMOTE CONSERVATION

    Farm Bureau supports funding for conservation programs but 
prioritizes working lands programs over retirement-type programs. 
Farmers and ranchers have made great strides in conserving our natural 
resources and these gains can continue through working lands programs.

       PROGRAMS THAT EXPAND INTERNATIONAL MARKETS FOR AGRICULTURE

    Farm Bureau supports funding at authorized levels for:
  --The Foreign Agricultural Service (FAS) to maintain services that 
        expand agricultural export markets. Farm Bureau urges continued 
        support for the Office of the Secretary for trade negotiations 
        and biotechnology resources.
  --Export development and expansion programs such as the Market Access 
        Program, Foreign Market Development Program, Emerging Markets 
        Program and Technical Assistance for Specialty Crops Program. 
        These effective programs have resulted in increased demand for 
        U.S. agriculture and food products abroad and should be fully 
        funded.
  --Public Law 480 programs which serve as the primary means by which 
        the United States provides needed foreign food assistance 
        through the purchase of U.S. commodities.
  --APHIS Plant Protection and Quarantine personnel and facilities, 
        especially plant inspection stations, which are necessary to 
        protect U.S. agriculture from costly pest problems that enter 
        from foreign lands.
  --APHIS trade issues resolution and management activities that are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products.
  --APHIS Biotechnology Regulatory Services (BRS), which oversees the 
        permit, notification and deregulation process for plant 
        biotechnology products. BRS personnel and activities facilitate 
        agriculture innovation, and ensure public confidence and 
        international acceptance of biotechnology.
    Farm Bureau supports continued funding for the U.S. Codex Office. 
Active U.S. participation in the Codex Alimentarius Commission is 
essential to improving the harmonization of international science-based 
standards for the safety of food and agriculture products.

               PROGRAMS THAT ENSURE CROP PROTECTION TOOLS

    Farm Bureau supports maintaining the current funding level, $11.913 
million, for the Minor Crop Pest Management (IR-4) within NIFA Research 
and Education Activities. Developing pest control tools has high 
regulatory costs, and public support has been needed to ensure that 
safe and effective agrichemicals and biopesticides are available for 
small, specialty crop markets. The IR-4 Project facilitates 
Environmental Protection Agency registration of safe and effective pest 
management technologies where the private sector is unable to cover 
regulatory cost.
    Farm Bureau supports maintaining funding to the National 
Agricultural Statistical Service (NASS), specifically for the 
continuation of agricultural chemical-use surveys for fruits, 
vegetables, floriculture and nursery crops. NASS surveys provide data 
about the use of agricultural chemicals involved in the production of 
food, fiber and horticultural products.

               PROGRAMS THAT STRENGTHEN RURAL COMMUNITIES

    Farm Bureau supports USDA implementing a regional approach to give 
its Rural Development (RD) programs greater flexibility and promote 
innovation in rural regions.
    Farm Bureau supports maintaining funding at authorized levels for:
  --The Value-Added Agricultural Producer Grants, Rural Innovation 
        Initiative, Rural Microentrepreneur Assistance Program, and 
        Business and Industry Direct and Guaranteed Loans, which foster 
        business development in rural communities.
  --Rural Utilities Service for rural broadband and telecommunications 
        services, and the Distance Learning and Telemedicine Program.
  --The Revolving Fund Grant Program for acquiring safe drinking water 
        and sanitary waste disposal facilities.
  --The Community Facility Direct and Guaranteed Loans, which funds the 
        construction, enlargement or improvement of essential community 
        facilities in rural areas and small towns.
  --The Resource Conservation and Development Program, which helps 
        local volunteers create new businesses, form cooperatives and 
        develop agri-tourism activities.
  --The Beginning Farmer and Rancher Development Program, which 
        provides participants with the information and skills needed to 
        make informed decisions for their operations.
  --Agriculture in the Classroom, a national grassroots program 
        coordinated by USDA, which helps students gain greater 
        awareness of the role of agriculture in the economy and 
        society.

                PROGRAMS THAT SUPPORT WILDLIFE SERVICES

    Farm Bureau supports maintaining the funding level for APHIS 
Wildlife Services programs. Wildlife Services works to prevent and 
minimize an estimated $1 billion worth of wildlife damage, while 
protecting human health and safety from conflicts with wildlife.

                          RESEARCH PRIORITIES

    Agricultural research is vital, particularly research focused on 
meeting the growing challenges of production agriculture. The United 
Nations' Food and Agriculture Organization predicts that farmers will 
have to produce 70 percent more food by 2050 to feed an additional 2.3 
billion people around the globe. America's farmers are the most 
efficient in the world, but without a commitment to further 
agricultural research and technological advancement, even America's 
farmers could be hard-pressed to meet these challenges.

    [This statement was submitted by Bob Stallman, President, American 
Farm Bureau Federation.]
                                 ______
                                 
 Prepared Statement of the American Forest & Paper Association (AF&PA)

                              INTRODUCTION

    AF&PA supports $5.5 million to provide for implementation of the 
declaration requirement of the Lacey Act, as amended by the 2008 Farm 
Bill; recommends maintaining funding for the ``Tree and Wood Pests'' 
category to aid in combating these, and other pests and diseases; 
requests $33 million for the McIntire-Stennis Cooperative Forestry 
Research Program; and we would like your support and assistance in 
ensuring that robust funding is included for the Center for Food Safety 
and Applied Nutrition and that Congress expresses its intention to 
continue the operation of the Food Contact Notification (FCN) program.
    The American Forest & Paper Association (AF&PA) is the national 
trade association of the forest products industry, representing pulp, 
paper, packaging and wood products manufacturers, and forest 
landowners. Our companies make products essential for everyday life 
from renewable and recyclable resources that sustain the environment.
    The forest products industry accounts for approximately 4.5 percent 
of the total U.S. manufacturing GDP. Industry companies produce about 
$190 billion in products annually and employ nearly 900,000 men and 
women, exceeding employment levels in the automotive, chemicals, and 
plastics industries. The industry meets a payroll of approximately $50 
billion annually and is among the top 10 manufacturing sector employers 
in 47 States. Within the jurisdiction of this subcommittee, continued 
resources for protecting forest health and providing adequate resources 
to enforce existing trade laws are essential. Specific recommendations 
follow.

     ANIMAL AND PLANT HEALTH INSPECTION SERVICE (APHIS)--LACEY ACT 
                              ENFORCEMENT

    AF&PA supports $5.5 million to provide for implementation of the 
declaration requirement of the Lacey Act, as amended by the 2008 Farm 
Bill. The 2008 Farm Bill amended the Lacey Act (16 U.S.C. 3371 et seq.) 
to make it unlawful to trade wood products or other plants taken in 
violation of the laws of either a U.S. State or foreign country. This 
ground-breaking legislation already is influencing the way companies 
make sourcing decisions and monitor their supply chains. Full and 
effective implementation and enforcement of the Lacey Act will enable 
American forest product companies to compete fairly in the global 
marketplace, help keep jobs in the United States, deter the destructive 
impacts of illegal logging on forests and forest-dependent communities 
in developing countries, and reinforce initiatives to mitigate climate 
change.
    When fully implemented, the law requires U.S. importers of wood and 
wood products to file a declaration identifying the genus/species name 
and country of harvest--a critical measure intended by the law's 
sponsors to increase supply chain transparency and assist Federal 
agencies in fair and strong enforcement. The prohibition and the 
declaration requirement affect a wide array of American industries, so 
it is critical that the declaration process generates data in a 
streamlined, cost-effective manner without unduly burdening legitimate 
trade. To that end, APHIS--which is responsible for implementing the 
declaration provision--needs $5.5 million in funding to fully implement 
congressional mandates, including to establish an electronic 
declarations database and to add internal capacity to perform data 
analysis needed for monitoring and enforcement purposes.

                           APHIS--PLANT PESTS

    AF&PA recommends maintaining funding for the ``Tree and Wood 
Pests'' category to aid in combating these, and other pests and 
diseases. As world trade continues to expand, global weather patterns 
shift, and an increasingly affluent world population has the ability to 
travel to--and demand products from--the far corners of the globe, the 
inadvertent, yet inevitable introduction of nonnative pests and 
diseases into the United States continues. Additional funding is 
vitally needed to aid in combating pests such as the Asian longhorn 
beetle, the Emerald Ash borer, and the Sirex woodwasp, as well as 
diseases such as Phytopthora ramorum. These are but a sampling of the 
diseases that harm commercial timber stands, community parks, and 
private forest landowners. American citizens most certainly will bear 
the cost of combating these and other emergent threats. We believe a 
comprehensive, coordinated response to each is more effective and more 
economical.

     NATIONAL INSTITUTE OF FOOD AND AGRICULTURE--MC INTIRE-STENNIS 
                     COOPERATIVE FORESTRY RESEARCH

    AF&PA requests $33 million for the McIntire-Stennis Cooperative 
Forestry Research Program. Approximately one-third of the United States 
is forested and these forests enhance our quality of life and economic 
vitality and are an invaluable source of renewable bioproducts, outdoor 
recreation, clean water, fish and wildlife habitat, and carbon 
sequestration. Sustaining these forests in a healthy and productive 
condition requires a strong, continuing commitment to scientific 
research and graduate education. Foundational financial support for 
university-based forestry research and graduate education comes from 
the McIntire-Stennis Cooperative Forestry program, funded through the 
USDA's National Institute of Food and Agriculture. Funds are 
distributed according to a statutory formula to each of the 50 States, 
Puerto Rico, Guam, and the Virgin Islands, with a dollar-for-dollar 
match required from the States.
    Additional funding is needed to:
  --provide the additional scientific research needed to address 
        critical forest issues such as fires, storms, insects, 
        diseases, urbanization, fragmentation, and lost economic 
        opportunities.
  --develop new knowledge and innovations to sustain healthy, 
        productive forests and address the challenges facing forest 
        owners, forest products manufacturers and all Americans who 
        benefit from our forest resources.
  --support research capacity within each State to address issues that 
        are essential to private forest owners, and develop new 
        opportunities for economic benefit from their forests.

    FOOD AND DRUG ADMINISTRATION--FOOD CONTACT NOTIFICATION PROGRAM

    AF&PA supports continued funding of the Food Contact Notification 
Program. The Food Contact Notification (FCN) program protects consumer 
health, food safety, and quality while providing packaging 
manufacturers with an efficient process that is less burdensome than 
the food additive approval process. It has allowed packaging 
manufacturers to bring new, more environmentally friendly products to 
market that have extended product shelf life, thereby increasing 
consumer value.
    President Obama's fiscal year 2014 budget includes proposed user 
fees to fund the FCN program, which over the last 16 years has been 
supported by appropriated funds with no fees for companies filing FCNs.
    As Congress begins work on appropriations legislation for FDA in 
the coming weeks, we would like your support and assistance in ensuring 
that no user fees will be assessed for the FCN program but that robust 
funding is included in the Appropriations bills for the Center for Food 
Safety and Applied Nutrition, and that Congress expresses its intention 
to continue the operation of the FCN program. AF&PA appreciates that 
the subcommittee has previously rejected proposals to eliminate the FCN 
program.

    [This statement was submitted by Elizabeth Bartheld, Vice 
President, Government Affairs, American Forest & Paper Association.]
                                 ______
                                 
       Prepared Statement of the American Forest Foundation (AFF)

    The American Forest Foundation (AFF) urges the subcommittee to 
maintain critical funding for USDA forest health, stewardship, and 
education programs that are essential to keeping America's 11 million 
family forests, some 251 million acres, healthy and intact. Maintenance 
of these programs will help family forest owners get ahead of 
increasing threats, saving landowners, communities, industries, from 
expensive restoration in the future.
    We understand the difficult decisions you need to make. Given the 
tight budget climate, we recommend placing the highest priority on two 
types of investments; those that avoid larger future costs and those 
that protect green infrastructure that provide public benefits. With 
this in mind, we urge the subcommittee to maintain funding for the 
following priority programs:
  --Animal and Plant Health Inspection Service ``Tree and Wood Pests'' 
        and ``Specialty Crops'' program;
  --Farm Bill Conservation Programs and Natural Resource Conservation 
        Service, Conservation Operations;
  --National Institute for Food and Agriculture, Renewable Resources 
        and Extension program; and
  --National Institute for Food and Agriculture, McIntire-Stennis, 
        Cooperative Forestry Research.
In addition, we urge the subcommittee to provide leadership in fixing 
the USDA Biobased Markets Program to better promote forest products.
    Families and individuals own 35 percent of our Nation's forests, 
stewarding more acres than the Federal Government or forest 
industry.\1\ These private forests provide myriad public benefits--
clean air and water, recreation, renewable resources that build our 
communities, and good-paying rural jobs. But, wildfire, invasive 
species and other pests, development pressures, and shrinking forest 
products markets make it harder than ever to keep America's forests 
healthy and productive. We must ensure these families have financial 
tools, technical information, and policy support to keep their forests 
as forests, for current and future generations.
---------------------------------------------------------------------------
    \1\ USDA, May 2008, Who Owns America's Forests?
---------------------------------------------------------------------------
    The American Forest Foundation is a nonprofit conservation 
organization that works on the ground through a variety of programs 
including the American Tree Farm System, helping these 11 million 
families be good stewards and keep their forests healthy for future 
generations.

                APHIS INVASIVE PEST AND PATHOGEN FUNDING

    With 58 million forested acres at risk from forest pests, we 
strongly support maintaining funding levels for the APHIS Tree and Wood 
Pests and Specialty Crop programs. These programs fund eradication 
efforts for invasive species and work to prevent the further spread of 
invasive species like the Asian long-horned beetle and the emerald ash 
borer. Close to 500 species of foreign insects and diseases have become 
established in the United States, and a new damaging pest is 
introduced, every 2 to 3 years. It is APHIS' responsibility to prevent 
such introductions and to respond effectively when pests are 
introduced. According to the National Woodland Owner Survey, the threat 
of forest pests, is the number one concern for family forest owners. 
When an invasive species infests a family's forest, it can destroy 
their investment, making it difficult to recover since most families 
don't generate regular income.
    The APHIS Tree and Wood Pest program's principle effort is 
eradication of the Asian longhorned beetle. This pest threatens the 
vitality of maples and birches, among other trees species, and could 
devastate forests from Maine to Minnesota at a cost of more than $600 
billion.
    Similarly, the Specialty Crops program supports efforts to curtail 
the spread of the sudden oak death pathogen, among others, which can be 
spread through the interstate transfer of infected plants. Without 
proper funding, this pathogen could easily spread across the United 
States, killing millions of high quality, valuable oak trees.

                    FARM BILL CONSERVATION PROGRAMS

    Farm Bill Conservation Programs, mainly EQIP, WHIP, CSP, and HRFP, 
provide tools to family forest owners, leveraging the family's own 
resources to implement hazardous fuels treatments, insect and disease 
treatments, or other stand improvement activities in their forests--
treatments that can save future restoration costs to the landowner and 
surrounding community. Take for example, the story of Keith and Karen 
Abrahamson from Michigan. Their forest was attacked by the emerald ash 
borer, an invasive beetle that destroys ash trees. Since the family did 
not have adequate resources to remove damaged ash trees and restore 
their forest, they enrolled in EQIP, which leveraged their funds to get 
their forest healthy again.
    Harry and Joyce Pionke from central Pennsylvania faced a similar 
threat. In 2007, a combination of a drought and a gypsy moth 
infestation devastated their oak-dominated forest. Having just retired, 
Harry and Vickie could not restore the forest on a fixed income, but 
through CSP, they leveraged their resources to reestablish and 
diversify their woods, ensuring that the forest won't take a century to 
re-grow and the next gypsy moth strike won't be as damaging.

                      NRCS CONSERVATION OPERATIONS

    NRCS Conservation Operations funds technical assistance and 
outreach to landowners and supports implementation of Farm Bill 
Conservation Programs. Without these important resources, landowners 
would not have the professional guidance that they need to manage their 
land and enroll in conservation programs. These resources are 
especially important when considering that very few of the 10 million 
family forest owners are actively engaged in the management of their 
land, as evidenced by the fact that less than 5 percent of family 
forest owners have forest management plans. Without outreach to these 
landowners, many assume that leaving their forest alone is the best 
solution. However, this is no longer an option for forest owners, given 
the many threats impacting their forests. If left unchecked, these 
threats will undermine their forests and the benefits that all 
American's receive from them.
    AFF can be a strong ally with NRCS in implementing technical 
assistance to forest owners by improving the efficiency and cost-
effectiveness of NRCS outreach. In fact, last year in Wisconsin, 
because of work AFF and our on-the-ground partners like Aldo Leopold 
Foundation were able to do to engage woodland owners to actively manage 
their land for conservation outcomes, we provided the NRCS with a 
``pre-vetted'' audience of woodland owners who were ready to implement 
conservation practices and more apt to do so with the added incentive 
of EQIP support. This saved NRCS field agents the time necessary for 
identifying landowners with very little land management experience, but 
ripe for EQIP stewardship opportunities. AFF's effort also streamlined 
the process by initiating conversations to educate and engage these 
landowners with the EQIP opportunities. We look forward to working more 
closely with NRCS on projects such as this in the future.

               NIFA RENEWABLE RESOURCES EXTENSION PROGRAM

    As mentioned above, there is a significant portion of family forest 
owners that are not engaged in the management of their forest. This 
means that their forests are not fully providing the public benefits 
nor are they able to withstand impending forest health challenges. The 
Renewable Resources Extension Program supports outreach and education 
to forest owners, so they have the information they need to be good 
stewards of their land. The extension foresters that this program 
supports are essential to landowners, providing them with a spectrum of 
information from dealing with insect infestations to tax advice for new 
forest owners. The extension programs leverage significant State and 
local dollars and are a key partner to organizations like the American 
Forest Foundation.

          NIFA MC INTIRE-STENNIS COOPERATIVE FORESTRY RESEARCH

    The forestry research carried out by the Nation's land grant 
universities and funded through the McIntire-Stennis program provides 
essential tools and information for family forest owners. This program 
also supports critical family forest research, so we can identify 
barriers to stewardship and how to reduce these obstacles. Finally, it 
helps train the next generation of forestry professionals to give 
forest owners the tools and technical assistance they need.

                        BIOBASED MARKETS PROGRAM

    In addition to these tools and resources, family forest owners also 
need healthy markets to ensure the revenue necessary to maintain 
healthy, productive forests. The American Forest Foundation encourages 
the subcommittee to urge the U.S. Department of Agriculture to fix the 
Biobased Markets Program, to remove the disadvantage for forest 
products in the program.
    Thank you for your consideration of these important programs. We 
urge the committee, when considering its priorities for fiscal year 
2014, to maintain funding for these key programs, to ensure family 
forests stay healthy and intact, and continue to provide myriad public 
benefits that all Americans enjoy. We greatly appreciate the 
opportunity to share testimony as the subcommittee prepares a fiscal 
year 2014 appropriations bill. We look forward to sharing more specific 
recommendations following release of the fiscal year 2014 
administration budget.

    [This statement was submitted by Tom Martin, President and CEO, 
American Forest Foundation.]
                                 ______
                                 
          Prepared Statement of the American Heart Association

    The American Heart Association is pleased to submit this statement 
regarding the Food and Drug Administration's (FDA) and U.S. Department 
of Agriculture's (USDA) efforts to reduce sodium consumption in the 
United States.
    Excess sodium consumption is a significant public health issue. 
Diets high in sodium have been linked to high blood pressure and 
associated with an increased risk for heart attack, stroke, and kidney 
disease. Unfortunately, the average American consumes more than 3,600 
mg of sodium per day which far exceeds the American Heart Association's 
recommended daily intake of less than 1,500 mg per day. Recent research 
has shown that even gradual reductions in sodium consumption to 2,200 
mg should result in 280,000 to 500,000 fewer deaths over 10 years.\1\ A 
national effort to reduce sodium consumption would also save $10 to $24 
billion in healthcare costs annually.\2\
---------------------------------------------------------------------------
    \1\ Coxson PG, et al. Mortality Benefits from U.S. Population-Wide 
Reduction in Sodium Consumption. Hypertension 2013; 61(3):564-570.
    \2\ Appel LJ, et al. The Importance of Population-Wide Sodium 
Reduction as a Means to Prevent Cardiovascular Disease and Stroke: A 
Call to Action From the American Heart Association; Circulation. 
2011;123:1138-1143.
---------------------------------------------------------------------------
                  THE SCIENCE BEHIND SODIUM REDUCTION

    AHA is aware that despite the abundance of studies showing the 
benefits of lowering sodium consumption, there are some who still 
question the evidence supporting population-wide sodium reduction. 
Common arguments include the absence of a major randomized-controlled 
trial with hard clinical outcomes. It is well-known, however, that such 
trials are not feasible because of logistic, financial, and often 
ethical considerations.\3\ In fact, there is no trial of weight 
reduction or increased physical activity on hard clinical outcomes, and 
only one definitive trial of smoking cessation therapy on lung 
cancer.\4\ It also has been argued that sodium reduction might be 
harmful.\5\ However, the evidence for harm is unpersuasive, based 
largely on inferences from cohort studies with major methodological 
limitations, particularly, incomplete assessment of sodium intake and 
the potential for reverse causality.\6\ The methodological issues limit 
the usefulness of the available cohort studies as a basis for guiding 
sodium intake policy, much less reversing recommendations.\7\
---------------------------------------------------------------------------
    \3\ Whelton PK, et al. Sodium, Blood Pressure, and Cardiovascular 
Disease: Further Evidence Supporting the American Heart Association 
Sodium Reduction Recommendations. Circulation. 2012;126:2880-2889
    \4\ Anthonisen NR, Skeans MA, Wise RA, Manfreda J, Kanner RE, 
Connett JE, Lung Health Study Research Group. The effects of a smoking 
cessation intervention on 14.5-year mortality: a randomized clinical 
trial. Ann Intern Med. 2005;142:233-239.
    \5\ Alderman MH. Reducing dietary sodium: the case for caution. 
JAMA.2010;303:448-449.
    \6\ Cook NR, Sacks F, MacGregor G. Public policy and dietary sodium 
restriction. JAMA. 2010;303:1917; author reply 1917-1918.
    \7\ Ibid.
---------------------------------------------------------------------------
    On January 13, 2011, the Association published a Presidential 
Advisory entitled ``The Importance of Population-Wide Sodium Reduction 
as a Means to Prevent Cardiovascular Disease and Stroke: A Call to 
Action from the American Heart Association''. The Advisory called for a 
renewed and intensive focus on population-wide sodium reduction. In 
November 2012, AHA reaffirmed the need to reduce sodium consumption in 
a new Presidential Advisory ``Sodium, Blood Pressure, and 
Cardiovascular Disease: Further Evidence Supporting the American Heart 
Association Sodium Reduction Recommendations''.
    The principal basis for AHA's recommendation is the strength of the 
scientific evidence relating excess sodium intake to high blood 
pressure, cardiovascular disease and stroke, and the capacity of 
reduced intake of sodium to prevent and treat hypertension and reduce 
the risk of adverse cardiovascular disease and stroke events. High 
blood pressure, both prehypertension and hypertension, is a leading 
cause of preventable morbidity and mortality worldwide. It affects more 
than 76 million U.S. adults and is a major cause of cardiovascular 
disease; 54 percent of strokes and 47 percent of coronary heart disease 
events are attributed to elevated blood pressure.\8\ An estimated 9 in 
10 Americans will develop high blood pressure during their lifetime.\9\
---------------------------------------------------------------------------
    \8\ Lawes CM. Global Burden of Blood-Pressure-Related Disease, 
2001. Lancet 2008;371:1513.
    \9\ Vasn RS. Beiser A., et al. Residual Lifetime Risk for 
Developing Hypertension in Middle-Aged Women and Men: The Framingham 
Study. JAMA. 2002; 287:1003-1010.
---------------------------------------------------------------------------
             REDUCING THE SODIUM CONTENT OF THE FOOD SUPPLY

    More than 75 percent of consumed sodium is estimated to come from 
sodium added to restaurant and processed foods before purchase.\10\ 
\11\ Even those who read labels are often left without realistic 
alternatives to high-sodium foods, and those who eat out, a behavior 
that has increased more than 200 percent from 1977 to 1995, are 
subjected to excessive sodium intakes from routinely served, processed 
foods.\12\
---------------------------------------------------------------------------
    \10\ Mattes RD, Donnelly D. Relative contributions of dietary 
sodium sources. J Am Coll Nutr. 1991;10:383-393.
    \11\ CDC. Vital Signs: Food Categories Contributing the Most to 
Sodium Consumption--United States, 2007-2008. MMWR 2012; 61.
    \12\ Dietary Guidelines Advisory Committee. 2010 Report of the 
Dietary Guidelines Advisory Committee on the Dietary Guidelines for 
Americans. Washington, DC: U.S. Department of Agriculture; 2010.
---------------------------------------------------------------------------
    Some food items are extremely high in sodium. However, from a 
public health perspective, the problem of excess sodium largely 
reflects the cumulative intake of common foods that are only moderately 
high in sodium. Hence, any meaningful strategy to reduce sodium intake 
population-wide must involve the efforts of food manufacturers, food 
processors, and restaurant industries, a strategy that is being 
successfully implemented in other countries. For example, the United 
Kingdom has a vigorous salt reduction campaign, which has resulted in 
an estimated population-wide reduction in sodium intake of 10 
percent.\13\ According to the CDC, a 10 percent reduction in dietary 
sodium intakes could be achieved by reducing the sodium content of the 
top 10 sources of dietary sodium by 25 percent.\14\ This degree of 
reduction could prevent an estimated 28,000 deaths and $7 billion in 
healthcare expenditures annually.\15\
---------------------------------------------------------------------------
    \13\ Food Standards Agency. Dietary Sodium Levels Surveys. 
tna.europarchive.org/20101007132006/http://www.food.gov.uk/news/
newsarchive/2010/mar/saltcommitments.
    \14\ CDC. Vital Signs: Food Categories Contributing the Most to 
Sodium Consumption--United States, 2007-2008. MMWR 2012; 61.
    \15\ Bibbins-Domingo K, Chertow GM, Coxson PG, et al. Projected 
effect of dietary salt reductions on future cardiovascular disease. N 
Engl J Med 2010;362:590-9.
---------------------------------------------------------------------------
    The American Heart Association's Presidential Advisory and Call to 
Action follows a 2010 Institute of Medicine (IOM) report that provides 
a roadmap for lowering Americans' intake of sodium.\16\ It was noted 
that for 40 years, efforts to reduce sodium intake of the U.S. 
population have been unsuccessful. This absence of tangible progress 
reflects the lack of a substantive, multidimensional, environmentally 
focused strategic plan with measurable outcomes, joint-ownership, and 
accountability among the many stakeholders. Specifically, given the 
ubiquity of sodium in the food supply, the prior focus on encouraging 
individuals to select reduced-sodium products has not meaningfully 
reduced sodium intake to achieve levels consistent with the U.S. 
Dietary Guidelines for Americans.\17\ Such efforts must be accompanied 
by an overall reduction of the level of sodium in the food supply. IOM 
made a series of recommendations, many of which involved regulatory 
actions (e.g., setting mandatory national standards for the sodium 
content of processed foods).
---------------------------------------------------------------------------
    \16\ Institute of Medicine. Strategies to Reduce Sodium Intake in 
the United States. Washington, DC: National Academy Press; 2010.
    \17\ Supra, n. 7.
---------------------------------------------------------------------------
    In response to these developments, FDA and the USDA's Food Safety 
and Inspection Service (FSIS) issued a Federal Register notice 
requesting information on methods for reducing sodium consumption.\18\ 
Upon release of the notice, FDA and FSIS held a public meeting and 
accepted comments until January 27, 2012. Since that time, however, 
neither FDA nor FSIS has responded to the IOM's recommendations. In the 
interim, some manufacturers and retailers have reduced the sodium 
content of some of their products,\19\ \20\ but many have not. Further 
reductions are clearly necessary in order to achieve meaningful 
reductions in Americans' sodium intakes.
---------------------------------------------------------------------------
    \18\ On September 15, 2011, the FDA and FSIS established a docket 
(FDA-2011-N-0400 and FSIS-2011-0014) to obtain comments, data, and 
evidence related to the dietary intake of sodium as well as current and 
emerging approaches designed to reduce sodium consumption. Comments 
were accepted until January 27, 2012.
    \19\ For example, Walmart, the Nation's largest grocer, pledged to 
work with manufacturers to reduce the sodium content of the foods its 
sells by 25 percent by 2015. http://news.walmart.com/news-archive/2011/
01/20/walmart-launches-major-initiative-to-make-food-healthier-
healthier-food-more-affordable.
    \20\ Recently, 21 packaged food and restaurant companies reduced 
sodium in popular products through a voluntary commitment that was part 
of the New York City Health Department's National Salt Reduction 
Initiative. http://www.nyc.gov/portal/site/nycgov/menuitem. 
c0935b9a57bb4ef3daf2f1c701c789a0/
index.jsp?pageID=mayorpress_release&catID=1194&doc_ 
name=http%3A%2F%2Fwww.nyc.gov%2Fhtml%2Fom%2Fhtml%2F2013a%2Fpr058-
13.html&cc= unused1978&rc=1194&ndi=1.
---------------------------------------------------------------------------
    Successful sodium reduction requires action and partnership at all 
levels--individuals, healthcare providers, professional organizations, 
public health agencies, and industry. But such actions will not occur 
without Government leadership. The AHA urges the subcommittee to see 
that FDA and FSIS place a renewed and intensive focus on this 
critically important public health issue in line with the IOM's 
recommendations.
    As a first step, we suggest that the subcommittee direct the FDA 
and FSIS to provide this committee with an update on the agencies' 
actions following the 2011 request for information on approaches to 
reduce sodium consumption.\21\
---------------------------------------------------------------------------
    \21\ Supra, n. 16.
---------------------------------------------------------------------------
    In an era of budget cutting, we recognize that the agencies' 
resources to act are limited. However, our organization stands ready to 
assist FDA and FSIS. We look forward to partnering with the agencies 
and private organizations to achieve a population-wide reduction in 
sodium intake.

    [This statement was submitted by Donna Arnett, Ph.D., President, 
American Heart Association.]
                                 ______
                                 
 Prepared Statement of the American Honey Producers Association, Inc. 
                                 (AHPA)

    Chairman Pryor and members of the subcommittee, my name is Randy 
Verhoek, and I currently serve as president of the American Honey 
Producers Association (AHPA). I am pleased today to submit the 
following statement on behalf of the AHPA, a national organization of 
commercial beekeepers actively engaged in honey production and crop 
pollination throughout the country. The purpose of this statement is to 
bring to your attention the continued threats faced by American 
beekeepers and the risk those threats pose to billions of dollars in 
U.S. agriculture that rely upon honeybee pollination services. To 
mitigate the impact of these threats in the short term and to eliminate 
the threats in the long term, we respectfully request an appropriation 
that meets the needs anticipated by the 2008 farm bill--first by fully 
funding the Emergency Livestock Assistance Program (ELAP) so that 
affected beekeepers hit with severe losses due to colony collapse 
disorder (CCD) will not need to consider shuttering the doors on their 
operations. Funding for ELAP should be sufficient to meet beekeeper 
demands for both fiscal year 2013 and fiscal year 2014, which based on 
historic trends and current circumstances will require a fiscal year 
2014 appropriation of at least $25 million that can be used to pay 
claims from both fiscal years. Second, we request funding for essential 
long-term research to combat CCD and to conduct other essential 
honeybee research through the Agricultural Research Service (ARS) and 
other agencies at the Department of Agriculture, including at least 
$11.7 million for bee research at the ARS Honeybee Research 
Laboratories and no less than $10 million for the National Institutes 
of Food and Agriculture (NIFA) for honey bee research and extension 
activities. And finally, we thank the subcommittee for its efforts in 
2012 to ensure long-term commitments from USDA to maintain the vital 
honey bee research agenda previously housed at the ARS Honey Bee 
Research Laboratory in Weslaco, Texas. Consistent with those 
commitments, we strongly encourage the subcommittee to continue to 
provide oversight over the transitioning of the honey bee research 
agenda from Weslaco, Texas, to the various other ARS laboratories. AHPA 
stands by as a resource should our assistance be needed.
    As your subcommittee is keenly aware, honeybees are an 
irreplaceable part of the U.S. agricultural infrastructure. Honeybee 
pollination is critical in the production of more than 90 food, fiber, 
and seed crops, and it directly results in $15 to $20 billion in U.S. 
farm output each year. One key example is the almond crop. California 
grows 100 percent of the Nation's almonds and supplies 80 percent of 
the world's almonds, all of which are 100 percent pollinated by managed 
bees. In fact, about 65 percent of managed colonies in the United 
States are transported each year from other parts of the country to 
pollinate those almonds. In addition to this clear commercial benefit, 
honeybees are also vital to the health of all Americans given the 
dietary importance of such diverse pollinated crops as almonds, apples, 
oranges, melons, blueberries, broccoli, tangerines, cranberries, 
strawberries, vegetables, alfalfa, soybeans, sunflower, and cotton, 
among others. In fact, honeybees pollinate about one-third of the human 
diet. As one recent headline noted, ``without honeybees, we may cease 
to be.''
    With this in mind, a threat to the existence of managed American 
honeybees is a threat to all Americans. And unfortunately, the American 
honeybee continues to face a number of significant threats. While not 
specifically a topic of relevance for congressional appropriators, 
complex trade law circumvention and customs fraud schemes continue to 
disadvantage the American honey producer, stress pollinated crops and 
even threaten the health and safety of consumers. This substantial 
trade threat is layered on top of the industry's ongoing battle against 
CCD, a phenomenon that since at least 2005 has ravaged bee colonies 
across the United States, moving from one apiary to another in 
unpredictable patterns and causing the death of up to 90 percent of the 
bee colonies in affected apiaries. The National Research Council at the 
National Academy of Sciences has, as a result of CCD, characterized the 
beekeeping industry as being in ``crisis mode''--a point echoed and re-
emphasized in a USDA action plan regarding honeybee threats. And 
hundreds of news articles and many in-depth media reports have 
continued to chronicle the looming disaster facing American beekeepers 
and the producers of over 90 fruit, vegetable and fiber crops that rely 
on honeybee pollination. This year is no exception, with some of our 
Nation's largest and most systemically important beekeepers reporting 
substantial losses. Expectations are that many of them will experience 
losses in excess of 50 percent of their colonies. In fact, in the past 
month alone, several television news segments have aired and dozens of 
articles have been written on the topic. The New York Times recently 
featured an article titled, ``Soaring Bee Deaths in 2012 Sound Alarm on 
Malady'' and another titled ``Calamity for Our Most Beneficial 
Insect''. A CBS segment accurately noted that the ``deepening honey bee 
crisis creates worry over food supply''.
    As you know, the Emergency Assistance for Livestock, Honey Bees and 
Farm-Raised Fish Program (ELAP) was enacted as part of the 2008 farm 
bill to assist eligible producers in the face of just this kind of 
crisis. ELAP is intended to help reduce losses due to diseases, adverse 
weather and other conditions that are not covered under any other 
program or by any insurance program. This new disaster program proved 
over the last 5 years to be the only effective safety net for 
struggling beekeepers whose colonies have been devastated year over 
year by the major, still unresolved problem of Colony Collapse Disorder 
(CCD). Unfortunately, in the American Taxpayer Relief Act of 2012, a 
last-hour amendment stripped ELAP of mandatory funding for fiscal year 
2013 and beyond. While we understand the challenges associated with 
finding new money to fund this essential program for fiscal year 2013 
and fiscal year 2014, we plea with the subcommittee to work with us to 
find a solution. By our calculation, at least $25 million will be 
needed to cover claims for both fiscal years.
    In addition to the acute crisis at hand, we must also stay 
vigilantly focused on the long term solution to this major problem. 
Despite extensive and coordinated work by experts from Government, 
academia and the private sector, the definitive causes of and solutions 
for CCD have yet to be identified. The research is complex, as there 
are a wide range of factors that--either alone or in combination--may 
be causes of this serious condition, including the impact of certain 
systemic crop pesticides. Continuing infestations of the highly 
destructive Varroa mite, combined with other pests and mites, are also 
thought to compromise the immune systems of bees and may leave them 
more vulnerable to CCD. At the same time, researchers will need to 
focus on the many reported instances in which otherwise healthy, pest-
free, stationary bee colonies are also suffering collapse or problems 
with reproduction.
    AHPA, other industry officials, and leading scientists believe that 
an important contributing factor in the current CCD crisis is the 
longstanding, substantial underfunding of U.S. bee research, resulting 
in an inadequate capacity to respond to new research challenges and to 
take long term steps to assure honeybee health. In recent years, 
honeybee research has become overly confined to four, and now three, 
ARS laboratories that, while providing the first line of defense 
against exotic parasitic mites, Africanized bees, viruses, brood 
diseases, pests, pathogens and other conditions, simply cannot be 
expected to handle the full range of honeybee research challenges at 
current funding levels. At the same time, universities and the private 
sector, despite their ability to provide significant and innovative new 
research on emerging bee threats, have scaled back their efforts due to 
a lack of available funds.
    In recent years, the Federal Government has spent very modest 
amounts at each ARS Honeybee Research Laboratory--for a sector that 
contributes nearly $20 billion per year to the U.S. farm economy and 
exponentially more to ensuring ecological balance and a healthy human 
diet. Worse still, with the emergence of CCD, funding amounts have not 
been increased commensurate with growing bee health concerns, resulting 
in a serious gap between the threats faced by U.S. honeybees and the 
capacity of our researchers to respond. Closing this gap will require 
significant new resources. To give a sense of this cost, it is 
estimated that each new scientist, technician and the support materials 
that they need will cost an additional $500,000 per year. Many new 
scientists are needed. The entire ARS research budget for honey bees is 
a paltry $11.7 million for all three ARS Honeybee Research 
Laboratories.
    To address these challenges, the AHPA respectfully requests funding 
consistent with authorizations provided in the 2008 farm bill, but no 
less than appropriated in fiscal year 2012, including at least $11.7 
million for ARS honey bee research. Specifically, the funds should be 
divided among the following Department of Agriculture agencies and 
programs: (1) the three ARS Bee Research Laboratories for new 
personnel, facility improvement, and additional research; (2) the 
Animal and Plant Health Inspection Service to conduct a nationwide 
honeybee pest and pathogen surveillance program; (3) the ARS Area Wide 
CCD Research Program divided between the Beltsville, Maryland and the 
Tucson, Arizona research laboratories to identify causes and solutions 
for CCD in affected States; (4) the NIFA to fund extension and research 
grants to investigate the following: honey bee biology, immunology, and 
ecology; honey bee genomics; native bee crop pollination and habitat 
conservation; native bee taxonomy and ecology; pollination biology; 
sub-lethal effects of insecticides, herbicides, and fungicides on honey 
bees, native pollinators, and other beneficial insects; the effects of 
genetically modified crops, including the interaction of genetically 
modified crops with honey bees and other native pollinators; honeybees, 
bumblebees, and other native bee parasites and pathogens' effects on 
other native pollinators; and (5) the additional ARS research 
facilities in New York, Florida, California, Utah, and Texas for 
research on honeybee and native bee physiology, insect pathology, 
insect chemical ecology, and honeybee and native bee toxicology.
    Unfortunately, last year, ARS, despite our strong opposition, 
closed the Weslaco ARS research facility, including the ARS Honeybee 
Research Laboratory--perhaps the newest and best of the four honeybee 
research laboratories in terms of practical, near term results 
achieved. Although a result of broader budgetary pressures--and not a 
decision aimed directly at honeybee research--the move nonetheless has 
caused great concern for our industry. From ARS's closure notification, 
it is our understanding that funds currently dedicated to the Weslaco 
honeybee research function are being ``re-directed'' to honeybee 
research currently conducted in Beltsville, Maryland; Baton Rouge, 
Louisiana; and Tucson, Arizona.
    We respectfully call on the subcommittee to continue to provide 
invaluable oversight to ensure that the vital research function 
previously performed at the Weslaco honey bee laboratory is not lost or 
diminished in this transition. In particular, we would ask the 
subcommittee to encourage movement of as much of the research as 
possible, including the bee colonies, from Weslaco to Baton Rouge and 
not to Tucson. Tucson does not have the right climate or forage to keep 
large quantities of bee colonies alive. Further, we are very concerned 
about the loss of personnel that has resulted from the transition--a 
loss we were assured would not happen and one we absolutely cannot 
afford at this time of need. Finally, we ask the subcommittee to 
consider dedicating future funding to improving the ARS facility in 
Baton Rouge so that it can absorb the Weslaco research and expand its 
own research capacity. The Baton Rouge facility was designed in the 
1950s, and unlike the state of the art facility that was closed in 
Weslaco, it needs substantial updating.
    And while to date the ARS Research Laboratories have been the 
backbone of American Honeybee research, we do not believe that those 
facilities alone--even when fully funded--will have the capacity to 
meet today's research needs. This is why, after analyzing the new and 
serious threats to U.S. honeybees, Congress, representatives of the 
farm sector and leading researchers developed the research priorities 
that were incorporated into the 2008 farm bill. In addition to 
increased resources for ARS research, these experts pressed for new 
funding, through NIFA, for Government, academic and private sector 
research. They also urged new bee surveillance programs through the 
Animal and Plant Health Inspection Service to address the alarming lack 
of accurate information about the condition of U.S. bee colonies.
    One particularly effective way of adding needed capacity and 
innovative expertise in the effort to ensure honeybee health would be 
to reinvigorate private sector and university bee research initiatives. 
For many years, these sectors played a vital role in honeybee research, 
and many leading universities have significant bee research 
capabilities. In recent years, non-Federal agency research has 
substantially declined due to a lack of support for such initiatives. 
Fully funding the 2008 farm bill authorization for the Department of 
Agriculture's NIFA would go a long way toward achieving this worthy 
goal. We respectfully request that the subcommittee provides no less 
than $10 million for NIFA's honey bee research and extension activities 
in fiscal year 2014.
    NIFA is tasked with advancing knowledge for agriculture by 
supporting research, education, and extension programs. Funds may be 
channeled through the Department to researchers at land-grant 
institutions, other institutions of higher learning, Federal agencies, 
or the private sector. The requested funding for NIFA would provide 
important flexibility in allocating badly needed Federal dollars among 
Government, private sector and university researchers. The recipients 
would provide more widespread research on honeybee biology, immunology, 
ecology, and genomics, pollination biology, and investigations into the 
effects on honeybees of potentially harmful chemicals, pests, other 
outside influences, and genetically modified crops. The result of such 
funds would be to ensure flexible financing with a comprehensive plan 
for battling CCD, pests, and other ongoing and future honeybee threats.
    In conclusion, we wish to thank you again for your past support of 
honeybee research and for your understanding of the critical importance 
that Federal funding plays in ensuring a healthy honeybee supply. By 
way of summary, in fiscal year 2014, the American Honey Producers 
Association strongly requests no less than $25 million for the 
Emergency Livestock Assistance Program, at least $11.7 million in 
funding for CCD and other honeybee research at the ARS Honeybee 
Research Laboratories, and no less than $10 million for NIFA's honey 
bee research and extension activities. The AHPA strongly encourages 
continued oversight to ensure the vital Weslaco research agenda is 
properly transferred and adequately prioritized at the other ARS 
laboratories. Only through critical research can we have a viable U.S. 
beekeeping industry and continue to provide stable and affordable 
supplies of bee-pollinated crops, which make up fully one-third of the 
U.S. diet. I would be pleased to provide answers to any questions that 
you or your colleagues may have.

    [This statement was submitted by Randy Verhoek, President, American 
Honey Producers Association, Inc.]
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium 
                                (AIHEC)

    This statement includes a summary of our fiscal year 2014 funding 
recommendations and an outline of the 1994 Institutions' plan for using 
our land grant programs to fulfill the agricultural potential of 
American Indian communities, and to ensure that American Indians have 
the skills and support needed to maximize the economic potential of 
their resources.

                  SUMMARY OF FISCAL YEAR 2014 REQUESTS

    While we recognize the current economic climate and resulting 
constraints, and although the amounts requested are above that 
previously appropriated, we believe these requests to still be modest 
given the fact that the funds appropriated are currently shared among 
32 tribal college land-grant institutions, and that two additional 
tribal colleges will soon be added to the list of 1994 land-grant 
institutions and therefore eligible to a portion of the funding, as 
well. The Tribal Colleges and Universities (TCUs) that are the 1994 
Land-Grant Institutions are an essential component of land grant 
system. The current 1994 Institutions operate more than 70 campuses and 
sites in 13 States, within whose geographic boundaries most American 
Indian reservations and Federal Indian trust land lie. They serve 
students from well over 250 federally recognized tribes, more than 75 
percent of whom are eligible to receive Federal financial aid. In 
total, the TCUs annually serve about 88,000 American Indians/Alaska 
Natives (AI/AN) through a wide variety of academic and community-based 
programs, including land-grant programs. TCUs are accredited by 
independent, regional accreditation agencies and like all U.S. 
institutions of higher education must undergo stringent performance 
reviews on a periodic basis to retain their accreditation status.
    The 1994 Institutions have programs established within the USDA 
National Institute of Food and Agriculture (NIFA) and the Rural 
Development mission area. In NIFA, we request: $30 million for the 1994 
Institutions' competitive Extension grants program; $15 million for the 
1994 Institutions' competitive Research Grants program; $30 million for 
the Higher Education Equity Grants; a doubling of the corpus in the 
Native American Endowment fund; and in the Rural Development--Rural 
Community Advancement Program (RCAP), that the full $10 million 
authorized, be appropriated for the TCU Essential Community Facilities 
Grants program to help the 1994 Institutions address the critical 
facilities and infrastructure needs that advance their capacity to 
participate as full land grant partners.
    1994 land grant programs--solid investment in economic capacity
    In the past, due to lack of expertise and training, millions of 
acres on Indian reservations lay fallow, under-used, or had been 
developed using methods that caused irreparable damage. The Equity in 
Educational Land Grant Status Act of 1994 is helping to address this 
situation and is our hope for the continued improvement of our 
reservation lands. Our current land grant programs remain very small, 
yet critically important to us. It is essential that American Indians 
explore and adopt new and evolving technologies for managing our lands. 
With increased capacity and program funding, we will become even more 
fundamental contributors to the agricultural base of the nation and the 
world.
    1994 Competitive Extension Grants Programs.--The 1994 Institutions' 
extension programs strengthen communities through outreach programs 
designed to bolster economic development; community resources; family 
and youth development; natural resources development; and agriculture; 
as well as health and nutrition education and awareness. Without 
adequate funding the 1994 Institutions' ability to maintain existing 
programs and to respond to the many emerging issues, such as food 
safety and homeland security (especially on border reservations) is 
severely hampered. The 1994 Institutions have continued to apply their 
resourcefulness for making the most of every dollar they have at their 
disposal by leveraging funds to maximize their programs whenever 
possible. For example, Nebraska Indian Community College (NICC) is 
conducting a 1994 Extension program called Preserving Native Seed Corn 
that assists tribal members in the production and preservation of 
culturally valuable heirloom seed corn through workshops and technical 
assistance. Program participants learn culturally appropriate 
strategies to address and solve critical issues such as food security, 
health and nutrition, and community development. Ironically, the 
1994s--the only land-grant institutions that are chartered by federally 
recognized tribes--are the only land-grant institutions that are not 
permitted to compete for grants intended to provide services to 
federally recognized tribal communities. Only the 1862 (State) and 1890 
(HBCU) land-grant institutions are eligible to compete for grant awards 
under the Federally Recognized Tribes Extension Program (FRTEP).
    1994 Competitive Research Grants Program.--Impressive efforts to 
address economic development through natural resource management have 
emerged from the 1994 Institutions collaborative research projects 
conducted in partnership with 1862/1890 land-grant institutions. The 
1994 Research Grants program illustrates an ideal combination of 
Federal resources and TCU-State institutional expertise, with the 
overall impact being far greater than the sum of its parts. The 
$1,805,000 appropriated in fiscal year 2010 for research to be 
conducted at all 32 tribal institutions, in partnership with another 
non-1994 land-grant institution, is the largest appropriation for this 
program to date, and is by any measure, wholly inadequate to develop 
capacity and conduct necessary research at our institutions. The 1994 
Research Grants program is vital to ensuring that TCUs may finally be 
recognized as full partners in the Nation's land grant system. While 
many of our institutions are conducting applied research, continuing to 
find the resources for this research to address their communities' 
needs is a continuous challenge. Priority issue areas that are 
currently being studied at the 1994 land-grants include: sustainable 
agriculture and forestry; biotechnology and bioprocessing; agribusiness 
management and marketing; plant propagation, including native plant 
preservation for medicinal and economic purposes; animal breeding; 
aquaculture; ramifications of human nutrition (including health, 
obesity, and diabetes); and family, community, and rural development. 
For example, Haskell Indian Nations University (HINU) in Lawrence, 
Kansas is partnering with Kansas State University on a project funded 
by a 1994 Research grant entitled: Food Deserts, Edible Landscapes, and 
Healthier Choices in Kansas. The project seeks to determine if 
extension services and peer-to-peer mentoring can improve the success 
of new American Indian gardeners. Researchers will also determine the 
best vegetable cultivars and fruit and nut tree varieties for the local 
area and provide outreach and technical assistance to Tribal members 
enrolled in Tribal gardening programs.
    1994 Institutions' Educational Equity Grant Program.--This program 
is designed to assist 1994 Institutions with academic programs. Through 
the modest appropriations first made available in fiscal year 2001, the 
1994 Institutions have developed and implemented courses and degree 
programs in natural resource management; environmental sciences; 
horticulture; forestry; and food science and nutrition. This last 
category is helping to address the epidemic rates of diabetes and 
cardiovascular disease that plague American Indian reservations.
    Native American Endowment Fund.--Endowment installments that are 
appropriated under the 1994 Institutions' account remain with the U.S. 
Treasury. Only the annual interest yield, less the USDA's 
administrative fee, is distributed to the 1994 Institutions. The latest 
interest yield, divided among the eligible 32 TCU land-grants by 
statutory formula, was $4,997,881 after the USDA NIFA claimed its 
standard 4 percent administrative fee of $209,242. Once again, the 
NIFA, to simply make the funds available for draw down by the eligible 
1994 Institutions, received a larger share than about 80 percent of the 
1994 institutions received to provide much-needed community programs 
and services. We respectfully request that (1) the subcommittee 
consider doubling the current endowment corpus over the next 2 years, 
to help stabilize the annual funding available to each of the 1994 
land-grants, and (2) direct USDA-NIFA to reduce the administrative fee 
to not more than 1 percent of the 1994 Endowment annual interest yield, 
so that more of these funds can be put to use by the 1994 Institutions 
to conduct essential community-based programs and address critical 
infrastructure needs.
    Tribal Colleges and Universities Essential Community Facilities 
Program (Rural Development).--Construction and facilities maintenance 
is necessary and expense. It is not unreasonable to expect that this 
competitive program be funded at the fully authorized level of $10 
million to help address the considerable facilities and infrastructure 
needs of over 30 land-grant institutions.

                               CONCLUSION

    The 1994 Institutions have proven to be efficient and effective 
vehicles for bringing educational opportunities to American Indians/
Alaska Natives and the promise of self-sufficiency to some of this 
Nation's poorest and most underserved regions. The small Federal 
investment in the 1994 Institutions has already paid great dividends in 
terms of increased employment, access to higher education, and economic 
development. Continuation of and growth in this investment makes sound 
moral and fiscal sense. American Indian reservation communities are 
second to none in their potential for benefiting from effective land-
grant programs and, as earlier stated, no institutions better exemplify 
the original intent of Senator Morrill's land grant concept than the 
1994 Institutions.
    We truly appreciate your support of the 1994 Institutions and 
recognition of their role in the Nation's land grant system. We ask you 
to renew your commitment to help move our students and communities 
toward self-sufficiency and respectfully request your full 
consideration of our fiscal year 2014 appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Nursery & Landscape Association 
           (ANLA) and the Society of American Florists (SAF)

    The American Nursery & Landscape Association (ANLA) and the Society 
of American Florists (SAF) welcome this opportunity to present the 
nursery and floriculture industry's views regarding the U.S. Department 
of Agriculture's (USDA) budget for the fiscal year 2014.
    ANLA is the national trade organization representing the U.S. 
nursery and landscape industry. ANLA represents some 11,000 family 
farms and small businesses who are active members of ANLA and/or its 
State and regional nursery and landscape association partners. ANLA's 
grower members produce all types of plant material for domestic and 
export markets. Domestically, ANLA members are estimated to produce 
about 75 percent of the nursery and greenhouse crops moving in domestic 
commerce in the United States that are destined for landscape use.
    SAF is the national trade association representing the floriculture 
industry in the United States. Membership includes some 10,000 small 
businesses, including growers, wholesalers, retailers, importers and 
related organizations, located in communities nationwide and abroad. 
The industry produces and sells cut flowers and foliage, foliage 
plants, potted flowering plants, and bedding plants, which compete in 
the international marketplace.

                  ECONOMIC IMPORTANCE OF THE INDUSTRY

    The floriculture and nursery industry represents a vibrant and 
economically very significant part of American agriculture. 
Floriculture and nursery crops are the third largest domestic U.S. crop 
in value, ahead of wheat, tobacco and cotton, and outranked only by 
corn and soybeans. Nursery and floriculture crops represent about 15 
percent of total U.S. crop receipts, and comprise over $15 billion of 
the U.S. farmgate economy. But we would not have even these indicators 
of our industry's importance without the surveys discussed in the 
following paragraphs.

          NATIONAL AGRICULTURAL STATISTICS SERVICE (USDA/NASS)

    The National Agricultural Statistics Service (NASS) provides 
statistical survey information essential to decisionmakers not only for 
Government, Congress, and other policymakers, but also for producers, 
for their economic and policy decisions. The President's budget request 
for fiscal year 2014 represents a $1 million reduction from the fiscal 
year 2013 budget, which continues a downward trend that is a 
significant concern for our industry.
    In addition, we are concerned that several statistical surveys of 
great importance to the environmental horticulture industry either have 
been eliminated or are in danger of being eliminated. We request that 
additional funding be included in the NASS budget to ensure adequate 
funding for these surveys:
  --Commercial Floriculture Crops Summary (annual survey);
  --Chemical Use Survey; and
  --Nursery Production Survey.
    We also support additional funding so that the Census of 
Horticultural Specialties, a follow-on survey to the Census of 
Agriculture, can be conducted every 5 years. The Census of 
Horticultural Specialties is another survey of extremely high 
importance to our industry. It is our understanding that the Census of 
Horticultural Specialties has been planned by NASS, but there is 
concern that the President's budget request may force elimination of 
this critically important survey.
    The importance of the statistical information provided by these 
NASS surveys to businesses cannot be overstated. Business owners in the 
environmental horticulture industry must be able to pivot quickly, and 
the information provided by the crop surveys helps them to decide upon 
crops that will be favorable investment opportunities. Particularly if 
pests or diseases strike, a business owner must be able to find 
information that will help determine other crops that might be 
substituted. These data not only help producers but also help retailers 
make sensible decisions in this regard. In short, these important 
surveys provide core data to businesses for their economic 
decisionmaking.
    An interesting example of this is seen in the current marketplace, 
as the disease ``Impatiens Downy Mildew'' is seen increasingly in 
States across the United States. Impatiens walleriana, the common 
impatiens that are seen in landscapes, is obviously a mainstay crop of 
our industry, in some years accounting for over $174 million in farm 
gate sales across all 50 States. Yet the new disease is creating havoc 
in the markets, with consumers, garden centers and ``big box stores'' 
unwilling to buy impatiens for fear of losing them to this disease. 
Research is being conducted, through USDA and private funding, to try 
to determine the causes of this new disease and to help producers avoid 
it. However, until cures can be found, growers must switch to other, 
hopefully equally profitable, crops. The only place to find that kind 
of information--trends, current production, and potential 
marketability--is through the annual Floriculture Crops Survey. Because 
the survey was cut back several years ago to just 15 major States, the 
information is not perfect. But it is the best we can find, and it is 
essential to small and large businesses across America.
    Specialty crops represent approximately one-half of U.S. cash crop 
receipts, and floriculture and nursery crops represent one-third of 
specialty crop value! These figures come from NASS' own statistics--and 
we continue to need those statistics to adequately represent our 
industry. Our crops must be considered as ``core'' to the NASS mission.
    Our businesses are located not only in rural communities but also 
represent ``urban agriculture'' as they are located in every State and 
congressional district of the United States. The NASS survey data 
provide economic indicators which are of key importance to our 
industry, and to the economic health of those communities.
    In addition, these data are used by other USDA programs--for 
research decisions by ARS and NIFA, by APHIS in determining pest 
eradication and prevention priorities and for allocation of its farm 
bill mandatory funding, and by every State department of agriculture. 
And, of course, those data are used by congressional decisionmakers. It 
is fundamental to good statistical surveys that they must be conducted 
broadly and impartially, protect proprietary information, and be 
accessible to all interested users. Private industry cannot provide 
this kind of industry-wide survey data.
    Just as with any other segment of U.S. agriculture, the 
environmental horticulture industry cannot survive and continue to be 
an important contributor to our national economy without the 
statistical data provided by the NASS surveys, and we urge recognition, 
by continued appropriations, of their importance.
     usda--animal and plant health inspection service (usda-aphis)
    APHIS is responsible for safeguarding U.S. agricultural and 
environmental plant resources from the serious risks posed by harmful 
invasive plant pests and noxious weeds. Increasing trade and travel 
have accelerated the movement of plant pests around the world, 
threatening the well-being and future potential of the thriving U.S. 
nursery and floral industry, and agriculture in general.
    ANLA and SAF strongly support the President's budget request for 
APHIS. However, we note with concern that APHIS staffing has been 
reduced by more than 600 employees since fiscal year 2011 through 
attrition and only filling ``critical'' vacancies, and we urge that 
Congress provide adequate funding to APHIS so that this downturn can be 
stopped. APHIS's mission, to protect the health and value of U.S. 
agriculture and the environment, is among the most important missions 
of the Department of Agriculture, particularly in the face of increased 
globalization of trade. Working to prevent, or eradicate, serious and 
destructive pests and diseases from the United States is essential to 
our continued economic growth and success, but that can only be 
accomplished with adequate funding and staffing. We believe that 
additional resources are needed to support continued progress, 
including in the area of Specialty Crop Pests.
    Thank you for the opportunity to present the nursery and 
floriculture industry's views regarding the U.S. Department of 
Agriculture's budget for the fiscal year 2014.

    [This statement was submitted by Joseph Bischoff, Ph.D., Director 
of Government Relations, American Nursery & Landscape Association, and 
Lin Schmale, Senior Director, Government Relations, Society of American 
Florists.]
                                 ______
                                 
   Prepared Statement of the American Society for Microbiology (ASM)

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2014 appropriation for the 
U.S. Food and Drug Administration (FDA). The ASM is the largest single 
life science organization in the world with more than 37,000 members.
    The Nation's consumers spend nearly 25 cents of every dollar on 
products regulated by the FDA. FDA protects consumers by assuring the 
safety, efficacy and security of human and veterinary drugs, biological 
products, the food supply, and other consumer and health related 
products. The ASM urges increased funding for FDA to strengthen an 
agency burdened by too few resources needed to protect public health.
    Under budget sequestration, FDA will lose $318 million from its 
fiscal year 2013 funding level, which will exacerbate difficult choices 
already facing the agency. The exact effects of sequestration are yet 
to be determined. However, possible outcomes include more than 1,000 
fewer field inspectors, fewer overseas facilities visits, delays in 
product approvals, or greater numbers of foodborne illnesses. Since FDA 
is largely a service organization with most of its budget for salaries, 
training, and travel of its field personnel, cuts in funding are likely 
to have impacts on product safety. Decreasing FDA's budget will affect 
its ability to respond to market globalization and emergent pathogens.
    FDA priorities outlined in its 2011-2015 strategic plan reflect the 
breadth of FDA's mission: advance regulatory science and innovation, 
strengthen the safety and integrity of the global supply chain, 
strengthen compliance and enforcement activities to support public 
health, expand efforts to meet the needs of special populations, and 
advance medical countermeasures. FDA's Center for Food Safety and 
Applied Nutrition (CFSAN) monitors all cosmetics and 80 percent of our 
food supply, regulating all food products except meat, poultry and egg 
products overseen by the Department of Agriculture (USDA). Other FDA 
units regulate drugs; medical devices; radiation-emitting products like 
medical imaging equipment; vaccines, blood and biologics; animal/
veterinary products including pet food; and tobacco.
    FDA scientists and their colleagues at the Centers for Disease 
Control and Prevention (CDC) investigated the microbial contamination 
of unopened vials of injectable solutions from a New England 
manufacturer, implicated in an outbreak of fungal meningitis that to 
date has killed 50 people and sickened 722 in 20 States.
    Other recent FDA actions include recall of U.S. made pet treats due 
to potential salmonella contamination; and the closure of a peanut 
butter processing plant in New Mexico as the source of dozens of 
illnesses in 20 States (also salmonella-linked). In January, FDA 
approved the first trivalent influenza vaccine that will be produced 
using an insect virus expression system and recombinant DNA technology. 
Unlike current flu vaccines, the new one does not use eggs or the 
influenza virus in its production, in a process already FDA approved 
for certain vaccines against other infectious diseases.
    In recent years, food imports have grown by an average of 10 
percent each year; over 16 percent of all food products now consumed in 
the United States are produced elsewhere. More than 20 million import 
lines of food, devices, drugs, and cosmetics arrived at U.S. ports of 
entry in fiscal year 2010, over three times the number 10 years before. 
Nearly 80 percent of pharmaceutical ingredients are now made in other 
countries, further complicating consumer safety issues. FDA's Human 
Drugs Program not only evaluates all new drugs prior to entering the 
market, but also the quality of more than 10,000 currently marketed 
drugs. The Animal Drugs and Feeds Program regulates drugs, devices, and 
food additives that affect over 150 million companion animals and 
billions of poultry, cattle, swine, and other species in the United 
States. The public depends upon FDA's seven product and research 
centers, staffed by many of FDA's 12,000 employees, to evaluate and 
regulate the efficacy and quality of near limitless consumer products.
 fda funding improves quality, protects safety of the u.s. food supply
    FDA is responsible for protecting and promoting public health, in 
part by ensuring that the Nation's food supply for human and animal 
consumption is safe, sanitary, wholesome, and properly labeled. Each 
year, the agency regulates $417 billion worth of domestic food and $49 
billion of imported foods. In addition, FDA personnel oversee about 
450,000 domestic and foreign facilities registered under the Public 
Health Security and Bioterrorism Preparedness and Response Act. 
According to the FDA, the agency expends more than 1,300 full-time 
staff years (FTEs) to fulfill annual duties in conducting food and feed 
inspection and investigational activities.
    FDA's food related responsibilities include collecting and 
evaluating thousands of samples and shipments drawn from the voluminous 
U.S. food supply chain. The Food Safety Modernization Act (FSMA) of 
2011 mandated even greater responsibility to FDA, the first major food 
safety law in over 70 years. FDA's performance in food safety has been 
criticized over the years, with inadequate funding often indicted as 
the underlying cause. Reports from the U.S. Government Accountability 
Office (GAO) and other watchdog agencies periodically recommend changes 
that necessitate increased FDA expenditures. Since 2007, Federal 
oversight of food safety has been on GAO's high-risk list of areas that 
need to be transformed for the public good, citing fragmentation caused 
by 15 agencies collectively administering at least 30 laws.
    About one in every six people in this country get sick each year 
from food contaminated with microbial pathogens. Most of these 50 
million-plus cases go unreported, but too many cause serious illness 
with nearly 130,000 hospitalized. salmonella alone causes $365 million 
in direct medical costs each year. FDA and its food safety partners 
like CDC have had successes like cutting E. coli O157 cases nearly in 
half since 1997. But foodborne illnesses remain significant threats to 
public health--in 2009-2010, CDC investigated 1,527 foodborne disease 
outbreaks, most due to norovirus or salmonella. Outbreaks and 
subsequent Federal enforcement exact both human costs and economic 
losses. USDA estimated that during the 2011 Listeria outbreak linked to 
cantaloupes, prices for cantaloupe dropped about 34 percent. The 2008 
salmonella tomato-pepper outbreak forced about $145 million in losses 
to tomato growers and shippers in several States, according to industry 
representatives.
    FDA faces daunting numbers of regulated food-production sites in 
the United States, with more than 171,500 FDA registered food 
facilities and 2 million farms. FDA inspection activities require the 
best available laboratory and computing tools. In addition to other 
responsibilities, FDA strives to advance research on food related 
technologies. For example, it has joined with CDC, the University of 
California, and Agilent Technologies to create a public database of 
100,000 foodborne pathogen genomes to help speed identification of 
bacteria in foodborne outbreaks. The database will guide diagnostic 
test development that has potential to shorten outbreak investigation 
from weeks to days.
    As part of its oversight activities, FDA inspects a targeted number 
of foreign facilities that process foods under its jurisdiction. The 
goal is to identify potential food safety problems before products 
enter the United States and to help make risk based decisions when 
imported foods reach U.S. ports. Last year, we imported goods worth 
nearly $2.3 trillion, a large portion as food. Imported food keeps 
increasing, as a percentage of all food consumed from about 9 percent 
in 2000 to over 16 percent today. Some food categories have higher 
percentages, for example, 60 percent of fruits and vegetables consumed 
in 2009 and 84 percent of seafood in 2011.
    In 2011 FDA created the Office of Global Regulatory Operations and 
Policy to help address its growing global responsibilities. Like other 
FDA duties, regulating imported foods involves very large numbers that 
create logistical challenges. Today, there are more than 130,000 
importers of record and about 300 U.S. ports of entry, handling 
products from about 278,300 FDA registered foreign food and feed 
facilities in countries worldwide. Import volumes have risen steadily 
since 1994, from fewer than 3 million lines up to an estimated 28.1 
million lines in 2012. Yet FDA's inspector FTE numbers remained 
essentially unchanged. In fiscal year 2011, FDA inspected only about 
0.4 percent of registered foreign food facilities. That year, FDA 
examined about 2.2 percent of all food entry lines and tested samples 
from less than 0.5 percent of all lines.

          FDA FUNDING SUPPORTS ADVANCES IN REGULATORY SCIENCE

    FDA's role in public health has been changing, pushed by evolving 
science and technology and an increasingly globalized world. In recent 
years, the agency has placed greater emphasis on its regulatory 
science, incorporating ``embracing innovation'' into its vision for a 
stronger FDA. Personnel must utilize the latest scientific knowledge to 
assess effectively the growing list of FDA regulated products. The 
diversity of these products and their end-users mandates that FDA stay 
current in its science and technology capabilities, as these examples 
from the past year illustrate:
  --Proposed two new FSMA rules, requiring food manufacturers to submit 
        food safety plans to FDA and enforcing safety standards for 
        farms growing fresh fruits and vegetables; proposed in January, 
        these rules are still open for public comment.
  --Approved the first nucleic acid test that can simultaneously 
        identify 12 different bacterial types known to cause 
        bloodstream infections, including Staphylococcus (including 
        methicillin-resistant MRSA), Streptococcus, Enterococcus 
        (including vancomycin-resistant VRE), and Listeria. Results are 
        available within a few hours after initial bacterial growth, 
        versus traditional methods that might require 2 to 4 days.
  --Approved a combination vaccine for infants and children ages 6 
        weeks through 18 months, preventing disease caused by Neisseria 
        meningitidis serogroups C and Y and Haemophilus influenzae type 
        b.
  --Issued two draft guidance's regarding nanotechnology in the food 
        and cosmetics industries, outlining FDA safety assessments of 
        its use in cosmetic products and food processing.
    The FDA must access the most advanced scientific knowledge, to 
support both regulatory activities and public health education of the 
public. Congress has demonstrated strong support for FDA in the past, 
evidenced by the recent bipartisan approval of the FDA Safety and 
Innovation Act to bring drugs and devices to market more quickly and 
encourage innovation in the biomedical industry.
    The ASM strongly urges Congress to increase the fiscal year 2014 
budget for the FDA which is so critical the Nation's public health.

    [This statement was submitted by the Office of Public Affairs, 
American Society for Microbiology.]
                                 ______
                                 
   Prepared Statement of the American Society for Microbiology (ASM)

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2014 appropriation for food 
safety and science programs at the U.S. Department of Agriculture 
(USDA). The ASM is the largest single life science organization in the 
world with more than 37,000 members.
    USDA's food safety and science programs ensure the quality and 
quantity of the U.S. food supply, as well as safeguard plant and animal 
health. Both the Nation's public health and its economic well-being are 
rooted in agriculture. USDA estimates that the agricultural sector 
accounts for 1 in 12 jobs in the country and U.S. agricultural exports 
consistently exceed imports. In fiscal year 2012, agriculture exports 
were valued at nearly $136 billion, and U.S. production continues to 
expand through innovation and technology.
    There are few aspects of life as basic as adequate, wholesome food. 
The actual outcomes of USDA's mandated cuts are still unknown, but 
clearly the USDA food safety and research activities are essential, and 
should not be jeopardized.
    Agriculture is challenged by food demand for the growing global 
population, climate variability, food safety threats, demands for 
bioenergy and emerging plant and animal diseases. These challenges have 
grown increasingly dependent on cutting edge science and technology. 
Last year, the President's Council of Advisors on Science and 
Technology (PCAST) evaluated the future of the entire U.S. research 
enterprise, reinforcing the importance of robust research and 
development (R&D) and applauded the tradition of agriculture research 
and education initiated by the 1862 Morrill Act that created land grant 
colleges. For over a century, federally funded basic and applied 
research has helped transform U.S. agriculture into a production 
powerhouse that feeds not only our Nation but also those who import our 
agriculture products. The report also points to agriculture research 
and the USDA's own laboratories, source of new products, jobs, and 
industries, as exemplifying the practical benefits and importance of 
fundamental research.
    PCAST released another report in December focused on agricultural 
preparedness and the agriculture research enterprise. The report 
concluded that ``our Nation's agricultural research enterprise is not 
prepared to meet the challenges that U.S. agriculture faces in the 21st 
century.'' Agriculture research is a wise investment in the future, 
generating at least $10 in benefits for every dollar invested. 
Unfortunately, Federal funding of agriculture research has stagnated at 
roughly the same level for the past 30 years. The PCAST report also 
warned that ``looking to the future, U.S. agriculture must continue to 
be the backbone for the emerging U.S. bioeconomy, helping the Nation 
meet its need for sustainable sources of energy and materials, and 
simultaneously contributing to the prosperity of rural communities. A 
vibrant U.S. agriculture enterprise is paramount to the future well-
being of the Nation.''

   USDA RESEARCH PROMOTES AGRICULTURE PRODUCTION AND PROTECTS PUBLIC 
                                 HEALTH

    Solving large scale problems like keeping contaminated food out of 
the U.S. farm-to-table supply system requires a long term mindset and 
adequate and consistent Federal funding. The ASM has consistently 
advocated for stronger USDA science funding. It seems prudent to 
protect the Nation's $157 billion agriculture, fishing and forestry 
industries with solid science and research. We are especially concerned 
that the current fiscal uncertainties might financially degrade the 
USDA's microbiology related projects, which range from food safety and 
bioenergy production to plant and animal diseases. Over the past year, 
these projects resulted in the first broad spectrum bacterial-toxin 
insecticide in 50 years and the genetic sequencing of citrus rootstock 
with resistance to major citrus diseases. These are just two examples 
of new USDA funded tools that boost domestic agriculture productivity.
    The USDA is the largest Federal supporter of agriculture R&D by 
both university and Government researchers. In 2009, the USDA funded 
more than half of the total agriculture R&D at U.S. universities and 
awarded $1.4 billion through its extramural programs. The USDA's 
National Institute of Food and Agriculture (NIFA) distributes grants to 
colleges and universities for research, extension and education 
activities. The agriculture focused PCAST report recommended the 
``creation of a new innovation ecosystem for agriculture'' with greater 
Federal investment in agricultural research and an additional $700 
million annually. Such an investment would, among other initiatives, 
increase the USDA's support for competitive extramural grants from $264 
million to $500 million per year and appropriate $150 million annually 
for at least 5 years to create six multidisciplinary innovation 
institutes. In light of the current fiscal environment, ASM urges 
Congress to fund AFRI with at least $325 million in fiscal year 2014, 
the same amount as the administrations fiscal year 2013 request, and 
supported by agricultural sciences coalitions.
    The Agriculture and Food Research Initiative (AFRI), the premier 
competitive grants program for fundamental and applied research, 
extension and education in support of agriculture and food research, 
was created in 2008 in response to public requests for an increase in 
scientifically rigorous agriculture research programs. Administered by 
the National Institute of Food and Agriculture (NIFA), AFRI has been 
authorized at $700 million annually since 2008, but in fiscal year 2012 
only received $264 million while research proposals exceeded $4 
billion.
    USDA intramural funds are allocated primarily among the 
Agricultural Research Service (ARS), Economic Research Service (ERS) 
and Forest Service. Created in 1953 as USDA's principal scientific 
research entity, ARS is a cornerstone of the agency's Research, 
Education, and Economics mission area. More than 8,000 ARS employees, 
including 2,000 full time scientists, conduct research at more than 100 
laboratories in the United States and several other countries. The ARS 
Strategic Plan for fiscal years 2012 through 2017 comprised multiple 
action plans focused on USDA's agency wide research priorities, which 
currently include: global food security, food safety, human nutrition, 
climate change and bioenergy.
    USDA funded researchers regularly make discoveries that strengthen 
U.S. agriculture through innovation. Recent microbiology related 
examples show the diversity of USDA research and add value to a major 
sector of the U.S. economy:
  --ARS microbiologists are refining liquid culture fermentation 
        methodology to increase laboratory yields of insect-killing 
        fungi, for potential large-scale production as biopesticides. 
        Less expensive than current practices, the new method also is 
        more amenable to cultivating a wider range of the fungi which 
        penetrate insect pests and kill them within days.
  --ARS scientists are developing rapid diagnostic tests for West Nile 
        fever and Rift Valley fever using surface enhanced Raman 
        scattering (SERS) technology. The assays will eventually be 
        adapted as field testing tools to aid veterinarians on site. 
        The new technology is more sensitive and detects more pathogens 
        then currently available field tests.
  --Last fall, NIFA contributed to the 12 new grants awarded through 
        the joint National Science Foundation-National Institutes of 
        Health program called Ecology and Evolution of Infectious 
        Diseases (EEID). They include university studies on ocean 
        ecology's impacts on infectious marine disease and studies on 
        the emergence of babesiosis in the United States.
  --ARS microbiologists discovered that bacterial contamination in 
        poultry cages can be eliminated by treating washed cages for 15 
        minutes with heated forced air, preventing cross contamination 
        between infected and healthy birds. Any decrease in 
        contamination has considerable public health and economic 
        benefits. Salmonella contaminated eggs and poultry are a 
        leading cause of illness in the United States, and the U.S. 
        poultry industry is the world's largest producer with the total 
        farm value of poultry producing in excess of $20 billion per 
        year.

             USDA FUNDING ENSURES FOOD SAFETY AND SECURITY

    Our food supply systems are uniquely complex, immense in volume, 
diversity and monetary value. USDA's Food Safety and Inspection Service 
(FSIS) enforces Federal standards for domestic and imported meats, 
poultry and processed egg products to ensure that they are safe, 
wholesome, properly labeled and packaged. More than 8,000 FSIS 
employees inspect food and methods at more than 6,000 registered food 
related facilities. The amount of food to inspect far exceeds FSIS's 
resources to physically inspect and sample. U.S. producers raise about 
35 million heads of livestock and over 2 billion poultry annually. U.S. 
beef consumption exceeds 25 billion pounds annually while poultry meat 
production is more than 43 billion pounds per year. USDA inspections, 
regulatory actions and industry guidelines must be supported by the 
best available science based testing and assessment tools, many of 
which are developed by USDA funded researchers. Funding for USDA 
science and food safety programs builds technical expertise throughout 
the agency benefiting the public. An example is NIFA's recent award of 
nearly $15 million for 17 extramural research projects to protect food 
from microbial and chemical contamination, with a primary focus of 
controlling and preventing Salmonella and Campylobacter in poultry 
flocks and poultry products.
    The ASM encourages Congress to increase the fiscal year 2014 budget 
to the highest amount possible in support of USDA's science, research 
and food safety programs. USDA funded research is critical to the 
health of our Nation's food and agriculture industries as well as the 
global economy. USDA science protects human and animal health, prevents 
crop losses from disease and climate changes, seeks best practices to 
preserve the environment, encourages innovation in valuable agriculture 
based products and supports new generations of agriculture scientists 
and educators.

    [This statement was submitted by the Public and Scientific Affairs 
Board, American Society for Microbiology.]
                                 ______
                                 
     Prepared Statement of the American Society for Nutrition (ASN)

    Dear Chairman Pryor and Ranking Member Blunt: The American Society 
for Nutrition (ASN) respectfully requests that the U.S. Department of 
Agriculture (USDA)/National Institute of Food and Agriculture/
Agriculture and Food Research Initiative receive $325 million and that 
the Agricultural Research Service receive $1.2 billion in fiscal year 
2014. ASN has nearly 5,000 members working throughout academia, 
clinical practice, Government, and industry, who conduct research to 
advance our knowledge and application of nutrition.

                AGRICULTURE AND FOOD RESEARCH INITIATIVE

    The USDA has been the lead nutrition agency and the most important 
Federal agency influencing U.S. dietary intake and food patterns for 
years. Agricultural research is essential to address the ever-
increasing demand for a healthy, affordable, nutritious and sustainable 
food supply. The Agriculture and Food Research Initiative (AFRI) 
competitive grants program is charged with funding research, education, 
and extension grants and integrated research, extension, and education 
grants that address key problems of national, regional, and multi-state 
importance in sustaining all components of agriculture. These 
components include human nutrition, farm efficiency and profitability, 
ranching, renewable energy, forestry (both urban and agro forestry), 
aquaculture, food safety, biotechnology, and conventional breeding. 
AFRI has funded cutting-edge, agricultural research on key issues of 
timely importance on a competitive, peer-reviewed basis since its 
establishment in the 2008 farm bill. Adequate funding for agricultural 
research is critical to provide a safe and nutritious food supply for 
the world population, to preserve the competitive position of U.S. 
agriculture in the global marketplace, and to provide jobs and revenue 
crucial to support the U.S. economy. In order to achieve those 
benefits, AFRI must be able to advance fundamental sciences in support 
of agriculture and coordinate opportunities to build off of these 
discoveries. Therefore, ASN requests that the AFRI competitive grants 
program receive $325 million in fiscal year 2014. ASN also strongly 
supports funding AFRI at the fully authorized level of $700 million as 
soon as practical. Current flat and decreased funding for AFRI hinders 
scientific advances that support agricultural funding and research.

                     AGRICULTURAL RESEARCH SERVICE

    The Agricultural Research Service (ARS) is the Department of 
Agriculture's lead scientific research agency. The ARS conducts 
research to develop and transfer solutions to agricultural problems of 
high national priority. USDA's program of human nutrition research is 
housed in six Human Nutrition Research Centers (HNRCs) across the 
Nation, that link producer and consumer interests and form the core for 
building knowledge about food and nutrition. HNRCs conduct unparalleled 
human nutrition research on the role of food and dietary components in 
human health from conception to advanced old age, and they provide 
authoritative, peer-reviewed, science-based evidence that forms the 
basis of our Federal nutrition policy and programs. Funding for ARS 
supports all of the USDA/HNRCs and ensures that these research 
facilities have adequate funding to continue their unique mission of 
improving the health of Americans through cutting-edge food, nutrition 
and agricultural research.
    Nutrition monitoring conducted in partnership by the USDA/ARS with 
the Department of Health and Human Services (HHS) is a unique and 
critically important surveillance function in which dietary intake, 
nutritional status, and health status are evaluated in a rigorous and 
standardized manner. (ARS is responsible for food and nutrient 
databases and the ``What We Eat in America'' dietary survey, while HHS 
is responsible for tracking nutritional status and health parameters.) 
Nutrition monitoring is an inherently governmental function and 
findings are essential for multiple Government agencies, as well as the 
public and private sector. Nutrition monitoring is essential to track 
what Americans are eating, inform nutrition and dietary guidance 
policy, evaluate the effectiveness and efficiency of nutrition 
assistance programs, and study nutrition-related disease outcomes. 
Because of past funding deficiencies, some food composition database 
entries don't reflect the current food supply, which may negatively 
impact programs and policies based on this information. It is 
imperative that needed funds to update USDA's food and nutrient 
databases and the ``What We Eat in America'' dietary survey, both 
maintained by the USDA/ARS, are appropriated to ensure the continuation 
of this critical surveillance of the Nation's nutritional status and 
the many benefits it provides.
    It is the job of ARS to ensure high-quality, safe food, and other 
agricultural products; assess the nutritional needs of Americans; 
sustain a competitive agricultural economy; enhance the natural 
resource base and the environment; and provide economic opportunities 
for rural citizens, communities, and society as a whole. Therefore, ASN 
requests that ARS receive $1.2 billion in fiscal year 2014. At least 
$10 million above current funding levels is necessary to ensure that 
the critical surveillance of the Nation's nutritional status and the 
many other benefits ARS provides continue. With such funding, the ARS 
will be able to continue its vision of leading America toward a better 
future through agricultural research and information.
    Thank you for the opportunity to submit testimony regarding fiscal 
year 2014 appropriations for the U.S. Department of Agriculture/
National Institute of Food and Agriculture/AFRI competitive grants 
program and Agricultural Research Service.

    [This statement was submitted by Teresa A. Davis, Ph.D., 2012-2013 
President, American Society for Nutrition; Professor of Pediatrics, 
USDA/ARS Children's Nutrition Research Center, Baylor College of 
Medicine.]
                                 ______
                                 
   Prepared Statement of the American Society for the Prevention of 
                       Cruelty to Animals (ASPCA)

    On behalf of the American Society for the Prevention of Cruelty to 
Animals (ASPCA) and our 2.5 million supporters nationwide, thank you 
for the opportunity to submit this written testimony. Founded in 1866, 
the ASPCA was the first humane organization in North America. Our 
mission, as stated by founder Henry Bergh, is ``to provide effective 
means for the prevention of cruelty to animals throughout the United 
States.'' As you craft the fiscal year 2014 appropriations bill, the 
ASPCA asks that you please consider the following provisions.

 REINSTATEMENT OF THE BAN ON FEDERAL FUNDING FOR HORSE SLAUGHTERHOUSE 
                              INSPECTIONS

    A provision barring Federal funding for USDA inspections at 
domestic horse slaughter plants was first added as an amendment to the 
Agriculture Appropriations bill in 2005. Supported by strong, 
bipartisan votes in both the House and Senate, each successive 
appropriations bill included the provision until it was omitted in 
fiscal year 2012--the funding bill successive continuing resolutions 
have been based upon. The President's fiscal year 2014 budget 
specifically includes this language, and the ASPCA urges the committee 
to retain the language in its fiscal year 2014 appropriations bill.
    Including the ban on funding for horse slaughter inspections is now 
more important than ever. Even though Americans do not eat horse meat, 
and national polling indicates 80 percent of Americans oppose the 
slaughter of horses for human consumption, the USDA is moving forward 
to approve the application for horse meat inspections at a facility in 
New Mexico. Cruelties associated with horse slaughter are well-
documented. Whether in the United States or over the border, horses are 
trucked long distances without food, water, or rest. Many horses, 
including pregnant mares, are injured, trampled, and even killed on the 
cramped trucks during trips lasting more than 24 hours.
    Horses that survive their transport then endure a cruel slaughter 
process that cannot be made humane. Although the formerly operating 
domestic plants were regulated by USDA, the slaughter of these horses 
was anything but humane. As extreme flight animals, horses are 
fractious by nature and ill-suited for captive bolt stunning. Many 
horses endured repeated blows and sometimes remained conscious during 
their dismemberment. USDA's own photos show horses at the plants with 
broken bones protruding from their bodies, eyeballs hanging by a thread 
of skin, and severe open wounds, all effects of the cruel nature of the 
horse slaughter process.
    American horses are not raised for food so they are routinely given 
numerous drugs throughout their lives that are prohibited by the FDA 
for use in animals intended for human consumption. A 2010 Food and 
Chemical Toxicology Journal article detailed the ubiquitous nature of 
phenylbutazone, a drug banned for use in any animal for human 
consumption, in race horses subsequently sent to auction and slaughter 
within days of medication.\1\ A recent New York Times expose emphasized 
a virtual arms race of illegal and harmful drugs in races horses 
including the use of ``cobra venom, Viagra, blood doping agents, 
stimulants, and cancer drugs'' and the resulting food safety 
threats.\2\ It is impossible for the Food Safety and Inspection Service 
(FSIS) to test for these substances when horses have no tracking system 
to indicate their health histories and trainers constantly experiment 
with new and unknown stimulants to gain a competitive edge on the 
track.
---------------------------------------------------------------------------
    \1\ ``Association of Phenylbutazone Usage With Horses Bought for 
Slaughter: A Public Health Risk.'' Food and Chemical Toxicology: May 
2010.
    \2\ ``Death and Disarray at America's Racetracks.'' The New York 
Times: March 24, 2012.
---------------------------------------------------------------------------
    The shocking discovery of horse meat in European beef products 
demonstrates the threats to American health and consumer confidence 
that could affect domestic meat production if this grisly practice 
returns to the United States. As a result of the EU situation, frozen 
burger sales in the United Kingdom dropped by 43 percent in the month 
following the discovery of horse meat, packaged meat sales declined 30 
percent in Italy, and sales of frozen-meat dishes in France dropped by 
30 percent.\3\ \4\ \5\ When the USDA was asked if such a scandal could 
happen here, their only reassurance was that horses are not slaughtered 
in the United States.\6\
---------------------------------------------------------------------------
    \3\ ``Frozen Burger Sales Plummet In UK After Horse Meat 
Controversy, Report Says.'' The Huffington Post: February 27, 2013
    \4\ ``Package Meats Down 30 percent in Italy Amid Horsemeat 
Fears.'' RTT News: March 7, 2013.
    \5\ ``Frozen Dishes Sales Collapse in France, Seen Lasting.'' 
Reuters: March 4, 2013.
    \6\ http://abcnews.go.com/Health/european-horse-meat-scandal-
happen-us/story?id=18506026& page=1.
---------------------------------------------------------------------------
    The committee has the opportunity to protect the welfare of our 
country's horses and maintain the integrity of the American food supply 
by barring funding for horse meat inspections.
    The ASPCA requests that the committee support the President's 
budget request to make the fiscally responsible and humane decision to 
reinstate the ban on Federal funding for horse slaughterhouse 
inspections. We request the committee retain the following language 
from the President's budget:

    ``None of the funds made available in this Act may be used to pay 
the salaries or expenses of personnel to--
            ``(1) inspect horses under section 3 of the Federal Meat 
        Inspection Act (21 U.S.C. 603);
            ``(2) inspect horses under section 903 of the Federal 
        Agriculture Improvement and Reform Act of 1996 (7 U.S.C. 1901 
        note; Public Law 104-127); or
            ``(3) implement or enforce section 352.19 of title 9, Code 
        of Federal Regulations.''.

   INCREASE AWA ENFORCEMENT FUNDING FOR THE INSPECTION OF PUPPY MILLS

    One of the functions of the USDA's Animal and Plant Health 
Inspection Service (APHIS) is to ensure the humane care and treatment 
of animals by enforcing the requirements of the Animal Welfare Act of 
1966 (AWA). Included in this mandate is the inspection of large-scale 
commercial dog breeding operations. Dogs raised in substandard 
facilities, commonly known as puppy mills, spend their entire lives in 
small, crowded cages without adequate veterinary care, food, water, and 
socialization. These dogs receive no exercise or basic grooming. To 
minimize waste cleanup, dogs are often kept in cages with wire flooring 
that injures their paws and legs. Because these cages are often stacked 
and proper sanitation requirements are not followed, waste falls 
through the wire floors onto the animals housed below. Female dogs 
usually have little to no recovery time between bearing litters. When, 
after a few years, they can no longer reproduce, the dogs are often 
abandoned or killed. Although the AWA provides very minimal standards 
which should be improved, those operations not in compliance need to be 
properly held accountable.
    In 2010, the USDA's Office of the Inspector General (OIG) released 
a report detailing the lax and ineffective enforcement of the AWA for 
puppy mills. In 2011, the House Appropriations Committee, recognizing 
the importance of inspecting ``problematic dog dealers,'' repurposed $4 
million for puppy mill inspection enforcement. The same OIG report 
recommended closing a loophole in the AWA that currently exempts from 
regulation breeders selling directly to customers over the Internet. 
The USDA is now finalizing regulations that would close that loophole, 
thereby increasing the number of entities regulated and inspected under 
the AWA. This rule will likely be final later this year and will 
require increased funding for pre-licensing inspections of these new 
entities as well as for continued inspections of these breeding 
facilities once licensed.
    The President's fiscal year 2014 budget request includes $29 
million for Animal Welfare, which is $1 million above the current 
continuing resolution funding level. The President's budget notes that 
APHIS is requesting increased funding to enforce the impending rule. 
Echoing the President's budget request, we encourage the committee to 
continue the trend of prioritizing AWA enforcement with increased 
funding levels. The ASPCA requests that the committee increase the 
current funding for APHIS's Animal Welfare Act enforcement by retaining 
the President's budget request of $29 million for Animal Welfare.

     EXCEED THE STATUTORY FUNDING CAP FOR HORSE SORING ENFORCEMENT

    APHIS is charged with protecting horses through its enforcement of 
the Horse Protection Act (HPA) of 1970. USDA inspectors conduct 
inspections at walking horse shows to examine horses for soring and 
harmful and illegal chemicals. Horse soring is a cruel practice in 
which caustic chemicals and foreign objects are used to cause agony to 
a horse's front legs. Any contact with the ground makes horses quickly 
jerk up their legs, producing the pronounced gait prized by the walking 
horse industry. Since the passage of the HPA in 1970, effective USDA 
enforcement of horse soring has been frustrated by a $500,000 statutory 
funding cap on activities under the authority of HPA.
    In most cases, the cruelty of horse soring goes unnoticed because 
USDA officials do not have the resources to oversee most shows. In 
2011, USDA inspectors had the resources to attend just 62 of 
approximately 700 walking horse shows nationwide. Other shows were 
overseen solely by inspectors trained and hired by the horse industry 
itself. Although present at only 8-10 percent of shows, USDA inspectors 
found over 50 percent of reported violations in 2011. One of the 
defendants in a recent criminal horse soring case testified that 
``every Walking Horse that enters into a show ring is sored . . . 
They've got to be sored to walk.'' \7\ Clearly the problem is endemic 
and industry self-regulation is not effectively exposing violators. A 
greater USDA presence is necessary to further root out the bad actors 
and hold them accountable.
---------------------------------------------------------------------------
    \7\ ``Trainer Says Horse Soring Widespread.'' Chattanooga Free 
Press: February 28, 2012.
---------------------------------------------------------------------------
    Congress can choose to ignore the HPA's statutory cap and fund the 
program at higher levels, something the committee chose to do for 
fiscal year 2013 by requesting HPA enforcement at $891,000. The 
President's budget request recommends $893,000 for HPA enforcement. The 
ASPCA requests that the committee retain the President's budget request 
and continue to exceed the statutory funding cap to allow the USDA to 
properly enforce the Horse Protection Act.

           DEFUND WILDLIFE SERVICES' LETHAL PREDATOR CONTROL

    Wildlife Services (WS) is a little-known Federal agency that uses 
tax dollars to kill hundreds of thousands of animals considered by 
private landowners and ranchers to be problematic or nuisances. 
Unattended traps and poisons--and even helicopter shooting--are all 
routine features of WS's campaign to kill wildlife. Cases of allowing 
packs of dogs to kill wildlife left in traps have emerged in the public 
eye recently, further igniting public interest and concern about the 
use of tax dollars for such unnecessary and blatant cruelty.\8\ Their 
ineffective work is carried out without oversight, fiscal 
accountability, or public notification. In some cases, WS traps and 
poisons have killed beloved family pets.
---------------------------------------------------------------------------
    \8\ ``Animal Torture, Abuse Called a `Regular Practice' Within 
Federal Wildlife Agency.'' Foxnews.com: March 12, 2013.
---------------------------------------------------------------------------
    The WS lethal predator control program is a waste of taxpayer 
dollars. Not only does WS provide a subsidized service for private 
landowners, but also its indiscriminate and random targeting of 
predators is not based on sound science. Ranchers have no incentive to 
use more efficient nonlethal methods if the Federal Government 
continues to subsidize for lethal controls. The USDA estimates that it 
spends $13 million on its lethal predator control program. The ASPCA 
requests that the committee act in a fiscally sound and humane manner 
and reduce funding for Wildlife Services Damage Management by $13 
million.

    [This statement was submitted by Nancy Perry, Senior Vice 
President, Government Relations, ASPCA.]
                                 ______
                                 
 Prepared Statement of the American Society of Clinical Oncology (ASCO)

    The American Society of Clinical Oncology (ASCO), the world's 
leading professional organization representing more than 30,000 
physicians and other professionals who treat people with cancer, urges 
the subcommittee to provide a strong investment in the Food and Drug 
Administration (FDA) for fiscal year 2014. ASCO joins the community in 
respectfully requesting $2.6 billion in fiscal year 2014 budget 
authority for the FDA. A strong FDA is vital to ensuring access to high 
quality cancer care and life-saving treatments.
    The FDA has broad and significant responsibilities. It oversees 
roughly 25 percent of all consumer spending in the United States, 
including 100 percent of drugs, vaccines, medical supplies, and 
personal care products and 80 percent of our Nation's food supply. For 
cancer patients, the FDA ensures that chemotherapy drugs are safe and 
available while shepherding safe and effective ground-breaking 
treatments to market with the appropriate risk-benefit analysis. In 
2012, FDA issued final regulations that establish standards for testing 
the effectiveness and requiring accurate labeling of sunscreen products 
that are key to cancer prevention. The FDA also regulates the in vitro 
diagnostic tests that are necessary to optimally deliver a new 
generation of highly targeted cancer drugs.
    FDA already performs its work with relatively few resources, yet 
its responsibilities grow each year. Due to globalization, many of the 
FDA-regulated products that were made in the United States are now 
produced overseas. Drug importation is growing at about 13 percent 
annually. Approximately 80 percent of active pharmaceutical ingredients 
and 40 percent of finished drugs are now manufactured abroad. The FDA 
is responsible for monitoring the quality of the raw materials and 
finished products that result from the complex global system. This 
responsibility alone is enormously resource intensive.
    Yet Congress continues to ask the agency to do more. Since 2009, 
Congress has assigned the FDA with many new and additional 
responsibilities through the Family Smoking Prevention and Tobacco 
Control Act (2009), the Biologics Price Competition and Innovation Act 
(2010), the Secure and Responsible Drug Disposal Act (2010), the Combat 
Methamphetamine Enhancement Act (2010), the Food Safety Modernization 
Act (2011), and the FDA Safety and Innovation Act, or FDASIA (2012).
    Congress passed FDASIA in 2012, reauthorizing the Prescription Drug 
User Fee Act of 1992. Congress also re-authorized the Best 
Pharmaceuticals for Children Act and the Pediatric Research Equity Act. 
These laws expanded the FDA's regulatory responsibilities and mandated 
an increased level of coordination among the various stakeholders in 
the drug manufacturing and utilization system. Congress currently is 
considering a number of new FDA-related proposals, covering topics such 
as regulation of medical mobile apps, bio-security, track and trace of 
drug products, and the quality of compounded drugs.
    As the scientific complexity of foods, drugs and other products we 
consume grows, so do FDA's responsibilities. This is particularly true 
in the field of oncology. As we understand more about the diseases 
known as cancer on a molecular level, we are able to develop targeted 
therapies that can produce long term remissions for many cancer 
patients. Cancer patients rely on the ongoing efforts of the FDA to 
grant timely approval of innovative, new medicines, some with companion 
diagnostics, for patients with important unmet medical needs while 
maintaining high standards for safety and efficacy.

            THE VITAL ROLE OF FDA IN CANCER DRUG DEVELOPMENT

    There are 12 million cancer survivors alive in the United States 
today and this number is growing in no small part because of the new 
treatments FDA approves. ASCO has been particularly appreciative of and 
impressed by the work of the Office of Hematology and Oncology Products 
(OHOP) led by Dr. Richard Pazdur. OHOP is responsible for making safe 
and effective drugs for cancer and hematologic conditions available to 
the American public. OHOP oversees review, approval, and regulation of 
drug treatments for cancer, therapeutic biologic treatments for cancer, 
therapies for prevention of cancer, and products for treatment of 
nonmalignant hematologic conditions.
    OHOP had the highest number of new drug approvals of any 
therapeutic category in 2012 while operating at a funding level that 
did not reflect a higher workload relative to other offices. OHOP is 
committed to facilitating rapid development, review, and action on 
promising new cancer therapies. Scientists within OHOP are working 
intensively on incorporating innovations in pharmacogenomics, 
bioinformatics, and clinical trial design into the drug review process. 
These efforts provide the basis for accelerating introduction of new 
treatments for cancer into practice. ASCO applauds the work of OHOP's 
130 highly trained and dedicated employees. ASCO is concerned, however, 
about the ability of the FDA in general and the OHOP specifically to 
continue to expand the scope and quality of their work with shrinking 
resources. This is not an area in which Congress can afford to cut 
corners; lives are on the line in this endeavor.

    THE VITAL ROLE OF FDA IN PREVENTING AND MITIGATING CANCER DRUG 
                               SHORTAGES

    Like many specialties, oncology has faced a recent crisis of life-
saving therapeutics not being available because of drug shortages. ASCO 
has worked closely with the FDA's Office of Drug Shortages to deal with 
these crises and to help cancer patients get access to the drugs they 
so vitally need. This small office has been particularly overburdened 
by the increasing number of drugs that have been unavailable in the 
last 2 to 3 years. In part because of their determined efforts, we have 
seen new shortages decrease from the highs reached in 2011. Despite 
improvement, existing shortages remain unresolved and the problem is 
far from being solved. The FDA needs sufficient resources to continue 
to address drug shortages.

            THE NEED TO FUND AN ALREADY OVERBURDENED AGENCY

    The FDA is consistently asked to do more with less. Sequestration 
is the immediate threat to the FDA's already-inadequate funding. Under 
sequestration, the agency is losing 5.1 percent of its current year 
budget. Worse still, the Office of Management and Budget has testified 
that the actual impact is closer to 9 percent. This is a cut of 
approximately $209 million.
    This cut comes at a time when the FDA is implementing a new 
Breakthrough Therapy designation to expedite development and review of 
promising new therapies. Early evidence must demonstrate that these 
treatments may have substantial improvement over available therapy. The 
designation involves earlier and more frequent interactions with FDA 
staff. In the first quarter of 2013 alone, the FDA received 24 requests 
for the designation and granted 8--many for new cancer treatments. The 
FDA is also working closely with the scientific community to evaluate 
new surrogate endpoints to enable accelerated approval of cancer 
therapies.
    ASCO is concerned that sequestration could cause slower approval of 
new and potentially lifesaving drugs, a decreased ability to monitor 
food and drug safety, and an inability to keep up with advancing 
science and technology.
    ASCO urges the subcommittee to provide a strong investment in the 
FDA for fiscal year 2014 to help the agency fulfill its critical public 
health mission.

    [This statement was submitted by Sandra M. Swain, MD, FACP, 
President, American Society of Clinical Oncology.]
                                 ______
                                 
 Prepared Statement of the American Society of Plant Biologists (ASPB)

    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this statement for the official record in support of funding for 
agricultural research at the U.S. Department of Agriculture (USDA). 
ASPB supports the President's request of $383.376 million for USDA's 
Agriculture and Food Research Initiative (AFRI) as well as $1.279 
billion for the Agricultural Research Service (ARS).
    This testimony highlights the critical importance of plant biology 
research and development, as the Nation seeks to address vital issues 
including: achieving a sustainable food supply and food security; 
energy security, including attaining reduced reliance on all 
petrochemical products through game-changing sustainable renewable 
biomass utilization approaches; and in protecting our environment.

    FOOD, FUEL, ENVIRONMENT, AND HEALTH: PLANT BIOLOGY RESEARCH AND 
             AMERICA'S COMPETITIVENESS AND SELF-SUFFICIENCY

    We often take plants for granted, but they are vital to our very 
existence, competitiveness, and self-sufficiency. New plant biology 
research is now addressing the most compelling issues facing our 
society, including: identifying creative and imaginative approaches to 
reaching Congress' goals of achieving domestic fuel security/self-
sufficiency; environmental stewardship; sustainable and secure 
development of even better foods, feeds, building materials, and a host 
of other plant products used in daily life; and improvements in the 
health and nutrition of all Americans.
    Our bioeconomy and Federal partnership is based upon foundational 
plant biology research--the strategic research USDA funds--to make 
needed key discoveries. Yet limited funding committed to fundamental 
discovery now threatens our national security and leadership. Indeed, 
in his 2012 annual letter to the Gates Foundation, Bill Gates wrote, 
``Given the central role that food plays in human welfare and national 
stability, it is shocking--not to mention short-sighted and potentially 
dangerous--how little money is spent on agricultural research.'' \1\ 
This is especially true considering the significant positive impact 
crop and forest plants have on the Nation's economy (the agricultural 
sector is responsible for 1 in 12 American jobs \2\).
---------------------------------------------------------------------------
    \1\ Gates, Bill. (Jan 2012). 2012 Annual Letter from Bill Gates. 
Retrieved from http://www.gatesfoundation.org/annual-letter/2012/Pages/
home-en.aspx.
    \2\ Vilsack, Tom. (Mar. 9, 2012). Public Comments Before PCAST. 
Retrieved from http://www.tvworldwide.com/events/pcast/120309/
globe_show/default_go_archive.cfm?gsid=1977& type=flv&test.
---------------------------------------------------------------------------
    Given these concerns and our Nation's fiscal situation, the plant 
science community has been working toward addressing our Nation's 
looming challenges--ASPB organized a two-phase Plant Science Research 
Summit (held in September 2011 and January 2013). With funding from 
USDA, the National Science Foundation, the Department of Energy, and 
the Howard Hughes Medical Institute, the Summit brought together 
representatives from across the full spectrum of plant science research 
in order to develop a 10-year consensus plan to fill critical gaps in 
our understanding of plant biology and address the grand challenges we 
face.
    ASPB expects to publish a report from the Plant Science Research 
Summit in spring 2013, which we will share with USDA leadership so the 
USDA mission can best be served to enhance our well being over the long 
term. This report will further detail the plant science community's 
priorities and the key initiatives needed to address our grand 
challenges.

                       IMMEDIATE RECOMMENDATIONS

    The ASPB membership has extensive expertise and participation in 
the academic, industry, and Government sectors. Consequently, ASPB is 
in an excellent position to articulate the Nation's plant science 
priorities and standards needed as they relate to agriculture. Our 
recommendations are as follows:
  --Since the establishment of the National Institute of Food and 
        Agriculture (NIFA) and AFRI, interest in USDA research has 
        increased dramatically--a trend ASPB hopes to see continue in 
        the future. However, an increased, strategic and focused 
        investment in competitive funding and its oversight is needed 
        if the Nation is to continue to make ground-breaking 
        discoveries and accelerate progress toward resolving urgent 
        national priorities and societal needs. ASPB encourages the 
        committee to support a funding level of $383.376 million in 
        fiscal year 2014 for AFRI, which, although falls far short of 
        the authorized level of $700 million, would provide sound 
        investment in today's fiscal environment.
  --The Agricultural Research Service (ARS) provides vital strategic 
        research to serve USDA's mission and objectives and as well as 
        the Nation's agricultural sector. The need to bolster and 
        enhance ARS efforts to leverage and complement AFRI is great 
        given the challenges in food and energy security. ASPB is 
        supportive the President's request of $1.279 billion for ARS in 
        fiscal year 2014.
  --USDA has focused attention in several key priority areas, including 
        childhood obesity, climate change, global food security, food 
        safety, and sustainable bioenergy. Although ASPB appreciates 
        the value of such strategic focus, we give our most robust 
        support for AFRI's Foundational Program. This program provides 
        a basis for outcomes across a wide spectrum, often leading to 
        groundbreaking developments that cannot be anticipated in 
        advance. Indeed, it is these discoveries that are the true 
        engine of success for our bioeconomy.
  --Current estimates predict a significant shortfall in the needed 
        agricultural scientific workforce as the demographics of the 
        U.S. workforce change.\3\ For example, there is a clear need 
        for additional training of scientists in the areas of 
        interdisciplinary energy research and plant breeding. ASPB 
        applauds the creation of the NIFA Fellows program and calls for 
        additional funding for specific programs (e.g., training grants 
        and fellowships) to provide this needed workforce over the next 
        10 years and to adequately prepare these individuals for 
        careers in the agricultural research of the future.
---------------------------------------------------------------------------
    \3\ President's Council of Advisors on Science and Technology. 
(Dec. 2012). Report to the President on Agricultural Preparedness and 
the Agricultural Research Enterprise, p. 41. Retrieved from http://
www.whitehouse.gov/sites/default/files/microsites/ostp/
pcast_agriculture_ 20121207.pdf.
---------------------------------------------------------------------------
  --Considerable research interest is now focused on the use of plant 
        biomass for energy production. However, if we are to use crops 
        and forest resources to their full potential, we must expend 
        extensive effort to improve our understanding of their 
        underlying biology and development, their agronomic 
        performance, and their subsequent processing to meet our goals 
        and aspirations. Therefore, ASPB calls for additional funding 
        targeted at efforts to increase the utility and agronomic 
        performance of bioenergy crops using the best and most 
        imaginative science and technologies possible.
  --With NIFA, USDA is in a strong position to cultivate and expand 
        interagency relationships, as well as relationships with 
        private philanthropies, to address grand challenges related to 
        food, renewable energy and bioproducts, the environment, and 
        health. ASPB appreciates the need to focus resources in key 
        priority areas. However, ASPB urges a significant increase in 
        funding to individual grantees, in addition to putting in place 
        robust evaluations of group awards and larger multi-
        institutional partnerships. Paradigm-shifting discoveries 
        cannot be predicted through collaborative efforts alone; thus 
        there is an urgent need to maintain a broad, diverse, and 
        robust research agenda.
  --ASPB encourages some flexibility within NIFA's budget to update and 
        improve its data management capabilities.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. For more information about the 
American Society of Plant Biologists, please see www.aspb.org.

    [This statement was submitted by Dr. Crispin Taylor, Executive 
Director, American Society of Plant Biologists.]
                                 ______
                                 
        Prepared Statement of the Animal Welfare Institute (AWI)

    Thank you for the opportunity to submit testimony as you consider 
fiscal year 2014 funding priorities. Our testimony addresses programs 
and activities administered by the U.S. Department of Agriculture's 
(USDA) Animal and Plant Health Inspection Service (APHIS), including 
the Animal Care/Animal Welfare program, Wildlife Services (WS) program, 
and Investigative and Enforcement Services (IES). This testimony also 
addresses the USDA Food Safety Inspection Service's (FSIS) operations.

                       USDA-APHIS--ANIMAL WELFARE

    APHIS's Animal Welfare activities are critical to the proper 
regulation and care of animals protected under the Animal Welfare Act 
of 1966 (AWA) and the Horse Protection Act of 1970 (HPA). These 
activities include inspection of facilities and individuals licensed 
under the AWA to sell and use certain animals for laboratory research, 
for exhibition, and as pets, among other uses, as well as enforcement 
of the HPA through monitoring of horse shows. AWI requests that, 
consistent with the President's fiscal year 2014 budget proposal, $29 
million be allocated to Animal Welfare activities.
    This funding will provide for enhanced enforcement of the AWA and 
HPA, as discussed in the comments below, and will provide the agency 
with the resources needed to enforce the Animal Welfare retail pet 
store rule. This rule requires that the sale of pets via Internet, 
phone, and mail comply with AWA standards. Enforcement of this rule 
will ensure that animals sold sight-unseen to buyers are better 
monitored for health and humane treatment.

  USDA-APHIS--ANIMAL WELFARE--ANIMAL WELFARE ACT ENFORCEMENT--CLASS B 
                                DEALERS

    In 1966, Congress passed the Animal Welfare Act (AWA) to prevent 
the mistreatment of animals and to assure families that their pets 
would not be sold for laboratory experiments after an expose revealed 
the widespread theft of pets for that purpose.
    Unfortunately, 47 years later, this is still a problem. Despite the 
well-meaning intent of the AWA and the enforcement efforts of USDA, the 
AWA routinely fails both to reliably protect pet owners against the 
actions of Class B dealers who sell random source dogs and cats for use 
in research (also known as ``random source'' dealers) and to ensure 
that these dealers provide humane care for the dogs and cats kept on 
their premises.
    In response to repeated requests from Congress, the National 
Institutes of Health (NIH) funded a study by the National Academy of 
Sciences (NAS) on the use of Class B dogs and cats in NIH-funded 
research. That report describes a ``complicated tangle of trade'' in 
animals sold for use in experiments, and notes that ``loopholes in the 
[Animal Welfare Regulations] permit pets to enter the research pipeline 
via Class B dealers.'' \1\ Furthermore, ``USDA could not offer 
assurances that pet theft does not occur, and agreed that such a crime 
is exceedingly difficult to prove. . . .'' \2\ That difficulty 
notwithstanding, the report stated that there are ``descriptions of 
thefts provided by informants in prison . . . and documented accounts 
of lost pets that have ended up in research institutions through Class 
B dealers.'' \3\
---------------------------------------------------------------------------
    \1\ National Academy of Sciences Institute for Laboratory Animal 
Research, Scientific and Humane Issues in the Use of Random Source Dogs 
and Cats in Research (2009).
    \2\ Id.
    \3\ Id.
---------------------------------------------------------------------------
    Across the Nation, these random source Class B dealers--and the 
middlemen who work for them, known as ``bunchers''--use deceit and 
fraud to acquire dogs and cats. Their tactics include tricking animals' 
owners into giving away their dogs and cats by posing as someone 
interested in pet adoption, as well as the outright theft of family 
pets. The treatment of the animals sold by these random source Class B 
dealers is shocking and cruel. Hundreds of animals are kept in squalid 
conditions and are denied much needed veterinary care. Again, the NAS 
report cited a variety of problems with regard to animal welfare and 
enforcement.
    USDA has had to implement a lengthy and time-consuming enforcement 
protocol for these random source dealers, involving quarterly 
inspections (more than any other licensees) and ``tracebacks,'' in 
order to attempt to verify the source of their animals. While it is 
exceedingly difficult to put a price tag on this extreme level of 
oversight, USDA did estimate for the NAS report, at a time when eleven 
random source Class B dealers were still in business (now there are 
six, with three under investigation), that it was spending as much as 
$300,000 per year to regulate that small number of dealers.\4\
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
    Congress, too, has spent an inordinate amount of time reviewing the 
actions of Class B dealers and prodding USDA and NIH to address their 
respective Class B dealer problems. NIH long ago banned its intramural 
researchers from using Class B dealers but had until recently ignored 
Congress' repeated calls for it to do likewise with respect to outside 
researchers.
    As a result of the NAS report, ongoing congressional interest, 
enhanced (but disproportionate) oversight by USDA, and evaporating 
demand for random source dogs and cats, very few of these dealers 
remain, and with NIH's phased-in ban on the use of Class B dealers by 
its extramural researchers, the Class B dealer system has become a 
cruel and expensive anachronism. Those who continue to operate are an 
unjustifiable drain on USDA's resources. However, as long as it is 
possible to issue and renew licenses for such dealers, there is the 
risk that this anachronism will continue to limp along, wasting 
taxpayer money and perpetuating the inhumane treatment of animals and 
the trade in illegally acquired dogs and cats.
    For this reason, we respectfully request that Congress prohibit any 
further spending by USDA both to grant new licenses and to renew 
existing licenses for Class B dealers selling dogs and cats for 
research purposes by including the following language in the report 
accompanying the fiscal year 2014 agriculture appropriations: 
``Provided, That appropriations herein made shall not be available for 
any activities or expense related to the licensing of new Class B 
dealers who sell dogs and cats for use in research, teaching, or 
testing, or to the renewal of licenses of existing Class B dealers who 
sell dogs and cats for use in research, teaching, or testing''.

      USDA-APHIS--ANIMAL WELFARE--HORSE PROTECTION ACT ENFORCEMENT

    The goal of the Horse Protection Act (HPA), passed in 1970, is to 
end the cruel practice of soring, by which unscrupulous owners and/or 
trainers, primarily within the Tennessee Walking Horse industry, 
intentionally inflict pain on the legs and hooves of horses through the 
application of chemical and mechanical irritants to produce an 
exaggerated gait. In 2008, the American Association of Equine 
Practitioners condemned soring as ``one of the most significant welfare 
issues affecting any equine breed or discipline.'' \5\
---------------------------------------------------------------------------
    \5\ American Association of Equine Practitioners, Putting the Horse 
First: Veterinary Recommendations for Ending the Soring of Tennessee 
Walking Horses (2008).
---------------------------------------------------------------------------
    Throughout its history, however, the law has been openly flouted 
and inadequate funding has hampered enforcement. USDA inspectors are 
able to attend a mere fraction of Tennessee Walking Horse shows. 
Consequently, there is continued reliance on an industry-run system of 
certified Horse Industry Organization inspection programs that utilize 
Designated Qualified Persons (DQPs), usually industry insiders with a 
history of looking the other way. Reliance on DQPs has been an abysmal 
failure. Statistics clearly indicate that the presence of USDA 
inspectors at shows results in a far higher rate of noted violations 
than occurs when DQPs are present. For instance, USDA recently released 
foreign substance results gathered through the Horse Protection Program 
at horse shows from 2010 through 2012. Out of 478 horses sampled at 24 
shows in 2012, 309 horses--or 65 percent--tested positive for soring 
agents.\6\ At the 2012 Tennessee Walking Horse National Celebration in 
Shelbyville, Tennessee, 145 of the 190 horses sampled tested positive, 
and at some 2012 shows every single horse examined had been exposed to 
soring chemicals.\7\ In 2011, 184 of 189 horses (97 percent) sampled at 
three shows tested positive for soring agents; in 2010, 312 of 363 
horses (86 percent) sampled at six shows had been sored. Data from DQP 
horse show inspections in 2009 (the most recent year for which reports 
are available) reveal that for 436 shows at which 70,122 inspections 
were conducted and 889 violations of any type were cited, only 61, or 
.00087 percent of horses inspected, were for prohibited foreign 
substances.
---------------------------------------------------------------------------
    \6\ USDA-APHIS Horse Protection Program, 2012 Foreign Substance 
Results, available at http://www.aphis.usda.gov/animal_welfare/hp/
downloads/show%20tally%202012%20for%20 web.pdf.
    \7\ Id.
---------------------------------------------------------------------------
    From this comparison, it is clear not only that horse soring 
remains a serious problem, but also that there is no substitute for 
inspections by USDA personnel to ensure compliance with the HPA. The 
greater the likelihood of a USDA inspection, the greater the deterrent 
effect on those who routinely sore their horses. Enforcement should not 
be entrusted to individuals with a stake in maintaining the status quo. 
USDA cannot make progress in this area without adequate funding. We ask 
that Congress appropriate the $893,000 for HPA enforcement as provided 
in the administration's budget.

      USDA-APHIS--WILDLIFE SERVICES--LIVESTOCK PROTECTION PROGRAM

    The Animal and Plant Health Inspection Service's (APHIS) Wildlife 
Services (WS) program allocates millions of dollars each year to lethal 
wildlife management efforts. WS relies on methods that are inhumane, 
ineffective, costly, and outdated. The program kills thousands of 
native predators annually in misguided attempts to protect livestock--
an objective which would be better served by other, more humane means 
that have been proven effective in the field. WS' aerial gunning 
operations are extremely costly and poorly targeted to depredating 
animals. Its traps and poisons are nonselective and kill large numbers 
of nontarget animals each year, including endangered species and family 
pets. They represent threats to public safety and, in the case of 
poisons like Compound 1080, to national security. In fact, Compound 
1080 is ``very highly toxic'' according to the EPA, and is so dangerous 
that the FBI has identified it as a potential weapon of terrorism. 
Accordingly, we request that WS' Wildlife Damage Management budget be 
reduced by $13 million, the program's estimated annual expenditure for 
lethal predator control practices intended to protect livestock. It 
should no longer be the taxpayers' responsibility to subsidize these 
inhumane, costly practices to which effective alternatives are readily 
available.

 USDA-APHIS--WILDLIFE SERVICES--WILDLIFE DAMAGE MANAGEMENT PROGRAM FOR 
                             AIRPORT SAFETY

    APHIS' Airport Wildlife Control Program is intended to address the 
control of wildlife at military and civilian airports to reduce the 
threat of aircraft striking wildlife, which can lead to aircraft 
damage, delays, and accidents. While the media often sensationalize 
such incidents, the statistical likelihood of a bird or other wildlife 
striking an aircraft is exceedingly small. The chances of a strike 
resulting in aircraft destruction, damage, delay, or an accident is 
even more remote. Indeed, since 1988, according to the Bird Strike 
Committee USA, only slightly more than 250 people worldwide have been 
killed as a result of bird strikes on aircraft. This loss of life is 
tragic, but when compared to the total number of aircraft passengers 
(commercial and civilian) worldwide since 1988, it is obvious that the 
risk of dying as a result of a bird strike is infinitesimal. Similarly, 
though the Federal Aviation Administration documented 133,000 reported 
wildlife strikes (bird strikes comprise approximately 97.5 percent of 
all wildlife strikes) at civilian and military airports in the United 
States between 1990 and 2011, only an extraordinarily small fraction of 
these reported strikes resulted in the damage, delay, or destruction of 
an aircraft or injuries or death to passengers. Furthermore, when the 
total number of aircraft (private, commercial, and military) takeoffs 
and landings are considered over that 21 year period, again the risk of 
an aircraft striking wildlife is exceedingly small.
    Recognizing that the risk of wildlife strikes to aircraft is real 
but not statistically significant, we support the allocation of $1.5 
million to the wildlife damage management program for airport safety 
included in the administration's budget. However, we ask that these 
funds be earmarked only for non-lethal management programs. There are a 
variety of non-lethal strategies that are effective and feasible to 
address wildlife strikes to aircraft including fencing, habitat 
management, runway sweeps using pyrotechnics and other noise-making 
devices, trained falcons, removal of standing water/areas that attract 
birds/wildlife on airport properties, modification of airport 
structures to deter bird use, and public/airport employee education to 
avoid behaviors (i.e., feeding birds) that may attract animals to 
airports.

     USDA-APHIS--WILDLIFE SERVICES--ORAL RABIES VACCINATION PROGRAM

    APHIS' oral rabies vaccination (ORV) activities, which are carried 
out under the National Rabies Management Program, have proven to be a 
significant step toward controlling the spread of rabies in the United 
States. This program was established to prevent the spread of wildlife 
rabies in the United States and ultimately eradicate terrestrial 
rabies. APHIS' ORV distribution is an effective and humane approach to 
addressing rabies, and serves to protect public health, pets, wildlife, 
and livestock in a cost-effective manner. To ensure that the progress 
that has been made in combating domestic rabies continues, we request 
that $22.56 million be allocated to the ORV program for fiscal year 
2014. This funding level is consistent with the program's estimated 
fiscal year 2013 expenditures and will enable APHIS to build upon its 
successes in preventing the spread of rabies.

           USDA-APHIS--INVESTIGATIVE AND ENFORCEMENT SERVICES

    APHIS' Investigative and Enforcement Services (IES) handles 
investigations related to enforcement of the laws and regulations for 
APHIS' programs, which involves: collection of evidence; civil and 
criminal investigations; and investigations carried out in conjunction 
with Federal, State and local enforcement agencies. IES, in 
collaboration with USDA's Office of the General Counsel, also handles 
other types of enforcement actions including stipulations and formal 
administrative proceedings. We respectfully request that IES funding 
remain level with fiscal year 2013 appropriations so that the Service 
may fulfill its full range of responsibilities, particularly its 
increasing HPA and AWA investigatory demands.

            USDA-FSIS--HORSE SLAUGHTER FACILITY INSPECTIONS

    In 2006, the U.S. House of Representatives and U.S. Senate 
overwhelmingly approved language that prevented tax dollars from being 
used to inspected horse slaughter facilities. This language remained in 
effect until it was removed in conference in 2011, despite having been 
approved by the full House Appropriations Committee. Allowing horse 
slaughter to resume will only bring the well documented abuse to U.S. 
soil at great expense to the horses and the American public.
    The President's budget underscores the need to prevent the 
reintroduction of domestic horse slaughter; USDA itself has called for 
language prohibiting the operation of horse slaughter plants in the 
United States. The fact that the very agency that will be tasked with 
overseeing horse slaughter facilities if they reopen has firmly 
articulated the importance of keeping this costly and inhumane industry 
out of the United States weighs overwhelmingly in favor of banning 
domestic slaughter. Given the USDA's clear position, as well as the 
financial troubles facing the Nation, we encourage the subcommittee to 
accept this bipartisan language while the full Congress moves to pass a 
ban on horse slaughter:

    ``None of the funds made available in this Act may be used to pay 
the salaries or expenses of personnel to--
            ``(1) inspect horses under section 3 of the Federal Meat 
        Inspection Act (21 U.S.C. 603);
            ``(2) inspect horses under section 903 of the Federal 
        Agriculture Improvement and Reform Act of 1996 (7 U.S.C. 1901 
        note; Public Law 104127); or
            ``(3) implement or enforce section 352.19 of title 9, Code 
        of Federal Regulations.''.

    [This statement was submitted by Christopher J. Heyde, Deputy 
Director, Government and Legal Affairs, Animal Welfare Institute.]
                                 ______
                                 
              Letter From the Choose Clean Water Coalition
                                                    April 26, 2013.
Hon. Mark Pryor, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies,
Washington, DC.
Hon. Roy Blunt, 
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration, and Related Agencies,
Washington, DC.
    Dear Chairman Pryor and Ranking Member Blunt: As members of the 
Choose Clean Water Coalition we are requesting continued support for 
programs to ensure that responsible farms are economically viable. 
There are 87,000 farms in the Chesapeake region, and those that are 
well run protect their water resources and add much to our landscape, 
environment and economy. These conservation programs are critical for 
maintaining and restoring clean water to the rivers and streams 
throughout the Chesapeake Bay region, and for the Bay itself. These 
programs are also essential for the agricultural sector to meet 
requirements under the Clean Water Act.
    At least 11 million people in this region get their drinking water 
directly from the rivers and streams that flow through the cities, 
towns and farms throughout our region. The quality of this water is 
critical to both human health and to the regional economy.
    The efforts to clean the Chesapeake began a generation ago under 
President Reagan in 1983. In his 1984 State of the Union speech 
President Reagan said, ``Preservation of our environment is not a 
liberal or conservative challenge, it's common sense.''
    In order to follow a common sense path to maintain economically 
viable well run farms and to have healthy local water and a restored 
Chesapeake Bay, which is critical for our regional economy, we request 
full funding for the President's request for the following programs in 
fiscal year 2014:

U.S. DEPARTMENT OF AGRICULTURE--NATURAL RESOURCES CONSERVATION SERVICE 
                                 (NRCS)

Environmental Quality Incentives Program (EQIP)--$1.35 Billion
    This national farm bill conservation program provides a formula 
based allocation to farmers by State and is used for various 
conservation practices, such as nutrient management, cover crops, 
conservation tillage, fencing animals out of streams, restoring 
vegetative buffers along streams, etc., that are critical to protecting 
and restoring water quality throughout the region and the Nation. EQIP 
has been essential over the years in this region for farmers to 
implement and maintain practices that enhance their operations and 
benefit the local environment.

Chesapeake Bay Watershed Initiative--$50 Million
    We urge you to continue funding the Chesapeake Bay Watershed 
Initiative established in the 2008 farm bill (Public Law 110-246). The 
President's fiscal year 2014 budget requests $50 million to continue 
this critical program. The program provides enhancement to existing 
conservation programs for agricultural producers and has provided 
tremendous benefits to the region's farmers and local water quality. 
This program is crucial to reducing the backlog of applications for 
conservation programs in an area where both need and demand are high. 
Agricultural conservation practices are one of the most cost-effective 
ways for meeting water quality restoration goals, and the funding is 
essential for helping the region reduce nutrient and sediment loads 
polluting local streams and rivers and reaching the Bay.
    Thank you for your consideration on this very important request to 
maintain funding for these programs which are critical to both our 
agricultural community and for clean water throughout the mid-Atlantic 
region.
            Sincerely,

American Rivers
Anacostia Watershed Society
Audubon Naturalist Society
Baltimore Jewish Environmental Network
Blue Ridge Watershed Coalition
Cacapon Institute
Center for the Celebration of Creation
Citizens for Pennsylvania's Future (PennFuture)
Clean Water Action
Conservation Pennsylvania
Conservation Voters of Pennsylvania
Delaware Nature Society
Earthworks
Friends of the Rappahannock
James River Association
Lower Susquehanna Riverkeeper
Lynnhaven River NOW
Maryland Conservation Council
Maryland League of Conservation Voters
National Parks Conservation Association
National Wildlife Federation--Mid-Atlantic Regional Center
Natural Resources Defense Council
Nature Abounds
Pennsylvania Council of Churches
Piedmont Environmental Council
Port Tobacco River Conservancy
Potomac Conservancy
Potomac Riverkeeper
Sassafras River Association
Savage River Watershed Association
Severn Riverkeeper
Shenandoah Riverkeeper
Southern Environmental Law Center
Trout Unlimited
Virginia Conservation Network
West Virginia Rivers Coalition
Wicomico Environmental Trust
                                 ______
                                 
        Prepared Statement of the Coalition Against Forest Pests

    The Coalition Against Forest Pests consists of nonprofit 
organizations, for-profit corporations, landowners, State agencies and 
academic scholars who have joined together to improve our Nation's 
efforts to address this critical threat to our forests. Our Coalition 
seeks to create real and lasting change, by advocating for stronger 
programs and policies that work to combat this threat, mitigate the 
existing impacts, and restore healthy forest ecosystems. We write today 
in support of funding for programs at the USDA Animal and Plant Health 
Inspection Service (APHIS) that help keep the nation's forests healthy 
by responding to invasive pests.
    We urge the subcommittee on Agriculture, Rural Development, Food 
and Drug Administration, and Related Agencies to maintain funding for 
the lines ``Tree and Wood Pests'' and ``Specialty Crops'' under the 
USDA APHIS Plant Health program. Funding through these budget accounts 
supports eradication and control efforts targeting the Asian longhorned 
beetle and sudden oak death pathogen; allows APHIS to maintain its 
efforts to curtail spread of the emerald ash borer and other damaging 
pests; and enables APHIS to address new threats, most prominently the 
goldspotted oak borer, thousand cankers disease of walnut, and 
polyphagous shot hole borer.
    We appreciate the difficulty that comes as Congress responds to the 
Nation's rising debt. However, the Nation cannot afford to further 
undermine its defenses against the ever-increasing number of plant 
pests. APHIS is the agency responsible for preventing pest 
introductions and countering those pests that evade prevention 
measures. Since 1975, U.S. imports (excluding petroleum products) have 
risen almost six times faster than staff to conduct inspections of 
those imports. At the same time, the declining resources at APHIS have 
limited the Agency's ability to effectively keep plant pests out of the 
country; this has led to the introduction of more than 90 new plant 
pests in the United States since 2009. We look forward to working with 
the subcommittee to help APHIS strengthen and target its pest-
prevention and control programs, including preparation of risk 
assessments; prompt adoption of regulations that effectively clean up 
pathways of introduction; and increasing capability to detect 
introductions quickly and respond to them before they become widespread 
and difficult to control. Effective response, in turn, depends upon 
capacity to develop and test exclusion, detection, and pest-management 
methods.
    Funding for the ``Tree and Wood Pests'' and ``Specialty Crops'' 
programs is essential to protecting America's irreplaceable rural and 
urban forests from the rising tide of tree-killing pests. Forested 
landscapes cover approximately one-third of the total land area of the 
United States including 100 million acres in urban environments. Every 
American benefits from forests, whether in the form of wood products 
for construction or paper, neighborhood amenities, wildlife habitat, 
carbon sequestration, clean water and air, and even our spiritual well-
being. Many Americans' jobs are linked to trees. The U.S. forest 
products industry employs nearly 900,000 people; it is among the top 10 
manufacturing sector employers in 47 States. Jobs associated with 
production of nonwood forest products are estimated to be in the tens 
of thousands.
    Municipal governments across the country are spending more than 
$1.7 billion each year to remove trees on city property killed by these 
pests. Homeowners are spending $1 billion to remove and replace trees 
on their properties; they are absorbing an additional $1.5 billion in 
reduced property values.
    Over the past decade, 19 new wood-boring pests have been detected 
in the United States. Despite the rising risk, APHIS' ability to 
counter these pests--funded by the ``Tree and Wood Pest'' spending 
line--was cut by more than one-quarter from fiscal year 2011 to fiscal 
year 2012. A new pest that poses a significant threat to trees arrives, 
on average, every 2 to 3 years. Additional cuts further limit the 
ability of APHIS to reduce the level of damages caused by the growing 
number of such pests.
    The principal program funded under the ``Tree and Wood Pest'' 
account is eradication of the Asian longhorned beetle. It is imperative 
to complete eradication of the Asian longhorned beetle at known 
outbreak sites, and to continue expanded detection programs to ensure 
that this highly destructive beetle is not established at additional 
sites. (Despite its large size, the Asian longhorned beetle is often 
present for several years before authorities learn of its presence.) 
The Asian longhorned beetle kills trees in 15 botanical families--
especially maples and birches which constitute much of the forest 
reaching from Maine to Minnesota and urban trees worth an estimated 
$600 billion. We cannot afford to let this beetle become established in 
North America, so APHIS must continue improving its detection and 
eradication tools.
    At the same time, funding under the ``Tree and Wood Pest'' line 
must be sufficient to enable APHIS to counter additional pests that 
threaten other forest resources. While the emerald ash borer outbreak 
is large, significant numbers of ash trees are outside the currently 
infested area, especially in cities and towns of the Great Plains, 
West, and South. Reducing APHIS' ``slow the spread'' effort will expose 
municipal governments and property owners in these areas to millions of 
dollars in costs for tree removal.
    Other impending losses, including from the Thousand canker disease, 
are even greater. Thousand cankers disease threatens black walnut 
across the East; the value of walnut growing stock is estimated to be 
$539 billion. APHIS must have sufficient funds to help States manage 
this pest and to support ongoing efforts to develop detection traps, 
biological controls, and other tools aimed at reducing the damage it 
causes.
    Funds are also needed to support APHIS programs targeting firewood 
as a major pathway by which the emerald ash borer and other pests are 
spread to new areas. The agency should counter further spread of the 
goldspotted oak borer, which has killed 80,000 oak trees in less than 
15 years in southern California. The insect threatens oaks throughout 
California, including in greater Los Angeles and in Yosemite National 
Park. APHIS should establish a quarantine and evaluate whether oak 
trees in the Southeast are at risk.
    Funding for the ``Specialty Crops'' program is essential to 
improving the ability of APHIS to curtail spread of the pathogen called 
either sudden oak death or Ramorum leaf and stem blight. APHIS' 
regulations have been only partially successful in ensuring that 
infected plants are not shipped to vulnerable areas, such as the 
Southeast. APHIS should work with the nursery trade and the States to 
adopt more promising measures agreed to through a stakeholder process. 
APHIS should also evaluate the threat to oaks, maples, willows, and 
sweetgum trees across the country posed by the polyphagous shot hole 
borer and the fungus it carries. At present, this pest complex is found 
in Los Angeles County, California.
    These vitally important programs are leveraged by collaborations 
with other Federal agencies, States, and numerous academic, non-
governmental, and commercial entities. If reduced funding hampers these 
efforts, forests across the Nation will be at increased risk from Asian 
longhorned beetle, emerald ash borer, sudden oak death, thousand 
cankers disease of walnut, laurel wilt, and a host of other wood-
inhabiting pests.
    We greatly appreciate the opportunity to share testimony as the 
subcommittee prepares a fiscal year 2014 Agriculture, Rural 
Development, Food and Drug Administration and Related Agencies 
Appropriations bill. We look forward to sharing more specific 
recommendations following release of the fiscal year 2014 
administration budget.

Alliance for Community Trees
American Forests
American Forest Foundation
American Forest & Paper Association
American Nursery and Landscape Association
California Forest Pest Council
National Alliance of Forest Owners
National Association of Conservation Districts
National Association of State Foresters
National Network of Forest Practitioners
National Wooden Pallet and Container Association
National Woodland Owners Association
Pennsylvania Department of Conservation and Natural Resources
Society of American Florists
Society of American Foresters
The Nature Conservancy
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

    Waters from the Colorado River are used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the currently quantifiable damages at about $376 million per 
year. Modeling by Reclamation indicates that the quantifiable damages 
will rise to approximately $577 million per year by the year 2030 
without continuation of the Program. Congress authorized the Colorado 
River Basin Salinity Control Program (Program) in 1974 to offset 
increased damages caused by continued development and use of the waters 
of the Colorado River. The USDA portion of the Program, as authorized 
by Congress and funded and administered by the Natural Resources 
Conservation Service (NRCS) under the Environmental Quality Incentives 
Program (EQIP), is an essential part of the overall effort. A funding 
level of $17 million to $18 million annually is required to prevent 
further degradation of the quality of the Colorado River and increased 
downstream economic damages.
    In enacting the Colorado River Basin Salinity Control Act in 1974, 
Congress directed that the Colorado River Basin Salinity Control 
Program should be implemented in the most cost-effective way. The 
Program is currently funded under EQIP through NRCS and under 
Reclamation's Basinwide Program. The act requires that the basin States 
cost share 30 percent of the overall effort. Historically, recognizing 
that agricultural on-farm improvements were some of the most cost-
effective strategies, Congress authorized a program for the United 
States Department of Agriculture (USDA) through amendment of the act in 
1984. With the enactment of the Federal Agriculture Improvement and 
Reform Act of 1996 (FAIRA), Congress directed that the Program should 
continue to be implemented as part of the newly created Environmental 
Quality Incentives Program. Since the enactment of the Farm Security 
and Rural Investment Act (FSRIA) in 2002, there have been, for the 
first time in a number of years, opportunities to adequately fund the 
Program within EQIP. In 2008, Congress passed the Food, Conservation 
and Energy Act (FCEA). The FCEA addressed the cost sharing required 
from the Basin Funds. In so doing, the FCEA named the cost sharing 
requirement as the Basin States Program (BSP). The BSP will provide 30 
percent of the total amount that will be spent each year by the 
combined EQIP and BSP effort.
    The Program, as set forth in the act, is to benefit Lower Basin 
water users hundreds of miles downstream from the sources of salinity 
in the Upper Basin. The salinity of Colorado River waters increases 
from about 50 mg/L at its headwaters to more than 700 mg/L in the Lower 
Basin. There are very significant economic damages caused downstream by 
high salt levels in the water. EQIP is used to improve upstream 
irrigation efficiencies which in turn reduce leaching of salts to the 
Colorado River. There are also local benefits from the Program in the 
form of soil and environmental benefits, improved water efficiencies, 
reduced fertilizer use and lower labor costs. Local producers submit 
cost-effective applications under EQIP in Colorado, Utah, and Wyoming, 
and offer to cost share in the acquisition of new irrigation equipment. 
The mix of funding under EQIP, cost share from the Basin States and 
efforts and cost share brought forward by local producers has created a 
most remarkable and successful partnership.
    After longstanding urgings from the States and directives from 
Congress, NRCS has recognized that this Program is different than small 
watershed enhancement efforts common to EQIP. In the case of the 
Colorado River salinity control effort, the watershed to be considered 
stretches more than 1,400 miles from the river's headwater in the Rocky 
Mountains to the river's terminus in the Gulf of California in Mexico. 
Each year the NRCS State Conservationists for Colorado, Utah, and 
Wyoming, prepare a 3-year funding plan for the salinity efforts under 
EQIP. The Forum supports this funding plan which recognizes the need 
for $17.3 million in fiscal year 2014. This includes the moneys needed 
for both farm and technical assistance. State and local cost-sharing is 
triggered by the Federal appropriation. The States and local producers 
are able and anxious to participate in the Program. The Forum 
appreciates the efforts of NRCS leadership and the support of this 
subcommittee in implementing the Program.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah, and Wyoming. The Forum 
is charged with reviewing the Colorado River's water quality standards 
every 3 years. In so doing, it adopts a Plan of Implementation 
consistent with these standards. The level of appropriation requested 
in this testimony is in keeping with the adopted Plan of 
Implementation. If adequate funds are not appropriated, significant 
damages from the higher salinity concentrations in the water will be 
more widespread in the United States and Mexico.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Over the years, NRCS personnel have developed a great working 
relationship with farmers within the Colorado River Basin. Maintaining 
salinity control achieved by implementation of past practices requires 
continuing education and technical assistance from NRCS personnel. 
Additionally, technical assistance is required for planning and design 
of future projects. Last, the continued funding for the monitoring and 
evaluation of existing projects is essential to maintaining the 
salinity reduction already achieved.
    In summary, implementation of salinity control practices through 
EQIP has proven to be a very cost effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
EQIP with adequate funding levels will prevent the water quality of the 
Colorado River from further degradation and significantly increased 
economic damages to municipal, industrial and irrigation users. A 
modest investment in source control pays huge dividends in improved 
drinking water quality to nearly 40 million Americans.

    [This statement was submitted by Don A. Barnett, Executive 
Director, Colorado River Basin Salinity Control Forum.]
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

    This testimony is in support of funding for the U.S. Department of 
Agriculture (USDA) and its on-farm Colorado River Basin Salinity 
Control Program (Program) for fiscal year 2014. This program has been 
carried out through the Colorado River Basin Salinity Control Act 
(Public Law 93-320), since it was enacted by Congress in 1974. Further, 
with the enactment of the Federal Agricultural Improvement and Reform 
Act (FAIRA) in 1996 (Public Law 104-127), Congress directed that the 
Program should continue to be implemented as one of the components of 
the Environmental Quality Incentives Program (EQIP). Finally, Congress 
passed the Food, Conservation, and Energy Act (FCEA) in 2008, that 
addressed the cost-sharing required from the Basin Funds, and 
redesignated the cost-sharing requirement as the Basin States Program 
(BSP). Currently, the BSP provides approximately 30 percent of the 
total amount that will be spent each year by the combined EQIP and BSP 
efforts.
    The Salinity Control Program benefits both the Upper Basin water 
users through more efficient water management and the Lower Basin water 
users, through reduced salinity concentration of Colorado River water. 
For example, California's Colorado River water users continue to suffer 
economic damages in the hundreds of million of dollars per year due to 
the current salinity of the Colorado River.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U.S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act (Public Law 92-500), 
the Forum is charged with reviewing the Colorado River's water quality 
standards every 3 years. The Forum adopts a Plan of Implementation 
consistent with these water quality standards. The level of 
appropriation being supported in this testimony is consistent with the 
Forum's 2011 Plan of Implementation. The Forum's 2011 Plan of 
Implementation can be found on this website: http://
www.coloradoriversalinity.org/docs/2011%20REVIEW-October.pdf. If 
adequate funds are not appropriated, significant damages associated 
with increasing salinity concentrations of Colorado River water will 
become more widespread in the United States and Mexico.
    Currently, the salinity concentration of Colorado River water 
causes about $376 million in quantifiable damages in the United States 
annually. Economic and hydrologic modeling by the U.S. Bureau of 
Reclamation (Reclamation) indicates that the quantifiable damages could 
rise to more than $577 million by the year 2030 without the 
continuation of the Salinity Control Program as identified in the 2011 
Plan of Implementation. For example, salinity damages occur from:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    In recent fiscal years, the Natural Resources Conservation Service 
(NRCS) has directed that about $17 million to $18 million of EQIP funds 
be used for the Salinity Control Program. The Colorado River Board 
respectfully urges the subcommittee to support funding for the Colorado 
River Basin Salinity Control Program for fiscal year 2014 at least at 
this level.
    The Forum has taken the position that funding for the Program 
should be consistent with the 3-year funding plan submitted by the 
three NRCS State Conservationists for Colorado, Utah and Wyoming. The 
NRCS funding plan for 2014 is $17.3 million and includes both farm and 
technical assistance program elements. It should also be pointed out 
that State and local cost-sharing is triggered by Federal 
appropriations.
    In conclusion, the Colorado River Board of California recognizes 
that the Federal Government has made significant commitments to the 
seven Colorado River Basin States with regard to the delivery of 
Colorado River water. In order for those commitments to continue to be 
honored, it is essential that Congress continue to provide funds to the 
USDA to allow it to provide needed technical support to agricultural 
producers for addressing salinity control activities in the Colorado 
River Basin. Over the past 29 years, the Colorado River Basin Salinity 
Control program has proven to be a very cost-effective and 
collaborative approach to help mitigate the impacts of the salinity of 
Colorado River water. Continued Federal funding of the USDA elements of 
this important Basin-wide program is essential to maintaining this 
effort.

    [This statement was submitted by Tanya M. Trujillo, Executive 
Director, Colorado River Board of California.]
                                 ______
                                 
       Prepared Statement of the Cystic Fibrosis Foundation (CFF)

    On behalf of the Cystic Fibrosis Foundation and the approximately 
30,000 people with cystic fibrosis (CF) in the United States, we are 
pleased to submit the following testimony to the Senate Appropriations 
Committee's Subcommittee on Agriculture, Rural Development, Food and 
Drug Administration, and Related Agencies on our funding requests for 
fiscal year 2014.
    In order to encourage efficient review of drugs for cystic fibrosis 
and other rare diseases, we urge the committee to prioritize the Food 
and Drug Administration (FDA) in fiscal year 2014 by providing the 
highest possible funding level for this critical agency. We urge 
special consideration and support for the Center for Drug Evaluation 
and Research (CDER), its Office of New Drugs (OND), and the Office of 
Orphan Products Development (OOPD).

  THE FOOD AND DRUG ADMINISTRATION--SUFFICIENT FUNDING FOR SWIFT DRUG 
                                 REVIEW

    The Cystic Fibrosis Foundation requests that the committee provide 
robust funding for drug review at the Food and Drug Administration in 
fiscal year 2014. The FDA has broad and significant responsibilities, 
regulating roughly 25 percent of consumer spending, and its 
responsibilities grow each year. In light of this, we are significantly 
concerned about the impact of the recently enacted sequester, which 
results in a loss of about $208 million, 5.1 percent of the agency's 
budget.
    This figure includes sequestration of user fees for prescription 
drugs. The Foundation strongly opposes sequestering these funds, which 
are collected from industry for the express purpose of supporting drug 
review and are critical to the efficient review of rare disease 
treatments. It is vital that the FDA have the funding it needs to 
ensure that the Nation has a safe and effective supply of drugs and 
devices and that the agency can give the necessary attention to 
reviewing therapies that treat small patient populations and serve 
specific unmet medical needs.
    The Cystic Fibrosis Foundation applauds FDA Commissioner Dr. 
Margaret A. Hamburg, CDER Director Dr. Janet Woodcock, and Associate 
Director for Rare Diseases Dr. Anne Pariser for their sensitivity to 
the challenges posed by the evaluation of rare disease treatments and 
support for swift rare disease drug review and approval.
    Last year's approval of Kalydeco<SUP>TM</SUP>, a groundbreaking 
cystic fibrosis treatment called ``the most important drug of 2012'' by 
Forbes Magazine, is an example of this support. Reviewed and approved 
in only 3 months, Kalydeco was one of the fastest approvals in the 
history of the FDA. Kalydeco's review is a testament to the agency's 
efficiency and its commitment to patients who live everyday with 
serious chronic diseases.
    Kalydeco, developed by Vertex Pharmaceuticals in cooperation with 
the Cystic Fibrosis Foundation, is the first treatment to target the 
underlying genetic cause of cystic fibrosis. It is effective in those 
with a particular CF mutation, impacting about 4 percent of the cystic 
fibrosis population. Other treatments like Kalydeco that target the 
root cause of the disease in larger portions of the CF population are 
moving quickly through the pipeline. Phase 3 clinical trials are 
underway to study a combination of Kalydeco and a new compound, VX-809, 
which would treat those with the most common CF mutation, affecting 
about 50 percent of those with CF in the United States. Additionally, 
the CF Foundation has significantly expanded its research investments 
with leading pharmaceutical companies, including Pfizer, Genzyme and 
Vertex, to accelerate the discovery and development of new drugs that 
will help more CF patients.
    As innovative, genetically targeted treatments like Kalydeco are 
developed, it is important that the FDA has the resources it needs to 
support a sufficient amount of reviewers and retain those with 
appropriate and extensive expertise in rare diseases in order for new 
drugs to be evaluated effectively, efficiently and without delay.
    The review of rare disease drugs involves myriad issues not faced 
in the evaluation of treatments for more common ailments. For example, 
treatments akin to Kalydeco target specific genetic mutations. However, 
there are over 1,000 mutations of cystic fibrosis and some of these 
mutations may impact very small patient populations, creating 
challenges in designing clinical trials. In some cases it may be 
necessary to consider alternate approaches, including accelerating 
classification of biomarkers, testing combinations of drugs in 
populations that might include patients with several different CF 
mutations and the development and testing of single and combination 
therapies in so-called ``n of 1'' trials (trials consisting of a single 
patient).
    Experienced FDA personnel who understand the complexities of rare 
disease clinical research contribute to a more nimble review process 
and cultivate an environment where more novel approaches are 
considered. Providing the FDA with sufficient resources is the only way 
the agency can retain the high caliber workforce it needs to review the 
life-saving drugs of tomorrow.
  the food and drug administration safety and innovation act (fdasia)
    In July 2012, the President signed the Food and Drug Administration 
Safety and Innovation Act (FDASIA) into law. This legislation included 
many provisions with the potential to speed the development and review 
of rare disease treatments, but it cannot be implemented effectively 
unless the FDA has adequate resources.
    One provision in particular outlined in FDASIA is a new pathway for 
``Breakthrough Therapies.'' This new pathway was created to expedite 
the development and review of a potential new medicine intended to 
treat a serious or life-threatening disease or condition, which 
evidence indicates could demonstrate substantial improvement over 
existing therapies. The first two Breakthrough Therapy designations 
were awarded to Vertex Pharmaceuticals for Kalydeco monotherapy (use of 
Kalydeco by people with certain CF mutations not evaluated in prior 
studies) and the combination regimen of Kalydeco and VX-809 currently 
being studied in clinical trials. This additional pathway has the 
potential to help move new treatments quickly to CF patients, but the 
FDA needs sufficient funding to implement it effectively.
    Another provision, recommended by the Cystic Fibrosis Foundation 
for inclusion in FDASIA, encourages FDA consultation with external 
experts regarding the review of rare disease and genetically targeted 
drugs, authorizing the Secretary to maintain a list of experts to 
consult on rare disease topics. These topics include the unmet medical 
need associated with rare diseases, an assessment of the benefits and 
risks of therapies to treat rare disease and the design of clinical 
trials for rare disease populations and subpopulations. As we reap the 
benefits of the mapping of the human genome and the creation of 
innovative models for advancing drug development, FDA outreach to 
external rare disease experts will be more important than ever.
    An example of the importance of this type of outreach can be found 
in the swift approval of Kalydeco. Throughout Kalydeco's review, the 
Cystic Fibrosis Foundation and renowned CF experts worked closely with 
Vertex and the FDA, providing valuable insight on very specialized 
issues. We believe this contributed to an efficient review and 
approval, a testament to what can be achieved when all interested 
stakeholders collaborate.

                   COLLABORATION LEADS TO INNOVATION

    The CF Foundation urges the committee to support funding for 
collaborative efforts between the Food and Drug Administration and the 
National Institutes of Health, such as the Regulatory Science 
Initiative and the FDA-NIH Joint Leadership Council. Collaboration 
between the FDA and NIH can help move innovative new drugs more quickly 
through the development process and into the hands of patients by 
providing an opportunity to share resources, strategies, and tools, 
streamlining the development process from the laboratory to FDA review 
and enhancing the regulation of drugs in this ever-changing scientific 
landscape.

        ABOUT CYSTIC FIBROSIS AND THE CYSTIC FIBROSIS FOUNDATION

    Cystic fibrosis is a rare genetic disease that causes the body to 
produce abnormally thick mucus that clogs the lungs and results in 
life-threatening infections. This mucus also obstructs the pancreas and 
stops natural enzymes from helping the body break down and absorb food.
    The Cystic Fibrosis Foundation's mission is to find a cure for CF 
and improve quality of life for those living with the disease. Through 
the Foundation's efforts, the life expectancy of a child with CF has 
doubled in the last 30 years and research to find a cure is more 
promising than ever. The Foundation's research efforts have helped 
create a robust pipeline of potential therapies that target the disease 
from every angle. Nearly every CF drug available today was made 
possible because of the Foundation's support and our ongoing work to 
find a cure.
    Once again, we urge the committee to make funding for the Food and 
Drug Administration a priority in fiscal year 2014, and stand ready to 
work with the committee and congressional leaders on the challenges 
ahead. Thank you for your consideration.

    [This statement was submitted by Robert J. Beall, Ph.D., Cystic 
Fibrosis Foundation, President and Chief Executive Officer.]
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                      Experimental Biology (FASEB)

    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a fiscal year 2014 appropriation of a 
minimum of $325 million for the Agriculture and Food Research 
Initiative (AFRI) within the National Institute of Food and 
Agriculture. This funding level would keep AFRI on a path to its 
authorized level of $700 million in the 2008 Food, Conservation, and 
Energy Act.
    As a federation of 26 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by AFRI, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve--through their research--the health, well-being, 
and productivity of all people.
    AFRI is the premier competitive grants program of the United States 
Department of Agriculture (USDA), supporting research, extension, and 
education projects at public, land grant universities and private 
institutions nationwide. AFRI facilitates collaborative, 
interdisciplinary research to address broad societal challenges and 
generate knowledge in high-priority areas of the food and agricultural 
sciences and translate these discoveries into agricultural practice. 
AFRI also encourages young scientists to pursue careers in agricultural 
research by providing research funding for over 1,700 of the Nation's 
most promising pre- and postdoctoral scholars.
    Examples of recent USDA-funded research include:
  --Preventing Foodborne Illness.--Scientists are using 
        multidisciplinary approaches to better understand the process 
        by which disease-causing E. coli bacteria are released from the 
        digestive tracts of cattle into the food supply. Research on 
        the genetic, microbial, and environmental factors that cause 
        the bacteria to spread throughout livestock populations will 
        enable scientists to develop new strategies for reducing cattle 
        infections and preventing food contamination.
  --Controlling the Spread of Disease.--The emergence and transmission 
        of infectious diseases among humans and other animals represent 
        an enormous public health threat. In collaboration with 
        National Institutes of Health and National Science Foundation, 
        AFRI is supporting interdisciplinary teams of researchers to 
        deepen our insight and to generate knowledge that will help 
        policymakers to develop better strategies for prevention and 
        suppression of zoonotic transmission to humans.
  --Enabling the Production of Better Livestock.--The completion of the 
        swine genome project is helping us understand the genetic 
        architecture underlying high-quality pork production, disease 
        resistance, and the efficiency with which feed is converted to 
        meat. Taken together, this new knowledge with enable the 
        sustainable and more economical production of high-quality pork 
        by farmers. In addition, newly revealed similarities between 
        the swine and human genomes contribute to our understanding of 
        human health.
  --Managing Agricultural Pests.--A team of scientists supported by 
        USDA is studying the genomes of soilborne microorganisms that 
        severely damage soybeans and other crops. By identifying genes 
        important for the pathogen's harmful effects on plants, 
        scientists can develop strategies to manage disease and 
        increase crop production. Extension specialists, economists, 
        and biologists involved with the project will also ensure that 
        the research is efficiently translated into technologies that 
        benefit farmers, who lose an estimated $300 million to soybean 
        root and stem rot diseases each year.
  --Training the Next Generation Agricultural Scientist.--A new AFRI-
        funded fellowship program has been established to train and 
        develop the next generation of agricultural, forestry, and food 
        scientists and educators. In its first year, the program 
        awarded a total of $6 million to 54 students from 32 
        universities across the country. Fellows are already advancing 
        important research projects, including a study to identify 
        sources of microbial contamination in imported foods.

     APPROPRIATELY REALIZING THE POTENTIAL OF AGRICULTURAL RESEARCH

    Global food demand is expected to double by the year 2050, yet the 
amount of land available for agriculture is not expected to increase 
substantially. The world must address the increased demand for food 
while simultaneously meeting the need for better nutrition, new biofuel 
materials, sustainable agriculture practices, and food safety. The 
effective coordination of research, extension, and education activities 
like those supported by AFRI enables efficient translation of 
scientific discoveries into a broad range of solutions to some of our 
most daunting obstacles. The implementation of those solutions requires 
a robust and scientifically diverse agricultural research workforce.
    Agricultural research directly benefits all sectors of society and 
every geographic region of the country. The private sector relies on 
public investments to increase productivity, improve crops, and train 
future cohorts of agricultural scientists. Strong funding for AFRI is 
one effective way to attract outstanding scientists to careers in 
agricultural research. With the critical focus of its mission and the 
growing need for progress, AFRI is significantly underfunded relative 
to its current capacity. Because of the program's limited budget in 
fiscal year 2010, only 60 percent of project proposals recommended for 
funding by review panels received support. This is woefully inadequate 
to ensure viability of a research enterprise at the core of our 
economy. The estimated value of U.S. agricultural exports increased 
32.2 percent between fiscal year 2007 and fiscal year 2010, 
illustrating the growing demand for agricultural products worldwide, 
yet the AFRI budget has stagnated since the program was established 
with an authorized funding level of $700 million in the 2008 farm bill. 
FASEB recommends at least $325 million for AFRI in fiscal year 2014. 
This could support an additional 100 research grants. Given that the 
capacity of the agricultural research system is much greater, we 
support additional sustainable increases to reach the fully authorized 
level for AFRI as soon as feasible. Our recommended increase of $58.4 
million would fund 100 additional projects.
    Thank you for the opportunity to offer FASEB's support for AFRI.
                                 ______
                                 
     Prepared Statement of the Florida Home Partnership, Inc. (FHP)

    On behalf of Florida Home Partnership (FHP), I wish to thank you 
for accepting this testimony in support of Rural Housing Funding for 
fiscal year 2014. FHP is a nonprofit Community Housing Development 
Organization (CHDO) with a mission to provide low- and moderate-income 
families with affordable, quality-built, energy-efficient homes in 
communities that offer long-term value and comfort.
    Since 2010, U.S. Department of Agriculture (USDA) Rural Housing 
programs have been cut by nearly $400 million. Further cuts to Rural 
Housing programs proposed by the administration's budget request are 
unwise and unwarranted. As such, I am urging the Appropriations 
subcommittee to fund the following USDA Rural Housing Programs at the 
higher of the President's fiscal year 2014 budget request or fiscal 
year 2013 levels, prior to sequestration, including: (1) $900 million 
for Section 502 Direct Homeownership Loans; (2) $30 million for Section 
523 Self-Help Housing Program; and (3) $6.12 million for the Rural 
Community Development Initiative.

   SECTION 502 DIRECT LOANS AND SECTION 523 MUTUAL SELF-HELP HOUSING

    The Section 502 Loans provide affordable mortgage opportunities for 
low-income rural Americans, while the section 523 funds allow Self-Help 
Housing grantees across rural America to provide technical assistance 
to rural Americans engaged in building their own homes through USDA's 
Mutual Self Help Housing Program.
    FHP administers the USDA Mutual Self-Help Housing Program in the 
rural areas of Hillsborough and Pasco Counties in Florida. The impact 
of this service asserts a positive result in four areas: (1) 
Affordable, quality housing for low- to moderate-income families; (2) 
Green Built and Energy Star-certified homes conserve precious 
resources; (3) Safe and affordable housing instills higher goals for 
the future of youth and teens; and (4) the Mutual Self-help Program 
sustains and stimulates the local economic environment.
    With the support of the USDA Mutual Self-Help Program, FHP guides 
groups of 6 to 10, low- to moderate-income families to work together to 
help build each other's homes. In the past 15 years, over 500 homes and 
five communities have been built. Leveraging dollars from the USDA 
Mutual Self-help Program, the State of Florida's Home Ownership Pool, 
and down payment assistance through Hillsborough and Pasco Counties, 
Federal funds enable FHP to efficiently operate a very complex, yet 
effective program. FHP has successfully administered over $65,000,000 
to implement this USDA affordable housing program.
    Participating families share the common goal of homeownership and 
commit themselves to share in the work that will make that goal a 
reality. When all homes in the construction ``Group'' are completed, 
all homeowners are authorized to move into their new homes on the same 
day, creating an instant community. Families and individuals contribute 
a minimum of 600 hours of ``sweat equity'' in the construction of their 
new homes in exchange for their down payment. Hard work is the key, 
along with a willingness to work cooperatively with other participants. 
No construction experience is necessary! Participants perform a variety 
of unskilled and semi-skilled tasks from digging the foundation, to 
carpentry, painting, electrical and plumbing activities through 
construction clean-up and landscaping--along with everything in 
between. Our knowledgeable family construction coordinators (who 
themselves have gone through the program) guide participants through 
the construction process, all the while teaching the participants many 
new skill sets. Friends, family, church members, and others help these 
families accomplish the labor requirements. Therefore, it becomes a 
community endeavor to complete all the homes in a group.
    Each Self Help Home is currently being built as a GREEN Certified 
home, and is constructed to Exceed Energy Star Standards. To date, FHP 
has constructed over 150 GREEN and Energy Star Certified homes. These 
homes conserve energy resources for our country, and just as 
importantly, conserve the precious financial resources of the low-
income rural clients we serve. Many of the Self Help Housing 
organizations across America build their homes to these same Green and 
Energy Conserving Standards.
    FHP provides services before, during, and after to assure the 
success of the families. Services provided ``during'' the application 
process include homeownership education, improving credit, and 
understanding the responsibilities of homeownership. Once the home is 
built, homeowners are also educated and encouraged to become active 
with their homeowners association to assure their community remains a 
quality and safe neighborhood. FHP recently hosted a Parliamentary 
Procedure Training class for interested homeowners and to train new and 
seasoned HOA board members.
    While FHP provides safe housing and encourages community 
involvement, the groundwork is being laid to support a positive outlook 
for youth and teens in the community. The youth of our communities have 
witnessed the hard work of their parents leading to the accomplishment 
of the American Dream, homeownership. We have had multiple experiences 
where children growing up in our decent affordable Self-Help Housing 
communities, have gone on to build Self-Help Homes of their own. These 
children have learned that hard work and perseverance do pay off.
    The USDA Mutual Self-help Program has also had a positive impact on 
the local economy. In addition to a staff of 17 employees, in which 58 
percent are Self Help Homeowners, FHP has been able to regularly 
subcontract with small family owned, mid-size and chain store 
businesses. A great portion of the $65,000,000 has been circulated to 
these various businesses since our inception in 1993. Consequently, as 
a primary client for many businesses, including Home Depot, in the 
Ruskin, Florida area, FHP has contributed to supporting jobs throughout 
its rural service area.
    The value of the Mutual Self-help Program has inherent benefits 
that provide answers to other social problems in our society by meeting 
the needs of affordable, quality and energy-efficient housing that 
provides safe environments for our rural families. Accordingly, the 
program also prepares the children of these homeowners with the tools 
to change their collective destinies; all while creating and 
maintaining meaningful jobs for rural Americans.

    [This statement was submitted by Earl Allen Pfeiffer, Executive 
Director, Florida Home Partnership, Inc.]
                                 ______
                                 
  Prepared Statement of Friends of Agricultural Research--Beltsville, 
                              Inc. (FAR-B)

    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to present our statement supporting funding for the USDA's 
Agricultural Research Service (ARS), and especially for its flagship 
research facility, the Henry A. Wallace Beltsville Agricultural 
Research Center (BARC), in Beltsville, Maryland. We strongly recommend 
full fiscal year 2014 funding support for research programs at 
Beltsville.
    Usually, our testimony would discuss relevant sections of the 
President's annual budget proposal. This year, however, it appears as 
though the President's annual budget proposal may not be available 
before the March 20 deadline the subcommittee has announced for 
accepting testimony from interested members and outside witnesses. 
Thus, drawing on a discussion with subcommittee staff, our testimony 
for fiscal year 2014 generally summarizes and re-states the testimony 
that we submitted a year ago.
    Henry A. Wallace Beltsville Agricultural Research Center.--The 
Nation's premier agricultural research center--has spearheaded 
technical advances in American agriculture for over 100 years. 
Beltsville celebrated 100 years of research leadership and technical 
advances in 2010. The long list of landmark research achievements over 
that time is truly remarkable. Still at the threshold of its second 
century, Beltsville stands unequalled in scientific capability, breadth 
of agricultural research portfolio, and concentration of scientific 
expertise. Under the leadership of Director Dr. Joseph Spence and with 
its powerful scientific capability, the Beltsville Agricultural 
Research Center is distinctively, indispensably prepared for the 
challenges that lie ahead.

     PRIORITIES IN THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST

    Now, Mr. Chairman, we turn to key research areas highlighted in the 
President's proposed fiscal year 2013 budget. We continue to strongly 
recommend this proposed funding as we did a year ago.
    We were pleased to see that the fiscal year 2013 budget includes 
increases for environmental stewardship; crop breeding and protection; 
animal breeding and protection; food safety; and human nutrition. 
Obviously, these are areas of great concern to all Americans, and they 
are certainly among the highest priorities for agricultural research 
today. All of these research areas are strengths of the Beltsville 
Agricultural Research Center and they will benefit well from the unique 
facilities and scientific expertise at the Center. We encourage you to 
seriously consider funding the proposed budget and to ensure that 
Beltsville receives the funding that it needs to address these critical 
research needs.
    Although funds are not requested for major facilities projects in 
the fiscal year 2013 budget, we would like to bring to your attention 
the urgent need for renovation of Building 307 on the Beltsville 
campus. The Center has aggressively moved to consolidate space and 
reduce costs and has been very successful at doing so. However, these 
plans require the renovation of a building--Building 307--that was 
vacated some years ago in anticipation of a complete renovation. In the 
past, Congress approved partial funding for this renovation, and those 
monies were retained pending appropriation of the full amount required 
for the renovation. Unfortunately, those funds now have been lost to 
ARS. Consequently, renovation of this vacant, highly useful building is 
on indefinite hold. While we realize that funding is extremely tight, 
we confirm that Beltsville urgently needs a renovated Building 307 for 
adequate, high quality lab space. Moreover, a renovated Building 307 
would not only yield substantial energy savings, but also would allow 
Beltsville to move forward with other long-delayed relocation and 
consolidation plans. At a minimum, funds are urgently needed to 
stabilize this vacant building from continuing deterioration.
    In summation, we would highlight these spheres of excellence:
    Animal Breeding and Protection.--Beltsville conducts extensive 
research on animal production and animal health. The research center is 
the foundation of genetic improvement in dairy cow production. 
Beltsville is examining ways to prevent resistance to drugs for animal 
parasite prevention and control.
    Crop Breeding and Protection.--Beltsville scientists have an 
extensive record of ongoing research relating to protecting crops from 
pests and emerging pathogens. Beltsville has distinctive expertise for 
identifying pathogens, nematodes, and insects that destroy crops or 
make crops ineligible for export. Beltsville houses the Germplasm 
Resource Information Network, the United States coordinating body to 
identify and catalog plant germplasm.
    Child and Human Nutrition.--The Beltsville Human Nutrition Research 
Center (BHNRC) is the Nation's largest, most comprehensive Federal 
human nutrition research center; unique activities include the What We 
Eat in America survey, which is the Government's nutrition monitoring 
program, and the National Nutrient Databank, which is the gold standard 
reference of food nutrient content that is used throughout the world. 
These two activities are the basis for food labels, nutrition education 
programs, food assistance programs including SNAP, the Supplemental 
Nutrition Assistance Program, school feeding programs, and Government 
nutrition education programs.
    Global Climate Change.--Beltsville became actively engaged in 
climate change research long before climate change became a topic of 
intense media interest. Beltsville scientists are at the forefront of 
climate change research--understanding how climate change affects crop 
production and the effects of climate change on growth and spread of 
invasive and detrimental plants (such as weeds.) A central aim is 
finding ways to mitigate negative effects of climate change on crops. 
Beltsville houses unequalled facilities for replicating past climates 
or climates that may exist in the future.
    Plant, Animal, and Microbial Collections.--Beltsville houses 
matchless national biological collections that are indispensable to the 
well-being of American agriculture. In addition to the actual 
collections, Beltsville scientists are internationally recognized for 
their expertise and ability to quickly and properly identify insect 
pests, fungal pathogens, bacterial threats, and nematodes. This 
expertise is crucial to preventing loss of crops and animals, ensuring 
that invasive threats to American agriculture are identified before 
they can enter the country, thus helping to protect homeland security, 
and ensuring that American exports are free of pests and pathogens that 
could prohibit exports. Also, Beltsville houses the National Animal 
Parasite collection and has the expertise to identify parasites that 
are of importance to agricultural animals.
    Mr. Chairman, this concludes our statement. Thank you for 
consideration and support for the educational, research, and outreach 
missions of the Beltsville Agricultural Research Center.

    [This statement was submitted by James D. Anderson, Ph.D., 
President, Friends of Agricultural Research--Beltsville.]
                                 ______
                                 
 Prepared Statement of the Global Health Technologies Coalition (GHTC)

    Chairman Pryor, Ranking Member Blunt, and members of the committee, 
thank you for the opportunity to provide testimony on the fiscal year 
2014 appropriations funding for the U.S. Food and Drug Administration 
(FDA). We appreciate your leadership in global health, and we hope that 
your support will continue. I am submitting this testimony on behalf of 
the Global Health Technologies Coalition (GHTC), a group of over 25 
nonprofit organizations working together to advance U.S. policies that 
can accelerate the development of new global health innovations--
including new vaccines, drugs, diagnostics, microbicides, multi-purpose 
technologies, and other tools--to combat global health diseases and 
conditions. The GHTC members strongly believe that to meet the world's 
most pressing global health needs, it is critical to invest in research 
for and regulation of new global health technologies today so that the 
most effective health solutions are available now and in the future. We 
also believe that the U.S. Government has a historic and unique role in 
doing so. My testimony reflects the needs expressed by our member 
organizations, which include nonprofit advocacy organizations, policy 
think-tanks, implementing organizations, product development 
partnerships (PDPs), and many others.\1\ We strongly urge the committee 
to continue its established support for global health research and 
development (R&D), as well as product safety by: (1) Sustaining and 
supporting U.S. investments in global health product development by 
robustly funding FDA to conduct its work in fiscal year 2014, and 
encourage FDA to increase its internal capacity in neglected diseases; 
(2) support FDA's authority to fund research and development for global 
health technologies, including but not limited to those created though 
the Critical Pathways Initiative; (3) instructing FDA to continue to 
build stronger partnerships with non-U.S. regulatory stakeholders, such 
as the WHO; (4) requesting that FDA create an office of neglected 
diseases in the Office of the Commissioner; (5) instruct the FDA to 
include the neglected tropical disease Chagas on the list of global 
health conditions for which FDA is legally allowed to review health 
products; (6) instructing FDA to report on its global health and 
neglected disease activities in its next report to Congress; and (7) 
instructing FDA to work with the other U.S. agencies engaged in global 
health R&D to develop a 5-year cross-Government strategy for U.S. 
global health research and development funding and programming.
---------------------------------------------------------------------------
    \1\ Global Health Technologies Coalition. http://
www.ghtcoalition.org/coalition-members.php.
---------------------------------------------------------------------------
               CRITICAL NEED FOR NEW GLOBAL HEALTH TOOLS

    Every day, more than 35,000 people die from AIDS, tuberculosis 
(TB), malaria, and other neglected diseases. While drugs and other 
health technologies exist for these diseases, many have grown 
ineffective due to increasing drug resistance and toxicity or are 
costly and difficult to administer in poor, remote, and unstable 
settings. There are several very promising technology candidates in the 
R&D pipeline; however, these tools will never be available if the 
support needed to continue research, development and regulation is not 
supported and sustained.

              GLOBAL HEALTH PRODUCT DEVELOPMENT CHALLENGES

    Developers of products intended for the developing world face 
challenges in three key areas:
    First, capacity to conduct as well as adequately regulate clinical 
trials does not exist or is often weak in countries where diseases are 
endemic. And third, the approval process for new products for neglected 
diseases is poorly coordinated and involves multiple, complex steps. 
Global regulatory systems are not sufficiently streamlined and the 
capacity of regulatory authorities to approve products for the 
developing world is frequently weak. Therefore, regulatory review and 
introduction of new safe and effective products takes longer than 
necessary.

              ADVANCING GLOBAL HEALTH PRODUCT DEVELOPMENT

    Because private industry does not invest significantly in the 
development of products for diseases for which there are no lucrative 
markets, a host of new organizational models and incentive mechanisms 
have emerged to address this challenge, with varying success.
    One organizational model that has proven promising is the product 
development partnership (PDP). PDPs are a unique form of public-private 
partnership established to drive greater development of products for 
neglected diseases. Currently, there are more than 26 PDPs developing 
drugs, vaccines, microbicides, and diagnostics that target a range of 
infectious and neglected diseases, including HIV/AIDS, malaria, TB, 
Chagas disease, dengue fever, and visceral leishmaniasis.
    While PDPs operate differently depending on their disease and 
product area(s) of focus, they typically employ a portfolio approach to 
R&D to accelerate product development by pursuing multiple strategies 
for the same disease area. They also work in close partnership with 
academia, large pharmaceutical companies, the biotechnology industry, 
and with regulatory and other Government agencies in developing 
countries.
    PDPs are delivering on their promise to develop lifesaving products 
for use in countries where disease burdens are highest and no viable 
commercial markets exist. To date, PDPs have developed and licensed 19 
products to combat neglected diseases in low- and middle-income 
countries. More can be expected from PDPs in the future with sustained 
and additional support: in 2012 PDPs had more than 374 
biopharmaceutical, diagnostic, and vector-control candidates in various 
stages of development, including 23 in late-stage clinical trials. In 
the next 5 years, it is anticipated that several new technologies could 
be ready for use or in final stages of clinical development.
    For example, six TB vaccine candidates are in clinical trials 
worldwide, including the first late-stage infant study of a TB vaccine 
in more than 80 years. There are also several new TB drug candidates in 
testing, which, if approved, would become the first new TB drugs in 
nearly 50 years. Also, a vaccine candidate and drug candidates are 
currently in clinical trials to prevent and treat visceral 
leishmaniasis, a neglected disease whose current treatments are costly 
and toxic. Additionally, two artemisinin combination therapies--the 
gold standard of malaria drug treatment--developed in part by the PDP 
Medicines for Malaria Venture have recently been approved for licensure 
and will be reaching those in need in the near future.
    PDPs have seen remarkable success over the last decade; however 
they face significant and unique challenges, including management of 
complex multi-country clinical trials, which must be conducted in the 
regions where diseases are endemic, and the range of regulatory 
barriers that come with that challenge, including onerous application 
processes and lengthy reviews. Furthermore, global health product 
development can involve unprecedented regulatory hurdles in the United 
States. In these situations, early and frequent communication between 
regulators and product developers is essential to the quality and 
efficiency of the regulatory system.

        FDA'S CRITICAL ROLE IN GLOBAL HEALTH PRODUCT REGULATION

    The FDA has demonstrated through a number of recent actions that it 
can have an impact on the introduction of global health tools. These 
include:
  --The FDA's program to review HIV/AIDS drugs delivered in the 
        developing world through the U.S. President's Emergency Plan 
        for AIDS Relief.
  --The release of guidance documents that outlined the FDA's 
        willingness to review vaccines and other products for diseases 
        not endemic to the United States.
  --The agency's partnership with global bodies, such as the World 
        Health Organization (WHO), to enhance access to medicines for 
        the developing world and assist other countries in bolstering 
        their regulatory capacity.
  --The FDA's Priority Review Voucher Program, which awards a voucher 
        for future expedited product review to the sponsor of a newly 
        approved drug or biologic that targets a neglected tropical 
        disease (NTD).
  --The FDA's Office of Critical Path Initiatives, which supports the 
        development of regulatory science such as biomarkers and animal 
        models to better evaluate and register new TB tools.
  --The FDA's issuance of a guidance for testing new anti-TB drugs in 
        combination, which accelerates the development of new, safe, 
        and highly effective treatment regimens with shorter therapy 
        durations.
  --The FDA's release of a draft guidance for the development and 
        regulation of vaginal microbicide products to prevent HIV.
  --The FDA Center for Biologics Evaluation and Research issuance of a 
        strategic plan for 2012-2016 that highlights FDA's 
        international collaboration including research and information 
        sharing.
  --The recent release of the FDA's Strategic Plan for Regulatory 
        Science, which promoted the task of reviewing and licensing 
        products for global health as one of its main areas of work.
    The FDA's efforts in these areas are to be applauded. The agency 
can and should continue to increasingly leverage its expertise to 
benefit the millions of people affected by infectious diseases around 
the world.

                            RECOMMENDATIONS

    Support for global health research that saves lives around the 
world--while at the same time promoting innovation, creating jobs, and 
spurring economic growth at home--is unquestionably among the Nation's 
highest priorities. In keeping with this value, the GHTC respectfully 
requests that the committee do the following:
  --Sustain and support U.S. investments in global health product 
        development by robustly funding FDA to conduct its work, and 
        encourage FDA to increase its capacity to provide technical 
        advice to other regulatory bodies and review and license health 
        products for diseases not usually endemic to the United States. 
        The committee should also support FDA's authority to fund 
        research and development for global health technologies, 
        including but not limited to those created though the Critical 
        Pathways Initiative.
  --Instruct FDA to continue to build stronger partnerships with non-
        U.S. regulatory stakeholders, such as the WHO, including a 
        formal arrangement with WHO allowing simultaneous reviews of 
        global health products, thereby speeding access to much-needed 
        new health tools worldwide.
  --Request that FDA create an office of neglected diseases in the 
        Office of the Commissioner to ensure that neglected diseases 
        and global health issues are consistently elevated at the 
        leadership level.
  --Instruct the FDA to include the neglected tropical disease Chagas 
        on the list of global health conditions for which FDA is 
        legally allowed to review health products, if it has not 
        already done so.
  --Instruct FDA to report on its global health and neglected disease 
        activities in its next report to Congress, scheduled for early 
        2013, to improve transparency and clarity.
  --Instruct FDA to work with the Centers for Disease Control and 
        Prevention, the National Institutes for Health, the Office of 
        Global Affairs at the Health and Humans Services, the U.S. 
        Agency for International Development and State Department 
        Office of Global Health Diplomacy and the Department of Defense 
        to develop a 5-year cross-Government strategy for U.S. global 
        health research and development funding and programming.
    On behalf of the members of the GHTC, I would like to extend my 
gratitude to the committee for the opportunity to submit written 
testimony for the record.

    [This statement was submitted by Kaitlin Christenson, Director, 
Global Health Technologies Coalition.]
                                 ______
                                 
       Prepared Statement of the Housing Assistance Council (HAC)

    The Housing Assistance Council (HAC) appreciates this opportunity 
to submit testimony regarding the U.S. Department of Agriculture (USDA) 
Rural Development budget for fiscal year 2014. HAC greatly appreciates 
the subcommittee's support for USDA rural housing programs in recent 
years' appropriations bills.
    Since its creation in 1971, HAC has provided financing, 
information, and technical services to nonprofit, for-profit, public, 
and other providers of rural housing. Because HAC works closely with 
local organizations around the country, we know firsthand the 
challenges rural communities face.
    During the current recession it is particularly important to 
support the rural housing programs administered by USDA Rural 
Development's Rural Housing Service (RD). The housing needs of low-
income people in both urban and rural places predated the housing crash 
and will outlast it. RD's programs have a long history of success in 
meeting these needs, and can help rural America not only to recover 
from the recession, but also to move forward.
    Almost one of every four homes in this country is located in a 
rural area. Over 7 million rural households--3-in-10--pay more than the 
Federal standard of 30 percent of their monthly income for housing. 
Most of these cost-burdened rural households have low incomes. At the 
same time, more than 30 percent of the Nation's housing units lacking 
hot and cold piped water are in rural and small town communities. 
Housing problems are often not isolated and in many cases are 
compounded by the combination of inadequacies related to affordability, 
housing quality, and crowding. Over half of rural and small town 
households with multiple problems of cost, quality, or crowding are 
renters. Minorities in rural areas are among the poorest and worst 
housed groups in the entire Nation, with much higher levels of 
inadequate housing conditions. Housing needs are particularly severe 
for certain rural places and populations including Native Americans, 
the Mississippi Delta, Appalachia, the colonias along the United 
States-Mexico border, and farmworkers. Complicating efforts to improve 
rural housing, many rural places lack strong, experienced nonprofit 
housing organizations.
    Despite the needs, funding for USDA rural housing programs has 
decreased significantly in recent years. These reductions deprive rural 
Americans of the assistance they need to obtain decent, affordable 
homes.
    HAC's specific recommendations for fiscal year 2014 appropriations 
are provided in table 1. By funding RD housing programs at these 
levels, the subcommittee would:
    Support Continued Strong Direct Lending Programs for Single- and 
Multifamily Rural Housing Development.--RD's housing toolbox includes 
direct loan programs for homeownership and for development of rental 
housing, and loan guarantee programs for the same two purposes. The 
administration's budgets have consistently emphasized the guarantee 
programs because their costs are covered by fees to participants rather 
than by Federal spending. The guarantee programs cannot replace the 
direct programs, however, because they do not serve the same 
populations.
    In 2011, homeowners receiving section 502 direct loans had an 
average income of $27,053, compared to $50,571 for owners with section 
502 guaranteed loans. Similarly, the average income of tenants in 
developments financed with section 515 direct loans was $11,337 as of 
April 2012. No recent figure is available for tenants in properties 
with private loans guaranteed under USDA's section 538 program, but in 
2005 the average income of tenants in section 538 developments was more 
than $10,000 higher than the average income for tenants in section 515 
properties.
    Support Self-Help ``Sweat Equity'' Housing.--The 2014 budget 
proposes to cut the small section 523 self-help housing account by two-
thirds, from $30 million to $10 million. The program deserves better: 
it is an incredibly effective way to make homeownership accessible to 
low- and very low-income rural Americans. Groups of 8 to 10 families 
work together building their own and their neighbors' homes with up to 
1,500 hours of sweat equity. Families provide 65 percent of the 
construction labor, spending long hours working on their houses in the 
evenings after work and on weekends. These extensive labor 
contributions mean that families have equity in their homes, and that 
the new owners know how to repair their houses, know their neighbors, 
and have a strong sense of community. In addition, a number of them use 
their on-the-job training to find new jobs in construction.
    Enable the Section 515 Rental Program To Support Preservation of 
Existing Properties and Also Development of New Ones.--Affordable 
rental housing is scarce in many rural places, and new construction has 
dropped sharply over the last 20 years as section 515 funds have been 
cut. Rural housing organizations have made good use of section 538 
guaranteed loans and Low Income Housing Tax Credits, but these 
resources alone cannot produce rentals affordable to the lowest income 
rural residents. Section 515 funds are also used to help preserve 
existing USDA-funded rental properties. The $28.4 million level in the 
administration's budget would fund preservation only; no new 
construction money would be available.
    Provide Enough USDA Section 521 Rental Assistance To Renew All 
Expiring Contracts and To Fill the Gap in Fiscal Year 2013 Funding.--
The cost of USDA's Rental Assistance (RA) program increases every year 
not only because rents are increasing, but also because more RA 
contracts are expiring--and therefore being renewed--every year. At one 
time RA contracts were 20 years long, with the entire cost of the 
contract charged to the agency's budget in the first year. Then 
contracts were shortened to 5 years and eventually to 1 year. 
Gradually, then, as old contracts expire and are renewed for 1 year at 
a time, an ever larger number of contracts must be renewed every year.
    The budget proposes to increase RA funding, asserting that the 
proposed $1 billion will be enough to renew all RA contracts due to 
expire during fiscal year 2014. HAC has two concerns about the amount 
proposed. First, USDA has stated publicly that in fiscal year 2013, 
because of sequestration and the additional 2.5 percent cut to USDA 
programs, RD will run out of Rental Assistance funding during the month 
of September and will be unable to renew over 15,000 RA contracts. At a 
House Agriculture Appropriations Subcommittee hearing on April 24, USDA 
Deputy Under Secretary Doug O'Brien stated, in response to a question 
from Rep. Sam Farr, that the administration's fiscal year 2014 budget 
does not include enough to cover those contracts. Second, RD has not 
made data available that would enable others to make their own 
calculations about the amount needed to renew all expiring RA contracts 
in fiscal year 2014.
    Full funding for RA is essential because tenants receiving RA are 
particularly vulnerable. The average income for section 515 residents 
with RA is less than $9,500 per year, compared to the already low 
$11,300 average for all section 515 tenants in USDA-financed rental 
housing. Sixty-one percent of section 515 tenants are elderly or 
disabled, most living on fixed incomes. Tenants in section 514/516 
housing are farmworkers and their families, many of whom earn irregular 
and low wages.
    Fund the Section 514/516 Farm Labor Housing Program for 
Construction of Needed New Units.--Housing problems such as substandard 
housing quality, crowding, and affordability issues are commonplace 
among migrant farmworkers who travel to follow crop seasons and labor 
demand, as well as those who reside in the same community year-round. 
RD farm labor housing funds are an important resource for developers, 
but funding has always been too low compared to the need.
    Preserve and Revitalize Affordable Section 515 and 514 Rural Rental 
Housing.--These properties are aging, with many badly in need of 
repairs and renovations. At the same time, some owners want to prepay 
their mortgages and leave the section 515 program, often because they 
hope to convert their apartments to market-rate rentals. Federal 
intervention is needed. HAC recommends that Congress provide 
substantial funding for the Multi-Family Housing Revitalization (MPR) 
and Preservation Revolving Loan Fund (PRLF) programs. Created a few 
years ago as demonstration programs, MPR and PRLF have proven to be 
invaluable tools in preservation efforts. Congress should also continue 
to set aside $6 million in RA each year for debt forgiveness or RA 
payments as authorized by section 502(c). This set-aside gives USDA a 
degree of flexibility in using these funds that is not provided by 
section 521 but is essential for preservation efforts.
    Continue Building the Capacity of Rural Housing Organizations To 
Meet Their Own Communities' Needs.--Mission-driven community 
organizations, primarily nonprofits, play an essential role in putting 
rural housing funds to work in rural places. To use rural housing 
programs effectively to improve housing and contribute to sustained 
economic recovery, a strong nonprofit presence is required. To support 
community-based nonprofit organizations, their employees, and their 
vital role, the Housing Assistance Council recommends an appropriation 
of $6.1 million in fiscal year 2014 for USDA's Rural Community 
Development Initiative (RCDI), which funds intermediary organizations 
that build organizational capacity for local housing organizations.
    Capacity building for nonprofit rural housing providers is one of 
the recommendations made recently by the Bipartisan Policy Center's 
Housing Commission. The Commission's report, which devotes a chapter to 
rural housing, also recommends that housing policy ``support and 
strengthen USDA's role in rural housing. USDA has a presence in rural 
communities that is critical for administering support to vulnerable 
households. . . . USDA is well-positioned to leverage the existing 
resources and infrastructure of rural service providers that understand 
the unique conditions of local markets.''
    Thank you for the opportunity to provide this testimony for the 
record. HAC asks the subcommittee, and the Congress, to support jobs, 
job training opportunities, asset building for hardworking low-income 
families, and preservation of past Federal investments in rural 
America, by supporting HAC's proposed fiscal year 2014 funding levels 
for USDA's rural housing programs.

             TABLE 1.--HOUSING ASSISTANCE COUNCIL'S RECOMMENDED RURAL HOUSING PROGRAM FUNDING LEVELS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                         Fiscal year--
                                             -------------------------------------------------------------------
       USDA Rural Development Program                                                 2014
                                                   2012             2013        administration's     2014 HAC
                                              appropriation  appropriation \1\       budget       recommendation
----------------------------------------------------------------------------------------------------------------
502 Single Fam. Direct......................        900               900                360             900
504 Very Low-inc. Rpr. Loans................         10                28                 26.3            28
504 Very Low-inc. Rpr. Grts.................         29.5              29.5               25              29.5
515 Rental Hsg. Direct......................         64.5              31.3               28.4            64.5
514 Farm Labor Hsg. Loans...................         20.8              25.6               23.5            26
516 Farm Labor Hsg. Grts....................          7.1               8.84              14               9
521 Rental Assistance \2\...................        904.7             907.1            1,015          1,015+
    Preservation RA.........................  .............  .................  ................         (6)
    New Constr. 515 RA......................         (1.5)   .................  ................          (1.5)
    New Constr. 514/516 RA..................         (2.5)            (3)                (3)              (2.5)
523 Self-Help TA............................         30                30                 10              30
533 Hsg. Prsrv. Grants......................          3.6               3.6     ................           3.6
Rental Prsrv. Demo. (MPR)...................          2                17.8               20              27.8
Rental Prsrv. Revlg. Lns....................  .............  .................  ................           1.8
Rural Cmnty. Dev't Init.....................          3.6               6.1     ................           6.1
----------------------------------------------------------------------------------------------------------------
\1\ Figures shown do not include 5 percent sequester and 2.5 percent across the board reduction.
\2\ Amounts in parentheses are included in the Rental Assistance totals.


    [This statement was submitted by Moises Loza, Executive Director, 
Housing Assistance Council.]
                                 ______
                                 
   Prepared Statement of the Housing Development Alliance, Inc. (HDA)

    On behalf of Housing Development Alliance, Inc. and the communities 
we serve, I wish to thank the subcommittee for the opportunity to 
submit testimony on fiscal year 2014 appropriations for the Department 
of Agriculture (USDA) Rural Housing Programs. Since 2010, U.S. 
Department of Agriculture (USDA) Rural Housing programs have been cut 
by nearly $400 million. Further cuts to Rural Housing programs proposed 
by the administration's budget request are unwise and unwarranted. As 
such, I urge this subcommittee to fund USDA Rural Housing programs at 
the higher of the President's fiscal year 2014 budget request or fiscal 
year 2013 levels, prior to sequestration, including: (1) $900 million 
for Section 502 Direct Homeownership Loans; (2) $28 million for Section 
504 Very-Low Income Rural Housing Repair Loans; and (3) $29.5 million 
for Section 504 Very-Low Income Rural Housing Repair Grants.
    Housing Development Alliance, Inc. (HDA) serves Perry, Knott, 
Leslie and Breathitt Counties in Kentucky. These are among four of the 
poorest counties in the Nation, with poverty rates ranging from 24 
percent to over 33 percent. In these four counties, over 12,650 
households have annual incomes of less than $25,000, including over 
5,100 households with incomes less than $10,000. Furthermore, these 
counties suffer from persistent poverty (having more than 20 percent of 
population in poverty for more than five decades) which has resulted in 
a poor housing stock and a broken housing market. In short, our 
community has a critical need for safe, decent and affordable housing.
    Since 1996, the Housing Development Alliance has constructed 90 new 
homes which were sold to qualified low and very-low income homebuyers 
who received financing through the Section 502 Single Family Direct 
Loan Program. In this same period, the Housing Development Alliance has 
repaired nearly 180 homes using Section 504 Loan and Grants. These 
programs often serve the poorest of the poor. In fact, the average 
annual income of our Section 502 Direct Loan homebuyers was $14,252 and 
the average annual income of our Section 504 Loan and Grant repair 
client was $10,660 per year.
    In many cases the living conditions of the households prior to 
receiving assistance are deplorable. These homes often lack an adequate 
heat source; have little or no insulation; often have major structural 
defects including collapsing foundations, rotting floors and walls and 
leaking roofs; have unsafe electrical wiring; and lack complete 
plumbing. For example recently the Housing Development Alliance 
encountered an elderly woman whose gas water heater was spewing 
potentially deadly levels of carbon monoxide into her home and another 
elderly woman whose tub/shower was not hooked to the sewer and was 
draining directly under her home.
    However, the benefits of these programs are not limited to just to 
the households purchasing the new home or receiving the affordable home 
repair. The programs provide jobs and other needed economic activity to 
our community. For example, in 2011, seven homes were constructed and 
financed in part by the Section 502 Single Family Direct Loan Program. 
Using the National Association of Home Builders' estimate that each 
home constructed creates/preserve 3 construction jobs, in 2011 the 
Housing Development Alliance's use of Section 502 Direct Loans created/
preserved 21 construction jobs. Even more jobs were created or 
preserved through our use of the Section 504 Repair Loans and Grants 
which funded 14 home repairs.
    While these numbers may seem modest, as they are repeated in rural 
communities throughout America these programs have a huge impact on 
jobs in rural America.
    Furthermore the Section 502 Single Family Direct Loan Program is 
the most cost-effective Federal housing program. Despite serving low 
and very-low income households, the average lifetime cost of a Section 
502 Single Family Direct Loan is just $3,000, while the average cost of 
Section 8 Housing Assistance is nearly $7,000 per year. This low cost 
is due in part to the fact that Section 502 Direct portfolio maintains 
an excellent repayment history with a foreclosure rate of just over 4 
percent.
    The administration and others have suggested that the Section 502 
Guarantee Program is a suitable alternative to the Section 502 Direct 
Loan Program; this is simply not true in our community. We completed a 
study of our 502 Direct Loan Program recipients and found that only 1 
out 10 would have been able to afford the higher interest cost 
associated with a Section 502 Guarantee Loan.
    Thank you again for the opportunity to provide testimony on the 
critically important programs. Without adequate funding for these 
programs low income households will remained trapped in substandard, if 
not outright deplorable, housing and construction and other related 
jobs will be lost across rural America.

    [This statement was submitted by R. Scott McReynolds, Executive 
Director, Housing Development Alliance, Inc.]
                                 ______
                                 
  Prepared Statement of the Humane Society of the United States (HSUS)

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to your subcommittee on 
fiscal year 2014 items of great importance to The Humane Society of the 
United States (HSUS). In this testimony, we request the following 
assistance for the following USDA accounts:
  --APHIS/Animal Welfare Act Enforcement--$28,203,000;
  --APHIS/Horse Protection Act Enforcement--$893,000;
  --APHIS/Investigative and Enforcement Services--$16,350,000;
  --FSIS/Horse Slaughter--language mirroring fiscal year 2013 House 
        committee bill provision;
  --FSIS/Humane Methods of Slaughter Act Enforcement--language 
        directing FSIS to ensure that inspectors hired with funding 
        previously specified for Humane Methods of Slaughter Act 
        enforcement focus their attention on overseeing compliance with 
        humane handling rules for live animals as they arrive and are 
        offloaded and handled in pens, chutes, and stunning areas, and 
        that they receive robust national training, including on the 
        Regulatory Essentials, Humane Animal Tracking System, and 
        Public Health Information System;
  --OIG/including Animal Fighting Enforcement--$89,902,000;
  --NIFA/Veterinary Medical Services Act--$4,790,000;
  --APHIS/Emergency Management Systems/Disaster Planning for Animals--
        $1,017,000; and
  --APHIS/Wildlife Services Damage Management--reduce by $13 million.
    At this time of intense budget pressure, we thank you for your 
outstanding past support for enforcement of key animal welfare laws by 
the U.S. Department of Agriculture, and we urge you to sustain this 
effort in fiscal year 2014. While we understand the focus on reducing 
Federal spending, we believe there should be room for careful 
decisionmaking within the budget to achieve macro-level cuts and at the 
same time ensure adequate funding for specific accounts that are vital 
and have previously been underfunded.
    Your leadership is making a difference, helping to protect the 
welfare of millions of animals across the country and upholding the 
values of the American public. As you know, better enforcement also 
directly benefits American citizens by: (1) preventing the sale of 
unhealthy pets from unlawful commercial breeders, commonly referred to 
as ``puppy mills''; (2) improving laboratory conditions that may 
otherwise impair the scientific integrity of animal-based research; (3) 
reducing risks of disease transmission from, and dangerous encounters 
with, wild animals in or during public exhibition; (4) minimizing 
injury, loss, and death of pets on commercial airline flights due to 
mishandling and exposure to adverse environmental conditions; (5) 
decreasing food safety risks to consumers from sick animals who can 
transmit illness, and injuries to slaughterhouse workers from suffering 
animals; and (6) dismantling orchestrated dogfights and cockfights that 
often involve illegal gambling, drug trafficking, human violence, and 
can contribute to the spread of costly illnesses such as bird flu. In 
order to continue the important work made possible by the committee's 
prior support, we request the following for fiscal year 2014:

 ANIMAL AND PLANT HEALTH INSPECTION SERVICE (APHIS)/ANIMAL WELFARE ACT 
                           (AWA) ENFORCEMENT

    We request that you support the President's request of $28,203,000 
for AWA enforcement under APHIS. We commend the committee for 
responding in recent years to the urgent need for increased funding for 
the Animal Care Division. The funding has helped improve inspections by 
Animal Care of approximately 27,916 sites (more than double last year's 
number), including commercial breeding facilities, laboratories, zoos, 
circuses, and airlines, to ensure compliance with AWA standards. In May 
2010, USDA's Office of Inspector General released a report criticizing 
the agency's history of lax oversight of dog dealers, finding that 
inhumane treatment and horrible conditions often failed to be properly 
documented and yielded little to no enforcement actions. While 
Agriculture Secretary Vilsack called for more inspections and a tougher 
stance on repeat offenders, the agency must have the resources to 
follow through on that commitment. USDA is also implementing a new 
responsibility created by Congress in 2008--enforcing a ban on imports 
from foreign puppy mills where puppies are mass produced under inhumane 
conditions and forced to endure harsh long-distance transport. And as 
indicated in the President's fiscal year 2014 budget, USDA anticipates 
needing adequate resources to enforce the imminent Animal Welfare Act 
retail pet store rule, which will close a loophole for pets being sold 
over the Internet, by phone, and by mail that are currently exempt from 
the regulatory process. The requested funding levels will help support 
these important regulatory efforts. Animal Care currently has 127 
inspectors (with 11 vacancies), compared to 64 inspectors at the end of 
the 1990s. An appropriation at the requested level would help the 
agency continue to address the concerns identified by the OIG, enforce 
the new puppy import ban and the retail pet store rule, and provide 
adequate oversight of the many licensed/registered facilities.

              APHIS/HORSE PROTECTION ACT (HPA) ENFORCEMENT

    We request that you support the President's request of $893,000 for 
strengthened enforcement of the Horse Protection Act. Congress enacted 
the HPA in 1970 to make illegal the abusive practice of ``soring,'' in 
which unscrupulous trainers use a variety of methods to inflict pain on 
sensitive areas of Tennessee Walking Horses' hooves and legs to 
exaggerate their high-stepping gait and gain unfair competitive 
advantage at horse shows. For example, caustic chemicals--such as 
mustard oil, diesel fuel, and kerosene--are painted on the lower front 
legs of a horse, then the legs are wrapped for days in plastic wrap and 
tight bandages to ``cook'' the chemicals deep into the horse's flesh, 
and then heavy chains are attached to slide up and down the horse's 
sore legs. Though soring has been illegal for 40 years, the well-
intentioned but seriously understaffed APHIS inspection program has 
been unable to rein in this cruel practice, particularly given the 
inherent conflicts of interest in the industry self-policing system 
established to supplement Federal enforcement. A report released in 
October 2010 by USDA's Office of Inspector General documents these 
problems and calls for increased funding to enable the agency to more 
adequately oversee the law. Several horse show industry groups, animal 
protection groups, and the key organization of equine veterinarians 
have also called for funding increases to enable the USDA to do a 
better job enforcing this law. To meet the goal of the HPA, Animal Care 
inspectors must be present at more shows. Exhibitors who sore their 
horses go to great lengths to avoid detection--even fleeing shows when 
USDA inspectors arrive. With current funding Animal Care is able to 
attend only about 10 percent of the more than 500 Tennessee Walking 
Horse shows held annually. We greatly appreciated the enactment of a 
modest increase for Horse Protection Act enforcement in fiscal year 
2012 (bringing the budget for this to $696,000), the first time in 
decades that the program received more than $500,000. An appropriation 
at the requested level will help ensure that this program doesn't lose 
ground but instead builds on that crucial first step in addressing the 
need for additional inspectors, training, security--for threats of 
violence against inspectors--and advanced detection equipment.

              APHIS/INVESTIGATIVE AND ENFORCEMENT SERVICES

    We request that you support the President's request of $16,350,000 
for APHIS Investigative and Enforcement Services (IES). We appreciate 
the committee's consistent support for this division. IES handles many 
important responsibilities, including the investigation of alleged 
violations of Federal animal welfare laws and the initiation of 
appropriate enforcement actions. The volume of animal welfare cases is 
rising significantly. An appropriation at the requested level would 
enable the agency to keep pace with the additional enforcement 
workload.

       FOOD SAFETY AND INSPECTION SERVICE (FSIS)/HORSE SLAUGHTER

    We request inclusion of the same language barring USDA from the 
expenditure of funds for horse slaughter inspections as was included in 
the House committee's fiscal year 2013 Agriculture Appropriations bill. 
This provision is vital to prevent renewed horse slaughter activity in 
this country, particularly in light of the recent scandal involving 
horse meat found in other food products. Horse slaughter is cruel and 
poses serious public health risks. American horses are raised to be 
companions, athletes and work horses, and they are often treated with 
drugs, both legal and illegal, that can endanger the food supply. There 
is currently no system in the United States to track drugs and 
veterinary treatments given to horses to ensure that their meat is safe 
for human consumption. In addition to the public health concerns 
associated with the consumption of horsemeat, horse slaughter is 
inherently inhumane and cannot be made humane for horses. The methods 
used to kill horses rarely result in quick, painless deaths, as horses 
are skittish animals and often endure repeated blows to make them 
unconscious, sometimes remaining conscious during the slaughtering 
process. USDA reports show that over 92 percent of horses going to 
slaughter are healthy and could have gone on to lead productive lives. 
However, ``killer buyers'' profit by selling horsemeat from healthy 
horses that bring the best price per pound for their meat, and they 
frequently outbid rescue groups at auctions. Inclusion of language to 
bar the expenditure of funds on horse slaughter inspections would 
protect consumers and horses, and would prevent the needless waste of 
American taxpayer dollars (particularly at a time when budget pressures 
are so great) on a practice that 80 percent of the American public 
opposes.

            FSIS/HUMANE METHODS OF SLAUGHTER ACT ENFORCEMENT

    We request language to ensure strengthened HMSA enforcement. We 
appreciate the committee's inclusion of language in the fiscal year 
2013 committee report regarding humane slaughter. USDA oversight of 
humane handling rules for animals at slaughter facilities is vitally 
important not only for animal welfare but also for food safety. 
Effective day-to-day enforcement can prevent abuses like those 
previously documented in undercover investigations, and reduce the 
chance of associated food safety risks and costly recalls of meat and 
egg products. We therefore urge inclusion of language directing FSIS to 
ensure that inspectors hired with funding previously provided 
specifically for Humane Methods of Slaughter Act enforcement focus 
their attention on overseeing compliance with humane handling rules for 
live animals as they arrive and are offloaded and handled in pens, 
chutes, and stunning areas, and that they receive robust national 
training, including on the Regulatory Essentials, Humane Animal 
Tracking System, and Public Health Information System.

        OFFICE OF INSPECTOR GENERAL/ANIMAL FIGHTING ENFORCEMENT

    We request that you support the President's request of $89,902,000 
for the Office of Inspector General (OIG) to maintain staff, ensure 
effectiveness, and allow investigations in various areas, including 
enforcement of animal fighting laws. We appreciate the committee's 
inclusion of funding and language in recent years for USDA's OIG to 
focus on animal fighting cases. Congress first prohibited most 
interstate and foreign commerce of animals for fighting in 1976, 
tightened loopholes in the law in 2002, established felony penalties in 
2007, and further strengthened the law as part of the 2008 farm bill. 
We are pleased that USDA is taking seriously its responsibility to 
enforce this law. Its work with State and local agencies to address 
these barbaric practices, in which animals are drugged to heighten 
their aggression and forced to keep fighting even after they've 
suffered grievous injuries, is commendable. Dogs bred and trained to 
fight endanger public safety, and some dogfighters steal pets to use as 
bait for training their dogs. Also, in 2002-2003 cockfighting was 
linked to an outbreak of Exotic Newcastle Disease that cost taxpayers 
more than $200 million to contain. Cockfighting has further been linked 
to the death of a number of people in Asia reportedly exposed to bird 
flu. Given the potential for further costly disease transmission, as 
well as the animal cruelty involved, we believe it is a sound 
investment for the Federal Government to increase its efforts to combat 
illegal animal fighting activity. We also support the OIG's auditing 
and investigative work to improve compliance with the Animal Welfare 
Act, the Horse Protection Act, and the Humane Methods of Slaughter Act 
and downed animal rules.

NATIONAL INSTITUTE OF FOOD AND AGRICULTURE/VETERINARY MEDICAL SERVICES 
                                  ACT

    We request that you support the President's request of $4,790,000 
to continue the implementation of the National Veterinary Medical 
Service Act (Public Law 108-161). We appreciate that Congress is 
working to address the critical maldistribution of veterinarians 
practicing in rural and inner-city areas, as well as in Government 
positions at FSIS and APHIS. A 2009 Government Accountability Office 
report enumerating the challenges facing veterinary medicine identified 
that an inadequate number of veterinarians to meet national needs is 
among the foremost challenges. Having adequate veterinary care is a 
core animal welfare concern. To ensure adequate oversight of humane 
handling and food safety rules, FSIS must be able to fill vacancies in 
inspector positions. Veterinarians support our Nation's defense against 
bioterrorism. The Centers for Disease Control estimates that 75 percent 
of potential bioterrorism agents are zoonotic--transmitted from animals 
to humans. Veterinarians are also on the front lines addressing public 
health problems such as those associated with pet overpopulation, 
parasites, rabies, chronic wasting disease, and bovine spongiform 
encephalopathy--``mad cow'' disease. Veterinary school graduates face a 
crushing debt burden of $151,672 on average, with an average starting 
salary of $65,404. For those who choose employment in underserved rural 
or inner-city areas or public health practice, the National Veterinary 
Medical Service Act authorizes the Secretary of Agriculture to repay 
student debt. It also authorizes financial assistance for those who 
provide services during Federal emergency situations such as disease 
outbreaks.

    APHIS/EMERGENCY MANAGEMENT SYSTEMS/DISASTER PLANNING FOR ANIMALS

    We request that you support the President's request of $1,017,000 
for Animal Care under APHIS' Emergency Management Systems line item. 
Hurricanes Katrina and Rita demonstrated that many people refuse to 
evacuate if they are forced to leave their pets behind. The Animal Care 
Division develops infrastructure to help prepare for and respond to 
animal issues in a disaster and incorporate lessons learned from 
previous disasters. Funds are used for staff time and resources to 
support the efforts of State, county and local governments and humane 
organizations to plan for protection of people with animals. They also 
enable the agency to participate, in partnership with FEMA, in the 
National Response Plan without jeopardizing other Animal Care programs.

               APHIS/WILDLIFE SERVICES DAMAGE MANAGEMENT

    We request that funding be reduced for Wildlife Services Damage 
Management by $13 million, the estimated USDA annual expenditure on 
lethal predator control to protect livestock. In light of the desire 
for deficit reduction, this is a wasteful subsidy that needs to be 
terminated. Under its ``livestock protection'' program, Wildlife 
Services provides taxpayer-subsidized wildlife extermination services 
to private agribusiness. USDA data show that less than 1 percent of 
livestock are killed by predators. Livestock producers and property 
owners--not U.S. taxpayers--should be financially responsible for 
protecting their property from damage attributed to wildlife. Expensive 
lethal control methods used by Wildlife Services such as aerial 
gunning, poisoning, and trapping are indiscriminate and ineffective, 
often killing non-target species including endangered species protected 
by Federal law and companion animals. Common sense non-lethal methods 
like the use of guard animals (e.g., llamas, dogs), lighting, penning, 
and good animal husbandry practices like shepherding are cheaper and 
have proven more effective in reducing predation to livestock. Ranchers 
have no incentive to use these methods if the Federal Government 
continues to pay for unlimited lethal control. By cutting this wasteful 
and unnecessary program, we will ensure that U.S. taxpayers stop 
subsidizing lethal wildlife control for the benefit of private 
livestock producers and property owners.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriation Act for Fiscal Year 
2014. We are so grateful for the committee's past support, and hope you 
will be able to accommodate these modest requests to address some very 
pressing problems affecting millions of animals in the United States. 
Thank you for your consideration.

    [This statement was submitted by Mimi Brody, Director of Federal 
Affairs, The Humane Society of the United States.]
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States (HSUS)--
                           Equine Protection

    On behalf of the undersigned horse industry and animal welfare 
organizations, and former Senator Joseph Tydings, we submit the 
following testimony seeking funding for the USDA/APHIS Horse Protection 
Program of $893,000 for fiscal year 2014. We recognize that Congress is 
focused on the imperative of cutting Federal spending. But we believe 
that it should be possible to achieve meaningful reductions in the 
overall budget while still addressing shortfalls in very specific 
accounts that are vital and have been seriously underfunded. This 
$893,000 is urgently needed to begin to fulfill the intent of the Horse 
Protection Act--to eliminate the cruel practice of soring--by allowing 
the USDA to strengthen its enforcement capabilities for this law.
    In 1970, Congress passed the Horse Protection Act to end soring, 
the intentional infliction of pain to the hooves and legs of a horse to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry.
    For example, caustic chemicals--such as mustard oil, diesel fuel, 
and kerosene--are painted on the lower front legs of a Tennessee 
Walking Horse, then the legs are wrapped for days in plastic wrap and 
bandages to ``cook'' the chemicals deep into the horse's flesh. This 
makes the horse's legs extremely painful and sensitive, and when 
ridden, the horse is fitted with chains that slide up and down the 
horse's sore legs, forcing him to produce an exaggerated, high-stepping 
gait in the show ring. Additional tactics include inserting foreign 
objects such as metal screws or hard acrylic between a heavy stacked 
shoe and the horse's hoof; pressure shoeing--cutting a horse's hoof 
down to the sensitive live tissue to cause extreme pain every time the 
horse bears weight on the hoof; and applying painful chemicals such as 
salicylic acid to slough off scarred tissue, in an attempt to remove 
evidence of soring.
    The Horse Protection Act authorizes the USDA to inspect Tennessee 
Walking Horses, Racking Horses, and Spotted Saddle Horses--in transport 
to and at shows, exhibits, auctions and sales--for signs of soring, and 
to pursue penalties against violators. Unfortunately, since its 
inception, enforcement of the act has been plagued by underfunding. As 
a result, the USDA has never been able to adequately enforce the act, 
allowing this extreme and deliberate cruelty to persist on a widespread 
basis.
    The most effective way to eliminate soring and meet the goals of 
the act is for USDA officials to be present at more shows. However, 
limited funds allow USDA attendance at only about 10 percent of 
Tennessee Walking Horse shows. So the agency set up an industry-run 
system of certified Horse Industry Organization (HIO) inspection 
programs, which are charged with inspecting horses for signs of soring 
at the majority of shows. These groups license examiners known as 
Designated Qualified Persons (DQPs) to conduct inspections. To perform 
this function, some of these organizations hire industry insiders who 
have an obvious stake in preserving the status quo. Statistics clearly 
show that when USDA inspectors are in attendance to oversee shows 
affiliated with these organizations, the numbers of noted violations 
are many times higher than at shows where industry inspectors alone are 
conducting the inspections. By all measures, the overall DQP program as 
a whole has been a failure--the only remedy is to abolish the 
conflicted industry-run inspection programs charged with self-
regulation and give USDA the resources it needs to adequately enforce 
the act.
    USDA appears to have attempted to step up its enforcement efforts 
in recent years, and has begun to work with the Department of Justice 
in prosecuting criminal cases as provided for under the act. In 2011, a 
Federal prosecutor sought the first-ever criminal indictments under the 
act and as a result, a well-known, winning trainer in the Spotted 
Saddle Horse industry served a prison sentence of over 1 year. A former 
Walking Horse Trainers' Association Trainer of the Year and winner of 
the Tennessee Walking Horse World Grand Championship was indicted in 
2012 on 52 counts (18 of them felony) of violating the act and pleaded 
guilty to felony conspiracy to violate the act.
    While these are significant actions which should have a deterrent 
effect, there are many other violators who go undetected, and many 
cases which go unprosecuted due to a lack of resources. USDA needs 
enhanced resources to carry out its responsibilities under this act, as 
Congress, and the public, expects.
    In years past, inspections were limited to physical observation and 
palpation by the inspector. Protocols for the use of new technologies, 
such as thermography and ``sniffer'' devices (gas chromatography/mass 
spectrometry--or GC/MS--machines), have been implemented, which can 
help inspectors identify soring more effectively and objectively. The 
results of USDA's recent GC/MS testing for prohibited foreign 
substances used by violators on the legs of horses (either to sore 
them, or to mask underlying soring and evade detection by inspectors) 
are staggering: 97.6 percent of the samples taken at various Tennessee 
Walking Horse competitions in 2011 tested positive for illegal foreign 
substances, and 86 percent tested positive in 2010.
    Effective though this inspection protocol may be, due to budget 
constraints, USDA has been unable to purchase and put enough of this 
testing into use in the field, allowing for industry players to 
continually evade detection. In 2011, USDA was able to afford to 
collect and test samples at only three of the industry's largest shows; 
in 2010, only five. With increased funding, the USDA could purchase 
more equipment and dispatch more inspectors to use it properly, greatly 
increasing its ability to enforce the HPA.
    Currently, when USDA inspectors arrive at shows affiliated with 
some industry organizations, many of the exhibitors load up and leave 
to avoid being caught with sored horses. While USDA could stop these 
trailers on the way out, agency officials have stated that inspectors 
are wary of going outside of their designated inspection area, for fear 
of harassment and physical violence from exhibitors. Armed security is 
frequently utilized to allow such inspections, at additional expense to 
this program. The fact that exhibitors feel they can intimidate 
Government officials without penalty is a testament to the inherent 
shortcomings of the current system.
    Lack of a consistent presence by USDA officials at events featuring 
Tennessee Walking Horses, Racking Horses, and Spotted Saddle Horses has 
fostered a cavalier attitude among industry insiders, who have not 
stopped their abuse, but have only become more clandestine in their 
soring methods. The continued use of soring to gain an advantage in the 
show ring has tainted this segment of the horse industry, and creates 
an unfair advantage for those who are willing to break the law in 
pursuit of victory. Besides the indefensible suffering of the animals 
themselves, the continued acceptance of sored horses in the show ring 
prevents those with sound horses from competing fairly for prizes, 
breeding fees and other financial incentives, while those horse owners 
whose horses are sored may unwittingly suffer property damage and be 
duped into believing that their now abused, damaged horses are 
naturally superior.
    The egregious cruelty of soring is not only a concern for horse 
industry and animal protection organizations, but also for 
veterinarians. In 2008, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget . . .  allocated to the USDA to 
enforce these rules and regulations.''
    The USDA Office of Inspector General conducted an audit of the 
Horse Protection Program, and issued its final report in September 
2010. The report recommends the abolition of the DQP program, and an 
increase in funding for APHIS enforcement of the Horse Protection Act. 
The agency concurred with the findings and recommendations in the 
report, specifically recommendation 2: ``Seeking the necessary funding 
from Congress to adequately oversee the Horse Protection Program,'' 
indicating that it would develop a budgeting and staffing plan to phase 
in the resources needed to adequately oversee the Horse Protection 
Program.
    It is unacceptable that more than 40 years after passage of the 
Horse Protection Act, the USDA still lacks the resources needed to end 
this extreme form of abuse. It is time for Congress to give our public 
servants charged with enforcing this act the support and resources they 
want and need to fulfill their duty to protect these horses as 
effectively and safely as possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.
            Sincerely,

                                   Keith Dane,
                                           Director of Equine 
                                               Protection, The Humane 
                                               Society of the United 
                                               States.
                                   Former U.S. Senator Joseph Tydings,
                                           Original Sponsor of the 
                                               Horse Protection Act.
                                   Lori Northrup,
                                           President, Friends of Sound 
                                               Horses, Inc.
                                   Chris Heyde,
                                           Deputy Director, Government 
                                               and Legal Affairs, 
                                               Animal Welfare 
                                               Institute.
                                   Nancy Perry,
                                           Senior Vice President, 
                                               Government Relations, 
                                               American Society for the 
                                               Prevention of Cruelty to 
                                               Animals (ASPCA).
                                   Robin Lohnes,
                                           Executive Director, American 
                                               Horse Protection 
                                               Association.
                                   Shelley Sawhook,
                                           President, American Horse 
                                               Defense Fund.
                                   Gayle Miller,
                                           President, Plantation 
                                               Walking Horses of 
                                               Maryland.
                                   Karen Brown,
                                           Director of Programs, Red 
                                               Rover.
                                   Karen Ayres,
                                           President, National 
                                               Plantation Walking Horse 
                                               Association.
                                   Susan Crotty,
                                           President, Plantation 
                                               Walking Horse 
                                               Association of 
                                               California.
                                   Ian Walker,
                                           President, United Pleasure 
                                               Walking Horse 
                                               Association.
                                   Gina Vehige,
                                           Gaitway Walking Horse 
                                               Association.
                                   Bonnie Yeager,
                                           President, International 
                                               Pleasure Walking Horse 
                                               Registry.
                                   Sharon Halpin,
                                           SHO--Sound Horse Outreach.
                                   Penny Austin,
                                           President, One Horse At a 
                                               Time, Inc. Horse Rescue.
                                   Kristin Herman, M.D.,
                                           President, Northern 
                                               California Walking Horse 
                                               Association.
                                   Bob Kuykendall,
                                           Tennessee Walking Horse 
                                               Association of Oklahoma.
                                   Cris Van Horn,
                                           President, Pure Pleasure 
                                               Gaited Horse 
                                               Association.
                                   Rick Brighton,
                                           President, Northwest Gaited 
                                               Horse Club.
                                   Walter Farnholtz,
                                           President, New York State 
                                               Plantation Walking Horse 
                                               Club.
                                   Michele McGuire,
                                           Northwest Pleasure Tennessee 
                                               Walking Horse 
                                               Association.

    [This statement was submitted by Keith Dane, Director of Equine 
Protection, The Humane Society of the United States, on behalf of the 
undersigned horse industry and animal welfare organizations and former 
Senator Joseph Tydings, regarding fiscal year 2014 funding for 
enforcement of the Horse Protection Act.]
                                 ______
                                 
    Prepared Statement of the Izaak Walton League of America (IWLA)

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony concerning appropriations for fiscal year 2014 for 
various agencies and programs under the jurisdiction of the 
subcommittee. The League is a national, nonprofit organization founded 
in 1922. We have more than 41,000 members and 250 community-based 
chapters nationwide.
    Our members are committed to advancing common sense policies that 
safeguard wildlife and habitat, support community-based conservation, 
and address pressing environmental issues. The League has partnered 
with farmers and participated in agriculture policy development since 
the 1930s. The following pertains to conservation programs administered 
by the U.S. Department of Agriculture.
    The Food, Conservation, and Energy Act of 2008 (farm bill) was 
enacted with a prominent commitment to increased mandatory conservation 
spending. It was bipartisan and supported by more than a thousand 
diverse organizations engaged in farm bill policy. This commitment 
represents a long-term investment in conservation programs that 
preserve and protect the resources critical not only to the environment 
but also to the long term productivity of agricultural lands.
    Unfortunately, this investment is being squandered. Since the 
passage of the 2008 farm bill, approximately $3.2 billion has been cut 
from mandatory conservation program funding levels. Although we 
recognize that spending cuts were and continue to be necessary to put 
the Nation's fiscal house in order, a disproportionate share of farm 
bill program cuts have come from conservation programs. Nearly 77 
percent of cuts from mandatory farm bill programs since the passage of 
the 2008 farm bill came from conservation programs.
    We urge the subcommittee to maintain the mandatory spending levels 
for conservation programs as provided in the 2008 farm bill. If changes 
in mandatory program spending (CHIMPS) are necessary to meet deficit 
reduction goals, those cuts should be distributed proportionately among 
all farm bill titles.
    Furthermore, repeated annual cuts to the Wetlands Reserve Program 
(WRP), the Conservation Stewardship Program (CSP) and other mandatory 
conservation programs have created huge backlogs among qualified 
landowners seeking to enroll in those programs. This failure to enroll 
qualified producers in a timely fashion results in needless delays in 
getting conservation practices implemented that protect water, land and 
other vital natural resources. The League strongly opposes cuts to 
these critical natural resource conservation programs.
    Additionally, the effective implementation of farm bill 
conservation programs depends upon adequate technical resources to work 
with landowners in addressing their unique environmental concerns. 
Although conservation programs are available, under-investment in 
technical assistance limits agency support to assist farmers and 
ranchers in selecting and optimizing appropriate programs for their 
operations. The technical expertise of the Natural Resource 
Conservation Service and partners that assist in the delivery of 
programs directly to landowners is necessary for the adoption and 
maintenance of conservation practices. We request that the subcommittee 
support the levels of conservation program funding as provided in the 
2008 farm bill to enable robust technical resources to implement those 
programs successfully.
    Finally, the League remains hopeful that a new farm bill will be 
enacted in 2013. Authority for the Conservation Reserve Program (CRP) 
and funding for both the Grasslands Reserve Program (GRP) and the 
Wetlands Reserve Program (WRP) expire on September 30, 2013. If a new 
farm bill is not passed by the end of fiscal year 2013, we request that 
the Appropriations Committee explore alternative funding mechanisms for 
these and the numerous other title II Conservation programs that were 
de-authorized as a result of the expiration of the 2008 farm bill.
    We appreciate the opportunity to testify in strong support of fully 
funding agricultural conservation programs.

    [This statement was submitted by Bill Wenzel, Director, Agriculture 
Program, Izaak Walton League of America.]
                                 ______
                                 
 Prepared Statement of the Little Dixie Community Action Agency, Inc. 
                                (LDCAA)

    Since 2010, U.S. Department of Agriculture (USDA) Rural Housing 
programs have been cut by nearly $400 million. Further cuts to Rural 
Housing programs proposed by the administration's budget request are 
unwise and unwarranted. On behalf of Little Dixie Community Action 
Agency, Inc. (LDCAA), I strongly urge this subcommittee to fund USDA 
Rural Housing programs at the higher of the President's fiscal year 
2014 budget request or fiscal year 2013 levels, prior to sequestration, 
including: (1) $900 million for Section 502 Direct Homeownership Loans 
and (2) $30 million for Section 523 Self-Help Housing Program.

             SECTION 502 SINGLE FAMILY DIRECT LOAN PROGRAM

    The Section 502 Direct Loan program has far exceeded any other 
Federal homeownership program in terms of successful outcomes. No other 
Federal program can equal the profile of families served: approximately 
60 percent of the families receiving Section 502 Direct Loans have 
incomes of less than 60 percent of the median income, and 40 percent of 
families participating in the program have incomes that do not exceed 
50 percent of the median income.
    Despite serving families with limited economic means, the Section 
502 Direct Loan program is the most cost effective affordable housing 
program in the Federal Government. In fiscal year 2012, the total per 
unit cost for a homeownership loan to a low-income family was about 
$3,000, over the entire lifetime of the loan. This is far less than the 
annual cost of other Federal housing assistance programs.

              SECTION 523 MUTUAL SELF-HELP HOUSING PROGRAM

    Currently, more than 100 organizations across America participate 
in the Section 523 Mutual Self-Help Housing program. These 
organizations unite groups of 8 to 10 families who work collectively to 
build each family's home. They perform approximately 65 percent of the 
overall construction labor. This ``sweat equity'' results in each 
homeowner earning and gaining equity in their homes. It also makes a 
significant investment in their community, often resulting in the 
building of homes and neighborhoods together. And, despite the fact 
that Self-Help Housing families constitute the lowest incomes of 
participants in the Section 502 Direct Loan portfolio, data 
demonstrates that these families prove to have the lowest rates of 
default and delinquency.
    For the past 3 years, Self-Help Housing organizations have 
constructed almost 3,500 homes. This construction has in turn led to 
more than 11,000 jobs, more than $738 million in local income and $77 
million in taxes and revenue in rural communities across the Nation, as 
evidenced from economic impact numbers from the National Association of 
Homebuilders.

    [This statement was submitted by Joan Edge, Program Director, T&MA 
Contractor Department, Little Dixie Community Action Agency, Inc.]
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                            California (MWD)

    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for fiscal year 
2014 Federal funding of $18 million from the U.S. Department of 
Agriculture's Environmental Quality Incentives Program for the Colorado 
River Basin Salinity Control Program (Program).
    The concentrations of salts in the Colorado River cause 
approximately $376 million in quantified damages in the lower Colorado 
River Basin States each year and significantly more in unquantified 
damages. Salinity concentrations of Colorado River water are lower than 
at the beginning of Program activities by over 100 milligrams per liter 
(mg/L). Modeling by the U.S. Bureau of Reclamation indicates that the 
quantifiable annual damages would rise to $577 million by the year 2030 
without continuation of the Program.
    Water imported via the Colorado River Aqueduct has the highest 
level of salinity of all of Metropolitan's sources of supply, averaging 
around 630 mg/L since 1976, which leads to economic damages. For 
example, damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --increased cost of desalination and brine disposal for recycled 
        water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974. High total dissolved solids in the 
Colorado River as it entered Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the Basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system, and enter the 
river through both natural and anthropogenic sources.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the river's flow. Irrigation improvements (sprinklers, 
gated pipe, lined ditches) and vegetation management reduce the amount 
of salt transported to the Colorado River. Point sources such as saline 
springs are also controlled. The Federal Government, Basin States, and 
contract participants spend over $40 million annually on salinity 
control programs.
    The Program, as set forth in the act, benefits the Upper Colorado 
River Basin water users through more efficient water management, 
increased crop production, benefits to local economies through 
construction contracts, and through environmental enhancements. The 
Program benefits the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the river's salinity.
    Appropriated Federal dollars will be augmented by the State cost 
sharing of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom the U.S. Department of Agriculture 
contracts for implementation of salinity control measures. Over the 
past years, the Program has proven to be a very cost effective approach 
to help mitigate the impacts of increased salinity in the Colorado 
River. Continued Federal funding of this important Basin-wide program 
is essential.
    Metropolitan urges the subcommittee to support funding for fiscal 
year 2014 of $18 million from the U.S. Department of Agriculture's 
Environmental Quality Incentives Program for the Colorado River Basin 
Salinity Control Program.

    [The statement was submitted by Jeffrey Kightlinger, General 
Manager, Metropolitan Water District of Southern California.]
                                 ______
                                 
   Prepared Statement of the National Affordable Housing Management 
                          Association (NAHMA)

    Thank you, Chairman Pryor and Ranking Member Blunt for the 
opportunity to submit this testimony on behalf of the National 
Affordable Housing Management Association (NAHMA). My testimony 
concerns the fiscal year 2014 budget for the U.S. Department of 
Agriculture, and in particular, funding for the Rural Housing Service 
(RHS) multifamily housing programs.

                              ABOUT NAHMA

    NAHMA members manage and provide quality affordable housing to more 
than 2 million Americans with very low to moderate incomes. Our 
membership consists of presidents and executives of property management 
companies, owners of affordable rental housing, public agencies and 
national organizations involved in affordable housing, and providers of 
supplies and services to the affordable housing industry. In addition, 
NAHMA serves as the national voice in Washington for 19 regional, State 
and local affordable housing management associations (AHMAs) 
nationwide.

              FUNDING FOR RHS MULTIFAMILY HOUSING PROGRAMS

    Section 521 Rural Rental Assistance.--The Section 521 Rural Rental 
Assistance (RA) program is project-based rental assistance administered 
by USDA-RHS. It is often used in conjunction with section 515 housing 
or farm labor housing to pay apartment owners the difference between 
tenants' contributions (30 percent of their income) and the monthly 
rental rate.
    For fiscal year 2014, RHS requests $1.015 billion for Section 521 
Rural Rental Assistance. RHS believes this request is sufficient to 
accommodate renewals. Because the President's budget assumes repeal of 
sequestration, NAHMA is concerned that this request may not be 
sufficient to fully fund the fiscal year 2014 renewals and cover any 
shortfalls resulting from rescissions in fiscal year 2013. NAHMA 
supports funding at a level of $1.015 billion, plus any additional 
appropriations necessary to ensure there are no shortfalls as a result 
of sequestration and the additional rescissions in the fiscal year 2013 
appropriations legislation.
    In a letter to stakeholders dated April 16, 2013, Under Secretary 
Dallas Tonsager wrote:

``Effective on March 1, 2013, the Budget Control Act of 2011 (Public 
Law 112-25) mandated budget reductions, known as sequester, totaling 
$85 billion across the Federal Government for the remainder of the 
Federal fiscal year. The Consolidated and Further Continuing 
Appropriations Act, 2013 (Public Law 113-6), signed into law on March 
26, 2013, maintained the sequester cut and included two further across-
the-board reductions (rescission) for USDA discretionary funding 
totaling 2.77 percent . . . .
``Given the variables affecting RA usage, it will be some time before 
we know how far the remaining funding can be extended to accommodate 
renewals. Rural Development will continue to fully renew RA contracts 
as they expire. However, we anticipate that funding will run out before 
the end of the fiscal year. To the extent possible, Rural Development 
will work with affected borrowers within its regulatory authority to 
mitigate the effects of these cuts, including the potential use of any 
of the special servicing actions described in 7 C.F.R. [Parts] 3560.454 
and 3560.455. We appreciate the potentially difficult position the 
reductions in rental assistance may create for your properties.''

    NAHMA is extremely concerned that RHS expects to run out of funding 
for renewals before October 1, but they have announced no concrete 
plans to manage the expected RA shortfalls. As it stands, property 
owners whose contracts expire later in fiscal year 2013 do not know 
when, or if, their contracts will be renewed. This uncertainty makes it 
extremely difficult to plan for even normal property operations such as 
paying the mortgage, utility bills and meeting payroll. Similarly, 
property owners whose contracts expire in fiscal year 2014 do not know 
how the fiscal year 2013 shortfall will affect their contracts. NAHMA 
strongly urges the subcommittee to conduct thorough oversight on this 
matter. It is essential to determine exactly how much RHS needs in 
additional appropriations to fund the full 12-month terms of RA 
contracts in fiscal year 2013. Once the need is determined, we 
respectfully request that the subcommittee act with urgency to provide 
the funding at the earliest opportunity. If the funding cannot be 
supplemented in fiscal year 2013, then it is imperative to include 
these necessary funds as part of the fiscal year 2014 appropriations.
    Aside from funding, RHS also requests access to the Health and 
Human Services National Database of New Hires as well as the IRS data, 
similar to what the Department of Housing and Urban Development has for 
project-based section 8. RHS is seeking this authority to reduce 
improper payments in its means-tested programs--and especially in its 
RA program. NAHMA is interested in reviewing the specific legislative 
language of RHS' proposal, but we support the request in concept. 
Rather than create an entirely new system, NAHMA recommends granting 
access to HUD's Enterprise Income Verification (EIV) System to RHS 
staff, as well as to authorized property owners and managers.
    Section 515.--Section 515 Direct Rural Rental Housing Loans are 
direct, competitive mortgage loans which finance affordable multifamily 
rental housing for low-income families, the elderly and persons with 
disabilities in rural America. The 2014 budget request proposes $28 
million for the section 515 direct loan program. NAHMA supports funding 
at a level of at least $28 million.
    Section 538.--The Section 538 Multifamily Loan Guarantee program 
provides loan guarantees which encourage construction, acquisition, or 
rehabilitation of rural multifamily housing for low-income residents. 
The budget requests $150 million for this program. NAHMA supports this 
request.
    Multifamily Preservation and Revitalization (MRP) Program.--The 
Multifamily Housing Revitalization Program funds tenant protection 
vouchers, property rehabilitation and preservation demonstration 
programs. RHS requests $32.6 million in budget authority for this 
program. Of this total funding, $12.6 million is directed to the Rural 
Housing Voucher Program, which provides a rental subsidy to any low-
income household (including those not receiving rental assistance) 
residing in a property financed with a section 515 loan which has been 
prepaid after September 30, 2005. Once again, we urge the subcommittee 
to ensure the rescissions written into the fiscal year 2013 
appropriations bill do not create a shortfall in the Rural Housing 
Voucher program. Likewise, $20 million is proposed for the section 515 
MRP demonstration program which is used to preserve and recapitalize 
aging rural multifamily rental properties. NAHMA supports funding for 
MRP program at a level of at least $32.6 million.

                               CONCLUSION

    Thank you again for the opportunity to submit this testimony. I 
look forward to working with the subcommittee to ensure that the RHS' 
multifamily housing programs are fully funded and properly 
administered.

    [This statement was submitted by Kris Cook, CAE, Executive 
Director, National Affordable Housing Management Association.]
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                       Health Officials (NACCHO)

    The National Association of County and City Health Officials 
(NACCHO) is the voice of the approximately 2,800 local health 
departments across the country. City, county, metropolitan, district, 
and tribal health departments work every day to ensure the safety of 
the water we drink, the food we eat, and the air we breathe. Local 
health departments work with State, local, and national partners to 
prevent, identify, and respond to outbreaks of foodborne illness.

   FOOD AND DRUG ADMINISTRATION, CENTER FOR FOOD SAFETY AND APPLIED 
                               NUTRITION

NACCHO Request: $1 Billion
            Fiscal Year 2012: $883 Million
    NACCHO urges sufficient funding for the FDA Center for Food Safety 
and Applied Nutrition (CFSAN) to carry out its inspection duties and 
support the work of local health departments in responding to outbreaks 
of foodborne illness. According to the Centers for Disease Control and 
Prevention, in a 4-year period starting in 2006, 94 percent of 
foodborne illness outbreaks involved a single county.
    Local health departments represent two-thirds of the 3,000 State, 
local and tribal agencies that have primary responsibility to regulate 
the more than 1 million food establishments in the United States. Local 
health departments are on the front lines conducting food safety 
inspections, educating food handlers in their communities, and 
responding to outbreaks of illness. Local health departments inspect 
restaurants, grocery stores, daycare facilities, hospitals, schools, 
and some food manufacturing plants to ensure safe food handling 
practices and sanitary conditions. Local health departments also 
respond to citizen complaints, investigate the causes of foodborne 
outbreaks, and take steps to prevent further spread of disease. Local 
health departments work with local businesses to remove products from 
grocery store shelves and from menus and, as appropriate, to take 
corrective action to ensure that food establishments comply with 
sanitation standards.
    Repeated rounds of budget cuts and layoffs continue to erode local 
health department capacity. Since 2008, local and State health 
departments have lost nearly 50,000 jobs due to budget reductions. In 
the area of food safety, that means there are fewer inspectors and 
trained food safety and food service professionals--from restaurants 
and school cafeteria workers to street fair vendors--able to identify 
risks and prevent foodborne illness. Recent surveys of local health 
departments have found that retail food establishments are inspected 
less frequently, and local public health professionals fear the effect 
this will have on food safety.
    In 2010, Congress passed the Food Safety Modernization Act (FSMA), 
which recognized the importance of protecting the public from foodborne 
illness and the need to strengthen our current system for prevention of 
these costly illnesses. In the 21st century, our global food supply 
system is more complex than ever before and has an increased risk of 
accidental or intentional contamination. In FSMA, the Federal 
Government made a commitment to foster coordination and increase 
capacity at the local, State and Federal level to prevent and respond 
to foodborne illness. The return on Federal investment in food safety 
training, surveillance and investigation capacity can be measured in 
improved health and lower healthcare costs and lost productivity.
    In fiscal year 2012, Congress made a down payment on the 
implementation of FSMA by providing $39 million. NACCHO recommends 
Congress take further steps in fiscal year 2013 to fully implement 
FSMA. FDA's Center for Safety and Applied Nutrition (CFSAN) supports 
partnerships at the local, State and Federal level to protect consumers 
from, and quickly respond to and track, foodborne illness outbreaks. 
CFSAN also oversees the food safety training program which helps to 
maintain uniform standards in food inspection and the retail food 
safety initiative which provides best practices for retail food 
handlers. NACCHO applauds FDA's efforts last year to assist local and 
State retail food regulatory programs in achieving conformance with the 
Voluntary National Retail Food Regulatory Program Standards. To advance 
efforts for a nationally integrated food safety system, such 
opportunities should be available in subsequent years for additional 
jurisdictions.
    A national food safety training system, including a certification 
system, will ensure that officials at all levels of Government have 
consistent, up-to-date knowledge, as well as the necessary skills, to 
do their jobs. Without a robust national training system, there is less 
capacity to consistently and continuously improve knowledge and skills 
based on the latest science and risk assessments. It is crucial that 
regulators and public health partners have the appropriate knowledge 
and training to carry out their duties to safeguard the public from 
foodborne illness. Food safety training requires continued funding to 
increase capacity and adequately train our nation's food protection 
workers.
    FDA's dedicated retail food safety initiative supports research and 
distribution of technologies that prevent, mitigate, or detect 
foodborne illness hazards in the retail environment. FDA resources 
allow local health departments to learn about and adopt best practices 
for prevention of foodborne illness in the retail setting and to 
utilize products developed by FDA to educate the public and food 
service workers in their communities. These Federal tools and resources 
stretch the limited resources of local health departments by providing 
templates that can be adapted to the local setting.
    Despite the best efforts of Federal, State, and local public 
officials, over 48 million cases of preventable foodborne illness occur 
every year in this country. Many of these cases cause pain and 
suffering, high medical bills, disability, lost productivity, lower 
life expectancy and death. Foodborne illness causes an estimated 
128,000 hospital visits and 3,000 deaths annually.
    Foodborne illness has significant costs associated with direct 
medical expenses, lost productivity, and decreased revenue for food 
manufacturers and retail establishments. Salmonella, which causes 1 
million cases of foodborne illness, costs $365 million a year in direct 
medical expenses. The 2009 salmonella outbreak saw a double digit 
decline in the amount of peanut products purchased. Prevention, 
detection and control of foodborne illness are important to protect the 
health of the public and the sustainability of businesses that supply 
food in retail settings.
    As the subcommittee drafts the fiscal year 2014 Agriculture-Rural 
Development-FDA Appropriations bill, NACCHO urges consideration of 
these recommendations for FDA programs that are critical to ensuring 
the safety of our Nation's food supply and protecting the public's 
health.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                           Officials (NASEO)

    Chairman Pryor and Ranking Member Blunt, I am David Terry, 
Executive Director of the National Association of State Energy 
Officials (NASEO), and I am testifying in support of funding for the 
energy title of the farm bill. Specifically, we support funding of at 
least $70 million for the Rural Energy for America (REAP) program 
(section 9007 of the last multi-year farm bill). The REAP program was 
created in the 2002 farm bill and it has been a huge success. Over 
10,000 energy efficiency and renewable energy projects have been 
implemented in every State since 2003. With a required $3 match of non-
Federal funds for every Federal dollar invested in REAP, over $1.6 
billion in matching funds have been provided. This program has 
specifically benefited farmers, ranchers and rural small businesses. 
NASEO members work directly with eligible entities, as well as State 
agricultural agencies and rural interests to promote this successful 
program. Rising oil and distillate prices have made this program even 
more important. REAP is about rural economic development.
    The Biorefinery Assistance Program also provides critical financing 
for the first generation of biorefineries. It is important for the 
Nation to expand our fuel diversity. $75 million should be provided for 
this program.
    The Biomass Crop Assistance Program supports producers who will 
supply biomass feedstocks for advanced biofuels. We urge the 
subcommittee to provide $50 million for this effort in fiscal year 
2014.
    NASEO represents the energy offices in the States, territories and 
the District of Columbia. The REAP program, and the other critical 
programs in the energy title of the last multi-year farm bill, helps 
create jobs, increases agricultural productivity, saves energy for 
farmers, ranchers and rural small businesses, generates energy, 
promotes use of alternative fuels, reduces our dependence on imported 
petroleum and saves money in rural America. The cost is very low and 
the payback is very high.
    We hope that a new multi-year farm bill will be approved this year. 
The short-term fiscal year 2014 extension of the farm bill excluded the 
critical energy title programs. The $800 million in mandatory spending 
contained in the Senate version of last year's farm bill would be a 
good start.
    We urge your support for the REAP program, the Biorefinery 
Assistance Program and the Biomass Crop Assistance Program.
                                 ______
                                 
Prepared Statement of the National Coalition for Food and Agricultural 
                       Research (National C-FAR)

    Dear Chairman Pryor and Ranking Member Blunt: The National 
Coalition for Food and Agricultural Research (National C-FAR) urges 
your subcommittee to commit to a strong Federal investment in the U.S. 
Department of Agriculture's (USDA) Research, Education, and Economics 
(REE) mission area as a critical component of Federal appropriations 
for fiscal year 2014.
    National C-FAR strongly supports funding for the Agriculture and 
Food Research Initiative (AFRI) at the fully authorized level of $700 
million as soon as practicable and urges the subcommittee to 
appropriate at least $383 million in funding for AFRI in fiscal year 
2014. This level of funding is a significant step in the right 
direction and builds on the increased funding level approved by your 
subcommittee and the full Senate for fiscal year 2013.
    However, maintaining a balanced research portfolio is critical; and 
National C-FAR urges that increases in the AFRI budget not come at the 
expense of other food and agricultural REE programs. Demand in the AFRI 
program is far greater than the available funding. In addition, it is 
important to grow funding because many AFRI grants awarded involve 
multiple year commitments. Unless AFRI funding increases, the necessary 
flexibility to fund new projects and address emerging issues would be 
greatly diminished.
    National C-FAR's support encompasses the entire REE mission, 
including the need to modernize our Nation's food and agricultural 
science infrastructure at USDA labs and universities. The 
administration has recognized the importance of REE funding in its 
fiscal year 2014 budget request, while recognizing current budgetary 
constraints. National C-FAR's support includes both USDA's suite of 
extramural programs in the National Institute of Food and Agriculture 
(NIFA), such as AFRI and formula funds, and USDA's intramural programs 
including the Agricultural Research Service (ARS), the Economic 
Research Service (ERS), and the National Agricultural Statistics 
Service (NASS). National C-FAR wishes to go on record in support of 
funding for Forest Service research programs, recognizing that this 
falls under the jurisdiction of another Appropriations subcommittee.
    National C-FAR believes the Nation has a serious food and 
agricultural research, extension and education deficit, just as the 
Nation has a budget deficit. This food and agricultural science funding 
deficit is serious, long running and unsustainable. Failure to address 
this research deficit will have real negative consequences, not just to 
the agriculture and food system but to the entire Nation and U.S. 
economy.
    The Research title of the farm bill represents the Nation's 
signature Federal investment in the future of the food and agricultural 
sector. Other farm bill titles depend heavily upon the Research title 
for tools to help achieve their stated objectives. Public investment in 
food and agricultural research, extension and education today and in 
the future must simultaneously satisfy multiple needs, including food 
quality and quantity, nutrition, food safety, resource preservation and 
producer profitability.
    National C-FAR supports the key recommendation in the President's 
Council of Advisors on Science and Technology (PCAST) December 2012 
``Report to the President on Agriculture Preparedness and the 
Agriculture Research Enterprise'' to increase Federal investments in 
food and agricultural research by $700 million per year in order to 
help generate the science needed to meet critical future challenges in 
the food and agricultural sector. By any measure, Federal funding for 
food and agricultural research, extension and education has failed to 
keep pace with identified priority needs. Federal investment in 
research and development at the USDA reportedly has declined by about 
one-fourth since fiscal year 2003. A continuing deficit in terms of a 
commitment to Federal funding for agricultural research will have 
detrimental effects on human and animal health and the Nation's 
economy.
    Publicly financed REE is a necessary complement to private sector 
research, focusing in areas where the private sector does not have an 
incentive to invest, when (1) the payoff is over a long term; (2) the 
potential market is more speculative; (3) the effort is during the pre-
technology stage; and (4) where the benefits are widely diffused. 
Public research, extension and education help provide oversight and 
measure long-term progress. Investments now also help detect and 
resolve problems in an early stage, thus saving American taxpayer 
dollars in remedial and corrective actions.
    Scientific outcomes and tools realized through USDA's REE mission 
are needed to help achieve safer, more nutritious, convenient and 
affordable foods delivered to sustain a well nourished, healthy 
population; more efficient and environmentally friendly food, fiber and 
forest production; improved water quality, land conservation, wildlife 
and other environmental conditions; less dependence on non-renewable 
sources of energy; expanded global markets and improved balance of 
trade; and more jobs and sustainable rural economic development.
    National C-FAR believes it is imperative to lay the groundwork now 
to respond to the many challenges and promising opportunities ahead 
through Federal policies and programs needed to promote the long-term 
health and vitality of food and agriculture for the benefit of both 
consumers and producers. Stronger public investment in food and 
agricultural REE is essential in producing scientific outcomes needed 
to help deliver beneficial and timely solutions on a sustainable basis.
    National C-FAR serves as a forum and a unified voice in support of 
sustaining and increasing public investment at the national level in 
food and agricultural research, extension and education. National C-FAR 
is a nonprofit, nonpartisan, consensus-based and customer-led coalition 
established in 2001 that brings food, agriculture, nutrition, 
conservation and natural resource organizations together with the food 
and agriculture research and extension community.
    At a time when USDA's REE mission has experienced serious cuts due 
to sequestration and related factors, National C-FAR urges the 
subcommittee to take action by increasing funding significantly in 
fiscal year 2014. The potential payoff is enormous for both Americans' 
health and the Nation's economy.

    [This statement was submitted by R. Thomas (Tom) Van Arsdall, 
Executive Director, the National Coalition for Food and Agricultural 
Research.]
                                 ______
                                 
Prepared Statement of the National Commodity Supplemental Food Program 
                          Association (NCSFPA)

    Mr. Chairman and subcommittee members, thank you for this 
opportunity to present information regarding the USDA/FNS Commodity 
Supplemental Food Program (CSFP). The National Commodity Supplemental 
Food Program Association (NCSFPA) requests that the Senate Agriculture 
Appropriations Subcommittee fund CSFP for fiscal year 2014 at 
$207,682,000--$202,682,000 as requested by the U.S. Department of 
Agriculture, an additional $5 million to begin CSFP operations in six 
States with USDA-approved plans (Connecticut, Hawaii, Idaho, Maryland, 
Massachusetts, and Rhode Island). NCSFPA would also like the 
subcommittee to take notice of the fact that on February 1, the State 
of California began a waiting list because they are at their maximum 
caseload. Currently participating States have requested 117,052 
additional slots to meet the rising demand for nutritional assistance 
among our Nation's vulnerable seniors.
    In fiscal year 2012, 97 percent of all CSFP recipients were low-
income seniors. With this in mind, it is interesting to note that 
NCSFPA has proposed, as part of the next farm bill, a full conversion 
of CSFP into a seniors-only program, with sufficient time allowance for 
currently participating mothers and children to transition off of CSFP. 
This recommendation was adopted in both the House-reported and Senate-
passed farm bills last year, and we have urged both committees to 
maintain this language in further farm bill action this year.
    CSFP is a unique program which brings together Federal and State 
agencies, along with public and private entities. In fiscal year 2012, 
the CSFP provided services through 150 nonprofit community and faith-
based organizations at 1,800 sites located in 39 States, the District 
of Columbia, and two Indian Tribal Organizations (Red Lake, Minnesota 
and Oglala Sioux, South Dakota).
    USDA purchases specific nutrient-rich foods at wholesale prices 
from American farmers including: canned fruits and vegetables, juices, 
meats, fish, peanut butter, cereals, grain products, cheese and dairy 
products. State agencies provide administrative oversight and contract 
with local community and faith based organizations to warehouse and 
distribute food; certify eligibility; and provide nutrition education 
to participants. These local organizations build broad collaboration 
among nonprofits, health units, and area agencies on aging to provide 
easy access to the program. This partnership reaches even homebound 
seniors in both rural and urban settings with vital nutrition and 
remains an important ``market'' for commodities supported under various 
farm programs.
    CSFP continues to be a testimony to the power of community 
partnerships of faith-based organizations, farmers, private industry 
and Government agencies. The CSFP offers a unique combination of 
advantages unparalleled by any other food assistance program:
  --The CSFP specifically targets our Nation's most nutritionally 
        vulnerable populations: low-income seniors and young children.
  --The CSFP provides a monthly selection of food packages tailored to 
        specific nutritional needs. The nutritional content of the food 
        provided has improved with the introduction of low-fat cheese, 
        whole grain products, canned fruits packed in fruit juice or 
        extra light syrup, and low sodium canned vegetables.
  --The CSFP purchases foods at wholesale prices, directly supporting 
        American farmers. The estimated FNS funded cost for the mothers 
        and children monthly food package is $25.98 in fiscal year 2013 
        and $26.50 in fiscal year 2014. The estimated FNS funded cost 
        of the elderly food package is $20.51 in fiscal year 2013 and 
        $20.93 in fiscal year 2014. FNS is adding an additional $4.12 
        per month to the mothers and children food package and $3.47 
        per month to the elderly package per month through free 
        (donated) items in both fiscal year 2013 and fiscal year 2014.
  --The CSFP involves the entire community. Thousands of volunteers and 
        private companies donate money, equipment, and most importantly 
        time and effort to deliver food to needy and homebound seniors. 
        These volunteers not only bring food but companionship and 
        other assistance to seniors who might have limited support 
        systems.
    The 1997 report by the National Policy and Resource Center on 
Nutrition and Aging at Florida International University, Miami--``Elder 
Insecurities: Poverty, Hunger, and Malnutrition'' indicated that 
malnourished elderly patients experience 2 to 20 times more medical 
complications, have up to 100 percent longer hospital stays, and incur 
hospital costs $2,000 to $10,000 higher per stay. Proper nutrition 
promotes health, treats chronic disease, decreases hospital length of 
stay and saves healthcare dollars. America is aging. CSFP must be an 
integral part of Senior Nutrition Policy and plans to support the 
productivity, health, independence and quality of life for America's 
seniors, many of whom now need to continue working at least part-time 
beyond retirement age to afford basics.
    In the most recent (2007) CSFP survey, more than half of seniors 
living alone reported an income of less than $750 per month. One-half 
of respondents from two-person households reported an income under 
$1,000 per month. Twenty-five percent were enrolled in the Supplemental 
Nutrition Assistance Program (SNAP) and 50 percent said they ran out of 
food during the month. Seventy percent of senior respondents said they 
choose between medicine and food.
    In 2012 an informal senior participant survey revealed individual 
accounts of the value of CSFP benefits. An Arkansas recipient tells us 
that they would not otherwise be able to eat the balanced meals that 
CSFP provides each month. Arkansas program operators talk about the 
importance of interaction between seniors and program staff, saying 
this interaction is very important for the well-being of recipients, 
and recipients are able to live more stable, self sufficient lives as a 
result. Colorado participants say that they would not be able to have 
juice and cereal without CSFP, and many appreciate the program because 
they are homebound. Seniors in St. Louis, Missouri, say that CSFP foods 
help them get through to their next checks. Participants in Nebraska 
say that they don't know what they would do without this food, calling 
the program a ``lifesaver''. New Hampshire participants tell us that 
they use CSFP as a primary source of nutrition each month and would see 
a dramatic loss in food availability without the program. One Wisconsin 
recipient said that they would starve without the program, while others 
said that CSFP on their limited income meant that they could pay 
necessary living expenses.
    The CSFP State and Local Agencies are committed grassroots 
operators with dedicated volunteers fulfilling a mission to provide 
quality nutrition assistance economically, efficiently, and 
responsibly. In cooperation with USDA, NCSFPA seeks to meet the current 
and emerging needs of CSFP participants. NCSFPA wishes to commend the 
Food Distribution Division of Food and Nutrition Service of the 
Department of Agriculture for their continued innovations to strengthen 
the quality of the food package and streamline administration.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging it as a cost-effective way of providing 
nutritious supplemental foods. We urge the subcommittee to provide 
$202,628,000 in order to allow us to maintain our current service level 
and to also strongly consider our request for $5,000,000 for the six 
additional States to begin providing nutritional assistance to their 
vulnerable seniors.
    Again, thank you for your continuing support. We look forward to 
working with you on behalf of CSFP participants.

    [This statement was submitted by Brian Greene, President, National 
CSFP Association.]
                                 ______
                                 
 Prepared Statement of the National Council of State Housing Agencies 
                                (NCSHA)

    Thank you for the opportunity to provide testimony on behalf of our 
Housing Finance Agency (HFA) members. As you consider your fiscal year 
2014 USDA appropriations bill, we urge you to define rural areas for 
USDA Rural Housing Service (RHS) program eligibility to ensure that 
areas currently qualified for it and needing such assistance maintain 
eligibility, despite potential eligibility changes due to the 2010 
census. We also ask that you ensure USDA does not administratively 
remove some Section 521 Rental Assistance from use. We request that you 
provide fiscal year 2014 program funding levels for RHS programs 
adequate to maintain assistance for those currently receiving it, allow 
new families needing assistance to access it, and provide for the 
construction, rehabilitation, and preservation of rural affordable 
housing.
    The National Council of State Housing Agencies' (NCSHA) members are 
the HFAs of the 50 States, the District of Columbia, New York City, 
Puerto Rico, and the U.S. Virgin Islands. HFAs administer and utilize a 
wide range of affordable housing and community development programs, 
including section 502 and section 538 rural housing loans, other rural 
housing assistance, HOME, section 8, homelessness assistance, down 
payment assistance, counseling, tax-exempt Housing Bonds, and the Low 
Income Housing Tax Credit (Housing Credit). HFAs effectively employ 
these resources to advance their common public-purpose mission of 
providing affordable housing to the people of their jurisdictions who 
need it.

                             DEFINING RURAL

    We urge you to modify the definition of rural areas for purposes of 
USDA program eligibility, including maintaining USDA rural housing 
funding and guarantee program eligibility, for jurisdictions needing 
such assistance and at risk of losing their eligibility as USDA 
incorporates data from the 2010 census into its program eligibility 
criteria. Congress approved a similar definition modification in 1990 
and extended it in 2000. The Bipartisan Policy Center's Housing 
Commission recommends in its recently released report ``Housing 
America's Future: New Directions for National Policy'' that the current 
definition of rural areas be extended through the year 2020, except for 
areas with populations exceeding 25,000.
    Without a change to the definition, eligibility will be limited to 
communities that have a population of less than 20,000 and are not 
located in metropolitan statistical areas (MSA). However, half of the 
entire rural population lives in an MSA. Without a statutory change, 
more than 900 rural communities will become ineligible for rural 
development funds at the end of fiscal year 2013. For some of these 
communities, it will mean losing their only source of Federal housing 
funding.

                     SECTION 521 RENTAL ASSISTANCE

    The Section 521 Rental Assistance program provides assistance to 
low-income renters, those earning no more than 80 percent of area 
median income (AMI), and very-low income renters, those earning no more 
than 50 percent of AMI, in section 515 and section 514/516 assisted 
housing. Assistance is provided so that tenants are required to pay no 
more than 30 percent of their incomes for rent. The assistance is 
provided through contracts with owners of assisted housing.
    The need for affordable rental housing in rural areas far exceeds 
current supply. Forty-seven percent of rural renters are cost burdened, 
paying more than 30 percent of their incomes for housing, and nearly 
half of them are paying more than 50 percent of their monthly incomes 
for housing. Section 521 Rental Assistance helps reduce rent burdens on 
low-income households, but is not available for every Rural Development 
(RD) apartment.
    Underfunding of Section 521 Rental Assistance has led USDA to 
implement policies that takes assistance out of circulation, reduces 
the number of low-income households that can utilize the subsidy, and 
diminishes the quality of the housing provided. We urge you to ensure 
that USDA does not administratively remove existing Section 521 Rental 
Assistance units from the program or cancel Section 521 Rental 
Assistance contracts from assisted properties that USDA removes from 
the program.
    Traditionally, when rental properties left the program through 
prepayment or foreclosure, RD would transfer their Rental Assistance 
units to other properties. However, in an unnumbered letter dated May 
18, 2011, RD states that for certain properties it has decided not to 
transfer the Rental Assistance, but instead to retire it to achieve 
program savings. This administrative change shifts economic hardship to 
tenants and threatens the recapitalization and preservation of 
properties.
    It further limits the amount of rental assistance provided to 
families that need it and makes it harder for rural rental housing 
units to attract and leverage other sources of funding, such as the 
Housing Credit. In 2011, more than one-third of State HFAs reported 
having a rural housing set-aside within their Housing Credit program. 
In response to RD's decision to limit redistribution of Rental 
Assistance, HFAs raised concerns that the lack of rental assistance 
provided to units that need it will make it more difficult for 
developments to maintain financial feasibility, as well as making 
rehabilitation and preservation financing more difficult.

                         RURAL HOUSING FUNDING

    We urge you to provide funding for RHS programs adequate to 
continue providing assistance to all families currently receiving it 
and to help as many new families still waiting for assistance as 
possible. The need for access to affordable housing in rural areas 
remains great. Median income in rural areas is 20 percent lower than 
the national median income and rural communities are four times more 
likely than urban areas to have at least 20 percent of their population 
living in poverty.
    We appreciate your support of funding for the section 502 single-
family direct loan program and urge you to resist efforts to cut 
funding for this program. We also thank you for supporting funding for 
the Multifamily Preservation and Revitalization (MPR) demonstration 
program and urge you to continue its funding and to support its 
permanent authorization.
    In addition to meeting the need for affordable rural homeownership 
and rental housing opportunities, both the section 502 single-family 
guaranteed and the section 538 multifamily loan programs do not require 
budget authority to support their loans. In fact, in recent years, both 
of these programs have generated revenue for the Federal Government. We 
encourage your continued support for them.
    We urge you to provide funding for the section 515 rural rental 
housing loan program to support new development and preservation of 
rental housing and to provide full funding for the Section 521 Rental 
Assistance program.
    We recognize the continued constrained fiscal environment in which 
you must craft your fiscal year 2014 appropriations legislation. We 
urge you to consider the proven effectiveness of RHS programs and the 
great unmet need for them, which has been further exacerbated in these 
difficult economic times, as you make your funding decisions. NCSHA 
appreciates this opportunity to offer a statement on behalf of these 
programs and we are ready to assist you in any way we can as you move 
forward with the fiscal year 2014 appropriations process.
                                 ______
                                 
   Prepared Statement of the National Rural Housing Coalition (NRHC)

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony on behalf of the National Rural Housing 
Coalition (NRHC) on fiscal year 2014 appropriations for Department of 
Agriculture (USDA) Rural Housing Programs. NRHC is a national 
membership organization made up of housing developers, nonprofit 
housing organizations, State and local officials, and housing 
advocates.
    Since 2010, USDA Rural Housing programs have been cut by nearly 
$400 million. As a result, fewer families can become homeowners, new 
rental housing development is virtually non-existent, and the existing 
rental housing portfolio is in great need of repair and restoration. 
The President's fiscal year 2014 budget singles out USDA Rural Housing 
programs for further reductions which are both unwise and unwarranted. 
Instead, we urge the subcommittee to fund USDA Rural Housing programs 
in fiscal year 2014 at the higher of the President's fiscal year 2014 
budget request or fiscal year 2013 levels, prior to sequestration. In 
particular, we support appropriations for rural housing programs that 
will provide at least: (1) $900 million for Section 502 Direct Loans; 
(2) $26 million for Section 514 Farm Labor Housing Program Loans; (3) 
$9 million for Section 516 Farm Labor Housing Program Grants; (4) 
$1.015 billion for Section 521 Multi-Family Rental Housing Rental 
Assistance Program; (5) $30 million for Section 523 Self-Help Housing 
Program; (6) $32.6 million for the Multi-Family Housing Preservation 
and Revitalization Program; and (7) $6.12 million for the Rural 
Community Development Initiative. We urge the subcommittee to fund the 
Section 515 Rural Rental Housing Program at the fiscal year 2012 level 
of $64.5 million.

                     HOUSING NEEDS IN RURAL AMERICA

    In December 2012, NRHC issued a report on the success of USDA's 
rural homeownership programs, titled ``Opening Doors to Rural 
Homeownership \1\.'' The report highlights (1) the success of Section 
502 Direct Loans in getting rural families into decent housing at a 
very low cost to the Federal Government and (2) how families work 
nights and weekends to build their own homes through the Mutual Self-
Help Housing program. For many rural families of modest incomes, rural 
housing programs such as Section 502 Direct Loans and Mutual Self-Help 
Housing are an important, and in many cases, the only means, of gaining 
decent, affordable housing and building wealth. There remains a 
substantial need for rural housing assistance across our Nation's small 
town and farming communities. While homeownership is still the 
predominate type of housing available in rural America, rural housing 
is much more likely to be substandard than in urban areas. In fact, 6 
percent of rural homes are either moderately or severely substandard, 
often with leaking roofs, or inadequate plumbing or heating systems. 
Some 8 million rural families pay more than 30 percent of income for 
housing and 23 percent of all rural families pay more than 35 percent 
of income for shelter. Rural median incomes ($40,038) are 20 percent 
lower than the national median income ($50,046). Rural communities are 
four times more likely than urban areas to have at least 20 percent of 
their population living in poverty. More than 88 percent of the 
Nation's ``persistently poor'' counties are rural.
---------------------------------------------------------------------------
    \1\ http://ruralhousingcoalition.org/wp-content/uploads/
Opening%20Doors%20to%20Rural%20 Homeownership.pdf.
---------------------------------------------------------------------------
    In its new report \2\, the Bipartisan Policy Center Commission on 
Housing issued strong, support for USDA Rural Housing programs, 
recognizing the critical role these programs play in meeting the unique 
challenges to affordable housing in rural America and the very low cost 
to the Government to operate them. The Commission calls on Congress 
preserve eligibility for USDA Rural Housing programs by extending the 
definition of ``rural'' under section 520 of the Housing Act of 1949. 
Without congressional action, over 900 rural communities may lose 
access to what is often their only source Federal housing funding.
---------------------------------------------------------------------------
    \2\ http://bipartisanpolicy.org/sites/default/files/
BPC_Housing%20Report_web.pdf.
---------------------------------------------------------------------------
                      USDA RURAL HOUSING PROGRAMS

    Section 502 Single-Family Direct Homeownership Loans.--Over 60 
years, the Section 502 Direct Loan Program has helped more than 2.1 
million families realize the American Dream and build their wealth by 
more than $40 billion. Demand for Section 502 Direct Loans continues to 
outpace supply with over 15,000 loan applications totaling over $1.9 
billion on the program's waiting list. Section 502 Direct Loans is the 
only Federal homeownership program that is exclusively targeted to very 
low- and low-income rural families. By law, at least 40 percent of 
section 502 funds must be used to assist families earning less than 50 
percent of the area median income. Despite serving families with 
limited economic means, section 502 is the single, most cost-effective 
Federal housing program, period. On average, each section 502 loan 
costs about $3,000 over its entire lifetime. Compare that to other 
Federal housing programs, which can cost taxpayers twice as much each 
year. Likewise, Section 502 Direct Loans--in terms of delinquency and 
foreclosure--performs on par or better than other loan portfolios 
serving higher income borrowers. For example, only 10 percent of 
section 502 borrowers are delinquent. This is far better than the 20 
percent rate among private market subprime borrowers, and on par with 
other Federal direct lending programs, including the Federal Housing 
Administration (FHA). While Section 502 Direct Loan borrowers earn less 
than 80 percent of the area median income, the FHA program has no 
income limits. Yet, the programs' combined foreclosure and delinquency 
rates are substantially similar at about 16 and 17 percent, 
respectively.
    Section 523 Mutual Self-Help Housing.--The Self-Help Housing 
program adapts the rural tradition of barn-raising to provide housing 
opportunities for families with limited economic means. Through this 
program, more than 3,500 families have been able to realize the 
American Dream in the past 3 years. This construction has led to over 
11,000 jobs, more than $738 million in local income and $77 million in 
taxes and revenue in rural communities across the country. Self-Help 
Housing is the only Federal program that combines ``sweat equity'' 
homeownership opportunities with technical assistance and affordable 
loans for America's rural families. Self-Help Housing families work 
nights and weekends to provide 65 percent of the construction labor--
frequently amounting to more than 1,000 hours--on their own and each 
other's homes. In doing so, families earn equity, decrease construction 
costs, and make lasting investments in their community. The hallmark of 
the Self-Help Housing program is its emphasis on hard work, self-
reliance, and community. This program is exclusively targeted to very 
low- and low-income families who are otherwise unable to access decent 
housing. Over half of the participants are minorities. Although these 
families have lower incomes, default rates are significantly lower than 
other borrowers.
    Section 515 Rural Rental Housing.--Section 515 is the principal 
source of financing for rental housing in rural communities. Today, 
more than 500,000 families live in housing financed by section 515. 
Rental units developed with section 515 loans are exclusively targeted 
to very low-, low-, and moderate-income families, the elderly, and 
persons with disabilities. A vast majority--94 percent--of section 515 
tenants have very-low incomes. The average yearly income is only 
$11,000. Some 57 percent these households are elderly or disabled, 26 
percent are headed by persons of color, and 73 percent are headed by 
women.
    Section 514/516 Farm Labor Housing.--The Section 514/516 Farm Labor 
Housing Loan and Grant program is the only nationwide program targeted 
to the housing needs of migrant and seasonal farmworkers. Over the 
history of the program, USDA has financed some 36,000 units for a cost 
of $1.27 billion. The level of funding for Farm Labor Housing has 
steadily decreased over the years. In fiscal year 2008, Congress 
provided $22 million for loans and $10 million for grants. The fiscal 
year 2009 budget proposed to eliminate the program. This past year, 
Congress expanded eligibility for the program--which has been targeted 
to workers in the field who work with unprocessed commodities--to 
include workers in processing plants, which will further drive up the 
demand. As a result, these drastic cuts come at a crucial time, given 
the high program demand and the poor condition of farmworker-occupied 
housing. The current funding levels for these programs are not nearly 
enough to address the tremendous need for decent, affordable housing.

                               CONCLUSION

    Providing adequate funding for USDA Rural Housing programs is 
essential to efforts to improve the quality of life and economic 
opportunity in rural America. These programs are all part of the 
toolbox that USDA employs address the shortfall in decent, clean, and 
affordable housing in these communities. For a very small fraction of 
the USDA's budget, Congress can provide affordable rental and 
homeownership opportunities to thousands of rural families with limited 
means and boost flagging economies in small communities. Thank you for 
the opportunity to submit testimony.

    [This statement was submitted by Robert A. Rapoza, Executive 
Secretary, National Rural Housing Coalition.]
                                 ______
                                 
 Prepared Statement of the National Sustainable Agriculture Coalition 
                                 (NSAC)

    Thank you for the opportunity to present our fiscal year 2014 
funding requests. NSAC is a national alliance of over 90 organizations 
that advocates for policies that support the economic, social, and 
environmental sustainability of agriculture, natural resources, and 
rural communities. Our USDA requests are as follows, in the order they 
appear in the appropriations bill:
  --Departmental Administration, Office of Advocacy and Outreach, $1.2 
        million;
  --NASS and AMS, Organic Market Reporting, $1.5 million;
  --NIFA, Sustainable Agriculture Research and Education, $30 million;
  --NIFA, Organic Transitions Program, $5 million;
  --NIFA, National Food Safety Training and Technical Assistance, $10 
        million;
  --AMS, Federal-State Market Improvement Program, $1.4 million;
  --FSA, Direct Farm Ownership and Operating Loans, $575 million plus 
        $1,223.7 million;
  --NRCS, Conservation Technical Assistance, $735 million;
  --RBCS, Value-Added Producer Grants, $30 million;
  --RBCS, Rural Microentrepreneur Assistance Program, $3.4 million;
  --RBCS, Appropriate Technology Transfer for Rural Areas, $3 million;
  --General Provisions, Mandatory Conservation Programs, including the 
        Conservation Stewardship Program, no limitation on direct 
        spending.
  --General Provisions, no policy riders to curtail enforcement of the 
        Packers & Stockyards Act or to limit the review of 
        biotechnology products.
    We hope that the Congress will finalize the farm bill by the end of 
fiscal year 2013 and in it will provide mandatory funding for the 
Beginning Farmer and Rancher Development Program, Conservation Reserve 
Program--Transition Incentives Program, Farmers Market Promotion 
Program, National Organic Certification Cost Share Program, Organic 
Agriculture Research and Extension Initiative, Outreach and Assistance 
to Socially Disadvantaged Farmers and Ranchers program, and Specialty 
Crop Research Initiative. However, if the authorizers do not complete a 
farm bill providing mandatory money by the end of the fiscal year, we 
urge you to explore alternative mechanisms for funding these critical 
programs, which are currently without funding.

                      DEPARTMENTAL ADMINISTRATION

    Office of Advocacy and Outreach (OA&O).--The Office of Advocacy and 
Outreach coordinates policy and outreach in two vital areas--small and 
beginning farmers, and socially disadvantaged or minority farmers. We 
urge that $1.2 million be provided for the OA&O, consistent with the 
USDA request.

                NATIONAL AGRICULTURAL STATISTICS SERVICE

    Organic Market Reporting.--NSAC requests funding at $1 million for 
NASS to conduct the data collection on organic agriculture that is 
urgently needed by RMA to inform the development of adequate organic 
crop insurance options, and to coordinate with AMS (see below) on 
enhanced and consistent reporting on organic production, marketing, and 
pricing data. As the organic industry surpasses $30 billion a year in 
sales, this multi-agency initiative is vital to maintaining markets, 
creating risk management tools, and negotiating equivalency agreements 
with foreign governments.

               NATIONAL INSTITUTE OF FOOD AND AGRICULTURE

    Sustainable Agriculture Research and Education Program (SARE).--
SARE is the only NIFA competitive grant program dedicated to economic, 
social, and environmental sustainability. We urge you to fund this 
innovative, highly oversubscribed competitive grants program at $30 
million, divided among research and education grants, extension and 
professional development grants, and Federal-State matching grants. 
SARE has helped turn farmer-driven research, education, and extension 
initiatives into profitable and environmentally sound practices for 25 
years. Unlike in previous years, the President's fiscal year 2014 
budget request proposes to combine research, education, and extension 
into a single line item request. We do not oppose the proposed 
consolidation, so long as overall funding is increased, adequate 
funding is provided for all functions, and report language clarifies 
the intent that all three authorized program functions are included in 
the single line item.
    Organic Transitions Integrated Research Program.--We request $5 
million to invest in innovative organic research with strong farmer 
delivery mechanisms built in. Organic research continues to lag well 
behind its fair share of the overall research budget. Without this 
level of funding, organic research will fall further behind, especially 
in light of the current absence of mandatory funding for organic 
research because of the farm bill delay.
    National Food Safety Training, Education, Extension, Outreach, and 
Technical Assistance.--We request $10 million to help small and mid-
size farms and small processing facilities comply with new proposed 
food safety regulations. This training program, authorized in the Food 
Safety Modernization Act of 2010, is one of the best, quickest, and 
least costly ways to improve food safety outcomes without resorting to 
excessive farm regulation. While it has not yet been funded, we urge 
you to start it this year, as farmers will very soon be facing the new 
FSMA regulations. It is high time to get USDA involved in funding cost 
effective training and education.

                     AGRICULTURAL MARKETING SERVICE

    Federal-State Market Improvement Program (FSMIP).--FSMIP provides 
matching funds to State departments of agriculture to help grantees 
increase marketing efficiency and innovation and support local and 
regional food marketing opportunities. We request $1.4 million.
    Organic Market Reporting.--We request $0.5 million for this price 
data collection and reporting initiative. AMS coordinates its data 
collection and reporting with NASS (see above) to address data needs 
for organic agriculture and organic crop insurance.

                          FARM SERVICE AGENCY

    Direct Farm Ownership and Operating Loans.--Direct loans provide a 
crucial source of capital for beginning farmers and others not well 
served by commercial credit. Since fiscal year 2010, direct farm 
ownership loans, the single most critical program for beginning farmers 
trying to get started in agriculture, has been cut 33 percent. Both 
direct loan programs are severely oversubscribed. In light of the 
increasing age of farmers and the challenges faced by beginning 
farmers, it is critical that we fund these direct loan programs in the 
most effective way possible. We request program levels of no less than 
the USDA request of $575 million for Direct Farm Ownership loans and 
$1,223.7 million for Direct Operating Loans in fiscal year 2014.

                 NATURAL RESOURCES CONSERVATION SERVICE

    Conservation Technical Assistance (CTA).--CTA, a subset of 
Conservation Operations, supports farmers enrolling in financial 
assistance programs and helps farmers with conservation planning and 
implementation. CTA also funds assessment of conservation practices and 
systems that underpin the conservation programs, as well as NRCS 
collection, analysis, and dissemination of information on the condition 
of the Nation's natural resources. We urge you to provide $735 million 
for CTA, but to reject the administration's user fee proposal.

                 RURAL BUSINESS AND COOPERATIVE SERVICE

    Value-Added Producer Grants (VAPG).--VAPG offers grants to farmers 
and ranchers developing new farm and food-related businesses that boost 
farm income, create jobs, and increase rural economic opportunity. VAPG 
grants encourage the kind of entrepreneurship in agriculture that 
enables farms and communities to survive economically. Moreover, 
growing interest in local and regional foods is generating greater 
demand for mid-tier value chains and enterprises that aggregate local 
production, exactly the kind of rural development strategy VAPG is 
designed to support. We request VAPG funding of $30 million, a 
significant increase, but still 25 percent less than the program 
received a decade ago.
    Rural Microentrepreneur Assistance Program (RMAP).--RMAP provides 
business training, technical assistance, and loans to owner-operated 
businesses with up to 10 employees. Small businesses make up 90 percent 
of all rural businesses, and micro-businesses are the fastest growing 
segment in many areas. RMAP creates jobs and local markets and 
alleviates poverty. We request $3.4 million for RMAP in fiscal year 
2014. The President's fiscal year 2014 request includes $1.4 million in 
discretionary funding for loans, and a non-delineated discretionary sum 
for micro training and technical assistance grants as part of a 
consolidated Rural Business and Cooperative Grants program. We support 
retaining RMAP as a coherent, integrated program with grants and loans 
in a single program and account.
    Appropriate Technology Transfer for Rural Areas (ATTRA).--The ATTRA 
program, also known as the National Sustainable Agriculture Information 
Service and reauthorized by the 2008 farm bill, provides critical 
support to farmers, Extension agents, and conservation and energy 
specialists throughout the country. We urge $3 million for ATTRA for 
fiscal year 2014.

                           GENERAL PROVISIONS

    Repeated annual ``changes in mandatory program spending'' cuts to 
the Conservation Stewardship Program (CSP), Environmental Quality 
Incentives Program (EQIP), Wetland Reserve Program (WRP) and other 
mandatory farm bill conservation programs have created enormous 
backlogs among highly qualified producers and made it more difficult 
for farmers to maintain healthy, productive soil and to protect water 
and other natural resources. These programs provide critical public 
benefits such as clean water, drought mitigation, and carbon 
sequestration. We strongly oppose cuts to these critical farm bill 
conservation programs.
    We oppose the inclusion of policy riders that limit full 
implementation of the Packers and Stockyards rule on fair competition 
or adequate enforcement of the PSA, or that strip Federal courts of the 
authority to halt the sale or planting of biotechnology products that 
have not been adequately reviewed for their economic and environmental 
impacts.
    Finally, we oppose sequestration as a deficit reduction mechanism 
and urge you to revoke it and to restore the funding.

                                                       SUMMARY OF NSAC'S FISCAL YEAR 2014 REQUESTS
                             [Dollars in millions. Fiscal year 2013 levels are inclusive of sequestration and rescissions.]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                              Fiscal year 2013                        USDA 2014 request                      NSAC 2014 request
--------------------------------------------------------------------------------------------------------------------------------------------------------
Departmental Administration:       $1.3..................................  $1.2..................................  $1.2
 Office of Advocacy and Outreach.
National Agricultural Statistics   Agency discretion due to lack of        ......................................  $1.0
 Service: Organic Market            detail in bill.
 Reporting (see also Agricultural
 Marketing Service).
National Institute of Food and
 Agriculture:
    Sustainable Agriculture        $13.4 (research & education) + $4.3     $22.7 for research, education, and      $30.0 (research, education, matching
     Research and Education         (extension) = $17.7.                    extension \1\.                          grants, and extension)
     Program.
    Organic Transitions Program..  $3.7..................................  $4.0..................................  $5.0
    National Food Safety           ......................................  ......................................  $10.0
     Training, Education,
     Extension, Outreach and
     Technical Assistance
     (Authorized by Congress to
     assist farmers as part of
     the Food Safety
     Modernization Act of 2010).
Agricultural Marketing Service:
    Federal-State Marketing        $1.2..................................  $1.4..................................  $1.4
     Improvement Program.
    Organic Market Reporting (see  $0.3..................................  ......................................  $0.5
     also National Agricultural
     Statistics Service).
Farm Service Agency: Direct Farm   $438.6 + $969.6.......................  $575.0 + $1,223.7.....................  $575.0 + $1,223.7
 Ownership and Operating Loans--
 (Program Levels).
Natural Resources Conservation     $676.1................................  $735.0 (includes $22 million in user    $735.0 (no user fees)
 Service: Conservation Technical                                            fees).
 Assistance (within Conservation
 Operations).
Rural Business and Cooperative
 Service:
    Value-Added Producer Grants..  $13.8.................................  $15.0.................................  $30.0
    Rural Microentrepreneur        ......................................  $1.4 for $22 in loans + non-delineated  $3.4 (loans and grants)
     Assistance Program.                                                    sum for grants \2\.
    National Sustainable           $2.1..................................  $2.3..................................  $3.0
     Agriculture Information
     Service (ATTRA).
General Provisions: Conservation   $1,036.2 (no limitation + $63.8         $1,299.0 ($70 approx. CHIMP; permanent  No CHIMP/limitation on farm bill
 Stewardship Program.               sequester cut).                         cut of 777,780 acres).                  direct spending
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Unlike in previous years, the President's fiscal year 2014 budget request proposes to combine research, education, and extension into a single line
  item request. We do not oppose the proposed consolidation, so long as overall funding is increased, adequate funding is provided for all functions,
  and report language clarifies the intent that all three authorized program functions are included in the single line item.
\2\ The President's fiscal year 2014 request includes $1.4 million discretionary funding for loans, and a non-delineated discretionary sum for micro
  training and technical assistance grants as part of a consolidated Rural Business and Cooperative Grants program. We support retaining RMAP as a
  coherent, integrated program with grants and loans in a single program and account.

    We also oppose changes in mandatory program spending (CHIMPS) for 
other directly funded farm bill conservation programs.
    We oppose policy riders that curtail enforcement of the Packers & 
Stockyards Act or to limit the review of biotechnology products.
    We oppose sequestration as a deficit reduction mechanism and urge 
you to revoke it and restore the funding.
                                 ______
                                 
 Prepared Statement of the National Water Resources Association (NWRA)

    On behalf of the membership of the National Water Resources 
Association, I am writing in support of continued funding for the 
Department of Agriculture's EQIP program and in particular funding for 
the Colorado River Basin Salinity Control program.

   U.S. BUREAU OF RECLAMATION--COLORADO RIVER BASIN SALINITY CONTROL

Fiscal Year 2014 Request: $15.4 Million DOI, $1.4 Billion (EQIP 
        Finding) USDA
    Waters of the Colorado River are used by approximately 40 million 
people and used to irrigate approximately 4 million acres in the United 
States. Higher salinity water creates environmental and economic 
damages. Present quantifiable damages are estimated by Reclamation to 
be several hundred million dollars with projections that they would 
climb to more that $500 million annually by 2030 without continued 
aggressive implementation of the Program.
    Congress has authorized implementation of the Colorado River Basin 
Salinity Control Program through the Colorado River Basin Salinity 
Control Act (Public Law 93-320) as amended. Implementation is 
accomplished through Department of the Interior and Department of 
Agriculture programs. In recognition of U.S. water quality commitments 
to Mexico and the fact that the majority of the salt load of the 
Colorado River comes from federally administered lands, the act directs 
that 70 percent of the Program is funded via appropriations with the 
remaining 30 percent basin States cost-share coming from the Basin 
Funds. The Program's Plan of Implementation identified in the 2011 
Review, Water Quality Standards for Salinity, Colorado River System, as 
adopted by the basin States and EPA calls for approximately 650,000 
tons of additional annual salinity control by 2030. The fiscal year 
2014 funding level requirements are: $15.4 million in Reclamation's 
Basinwide Program, $1.5 million for salinity specific projects in BLM's 
Soil Water and Air Program, and $17.3 million under USDA's (NRCS) 
Environmental Quality Incentives Program (EQIP), total EQIP funding 
being $1.4 billion. The DOI funding levels are specific in line-item 
programs whereas USDA's EQIP is funded under the farm bill.

    [This statement was submitted by Thomas F. Donnelly, Executive Vice 
President, National Water Resources Association.]
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This statement is submitted in support of appropriations for the 
U.S. Department of Agriculture's Environmental Quality Incentives 
Program (EQIP) and the Colorado River Basin Salinity Control Program 
(Program). The Program is funded through EQIP, the U.S. Bureau of 
Reclamation's Basinwide Program, and cost-sharing provided by the Basin 
States. I request that at least $17.3 million in EQIP funds be 
designated for the Colorado River Basin Salinity Control Program in 
fiscal year 2014. I request that adequate funds be appropriated for 
technical assistance and education activities directed to Program 
participants.

                               STATEMENT

    Congress authorized the Colorado River Basin Salinity Control 
Program in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the act in 1984 to give new responsibilities to the 
U.S. Department of Agriculture (USDA). While retaining the Department 
of the Interior as the lead coordinator for the Program, the amended 
act recognized the importance of USDA efforts in meeting the objectives 
of the Program. Many of the most cost-effective salinity control 
projects to date have occurred since implementation of the USDA's 
authorization for the Program.
    With the Federal Agricultural Improvement and Reform Act of 1996 
(FAIRA), Congress directed that the Program be implemented as a 
component of EQIP. However, until 2004, the Program was not funded at 
an adequate level to protect the Basin State-adopted and Environmental 
Protection Agency approved water quality standards for salinity in the 
Colorado River. Appropriations for EQIP prior to 2004 were insufficient 
to adequately control salinity impacts from water delivered to the 
downstream States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the USDA to implement salinity 
control measures per section 202(c) of the Colorado River Basin 
Salinity Control Act. The EQIP evaluation and project ranking criteria 
targeted small watershed improvements and did not recognize that water 
users hundreds of miles downstream are significant beneficiaries of the 
salinity control program. Proposals for EQIP funding were ranked in the 
States of Utah, Wyoming and Colorado under the direction of the 
respective State Conservationists without consideration of those 
downstream, particularly out-of-State, benefits.
    Following recommendations of the Basin States to address the 
funding problem, the USDA's Natural Resources Conservation Service 
(NRCS) designated the Colorado River Basin an ``area of special 
interest'' and earmarked funds for the Program. The NRCS concluded that 
the salinity control program is different from the small watershed 
approach of EQIP. The watershed for the Program stretches more than 
1,400 miles from the headwaters of the river through the salt-laden 
soils of the entire basin to the river's termination at the Gulf of 
California in Mexico. NRCS is to be commended for its efforts to comply 
with the USDA's responsibilities under the Colorado River Basin 
Salinity Control Act, as amended.
    With the enactment of the Farm Security and Rural Investment Act in 
2002, an opportunity to adequately fund the salinity control program 
now exists. The NRCS State Conservationists for Utah, Wyoming, and 
Colorado now prepare a 3-year funding plan for the salinity efforts 
under EQIP. I support this plan, including the request for $17.3 
million in fiscal year 2014. State and local cost-sharing will be 
triggered by and indexed to the Federal appropriation.
    USDA salinity control projects have proven to be a cost-effective 
component of the salinity control program. The Basin States have cost-
sharing dollars available to participate in on-farm salinity control 
efforts. The agricultural producers in the Upper Basin are willing to 
cost-share their portion and are awaiting funding for their 
applications to be considered.
    Bureau of Reclamation studies show that quantified damages from 
Colorado River salinity to United States water users are about 
$376,000,000 per year, with these damages rising to $577,000,000 per 
year by 2030 if the Program was discontinued. Continued funding of USDA 
salinity control projects is important to protect the quality of 
Colorado River Basin water delivered to the Lower Basin States and 
Mexico. Also, irrigated agriculture in the Upper Basin realizes 
significant local benefits of improved irrigation practices.
    I urge the Congress to designate at least $17.3 million in EQIP 
funds for the Colorado River Basin Salinity Control Program in fiscal 
year 2014.

    [This statement was submitted by Estevan R. Lopez, Director, New 
Mexico Interstate Stream Commission.]
                                 ______
                                 
 Prepared Statement of the Northwest Regional Housing Authority (NWRHA)

    Since 2010, U.S. Department of Agriculture (USDA) Rural Housing 
programs have been cut by nearly $400 million. Further cuts to Rural 
Housing programs proposed by the administration's budget request are 
unwise and unwarranted. Funding for these programs needs to set at the 
higher of the President's fiscal year 2014 budget request or fiscal 
year 2013 levels, prior to sequestration, including: (1) $900 million 
for Section 502 Direct Homeownership Loans; and (2) $30 million for 
Section 523 Self-Help Housing Program.
    The 502 Direct Program is the only Federal homeownership program 
that is exclusively targeted to very low- and low-income rural 
families. In the past 60 years, this program has helped more than 2.1 
million families build wealth and achieve the American dream of 
homeownership. By law, 40 percent of 502 Direct Loan funds must be used 
to assist families earning less than 50 percent of area median income. 
15,000 loan applications are currently on a waiting list for section 
502 loan funding.
    The section 523 program helps organizations to provide training, 
supervision and technical assistance to families. Families work nights 
and weekends providing construction labor on their own and each other's 
homes to decrease construction costs increase equity and build wealth. 
Every 100 homes built on this program results in 324 jobs, $21.1 
million in local income and $2.2 million in tax revenue. Even though 
Self-Help families have lower income, default rates are significantly 
lower than other borrowers. More than 50,000 families are currently on 
Self-Help Housing waiting lists. Each family that builds a Self-Help 
home makes many sacrifices.
    Throughout the process and after all the hard work they will say, 
yes, it was worth it. It does not make sense to let these programs 
deteriorate to the point of extinction. Thank you for the opportunity 
to address these issues today.

    [This statement was submitted by Neal Gibson, Assistant Executive 
Director, Northwest Regional Housing Authority.]
                                 ______
                                 
             Prepared Statement of NSF International (NSF)

                              INTRODUCTION

    NSF International (NSF) is pleased to have the opportunity to 
submit this statement regarding the Food and Drug Administration's 
(FDA) fiscal year 2014 appropriations.
    NSF is an independent, not-for-profit organization that provides 
consensus national standards development, accredited product 
certification, third party auditing, training and risk management in 
the areas of public health and the environment.
    Founded at the University of Michigan School of Public Health in 
1944, NSF International is committed to protecting human health and the 
environment. Manufacturers, regulators, and consumers alike look to NSF 
to independently help protect the world's food, water, and health 
science and consumer products. We conduct more than 100,000 facility 
audits worldwide and certify products from more than 30,000 companies 
in over 100 countries. NSF is the leading global provider of accredited 
Global Food Safety Initiative audits that may qualify as recognized 
regulatory audits under section 805 and 808 of the Food Safety 
Modernization Act (FSMA).
    NSF has maintained long and cooperative relationships with U.S. 
Federal agencies, including FDA, whose staff participate in NSF 
voluntary consensus national standards committees that cover commercial 
foodservice equipment, as an example. We believe our relationship with 
FDA has been mutually beneficial and supportive of public health.
    In an era of limited resources, budget deficits, and the impact of 
the sequester, we are pleased to say that we can present the 
subcommittee with ways to save the U.S. taxpayer money through public-
private partnerships that leverage FDA's resources in a most cost-
effective manner.

                               DISCUSSION

    Specific areas where NSF can help mitigate FDA's existing resource 
constraints, while helping the agency achieve its public health 
mission, include:
  --Facilitating Compliance with Dietary Supplements Good Manufacturing 
        Practices (GMPs).--NSF has validated test methods for detection 
        of known adulterants in dietary supplements as part of its 
        agreements with major league sports organizations and with 
        national anti-doping agencies. This detailed analytical work is 
        conducted at NSF's ISO 17025-accredited laboratories in 
        Michigan by experienced chemists. Testing is routinely 
        performed for various known contaminants such as Sibitrumine, 
        steroids, PDE 5 Inhibitors, DMAA, APIs, heavy metals, 
        pesticides, and other substances. Through a pilot program with 
        FDA, this effort can be formalized to meet FDA priorities and 
        be utilized by the agency to facilitate its enforcement burden 
        and conserve agency resources. The cost of commencing a pilot 
        program through a cooperative agreement or other means in 
        fiscal year 2014 would range from $500,000 to $1,000,000.
  --Providing GMP Training and Auditing Support for Compounding 
        Pharmacies.--NSF has the capability to develop training 
        standards for compounding pharmacies producing specialized 
        pharmaceuticals for use in the hospital environment. Ensuring 
        that such products are not adulterated has traditionally fallen 
        on State agencies with sometimes tragic results. FDA has not 
        focused adequate resources on what has traditionally been 
        considered a State regulated activity. NSF can develop a model 
        Federal program that could be implemented by the States to 
        ensure that compounding pharmacies employ qualified technicians 
        that are trained to follow best practices. NSF also has 
        programs for auditing Compounding Pharmacies GMPs.
  --Providing Support of Excipients in the Manufacture of Drugs and 
        OTCs.--FDASIA specifies new expectations with regard to supply 
        chain, drug quality and expectations for the pharmaceutical 
        industry. NSF has partnered with FDA and IPEC to develop ANSI/
        NSF Standard 363 for excipient GMPs. We recognize that FDA does 
        not have all the resources it needs to inspect excipient 
        manufacturers and NSF can help in this area through auditing 
        and third party certification.
  --Providing Quality and Safety Support for Pharma Manufacturers.--NSF 
        has also developed a program for certifying Quality 
        Professionals (QP) in the pharmaceutical industry for the 
        European Union. While there is no ``QP'' requirement in the 
        United States as there is in Europe, we believe that proper 
        education of the industry, beyond the quality unit, enables 
        personnel to make appropriate risk-based decisions that satisfy 
        patient needs without sacrificing quality or safety.
  --Providing Support for OTC Manufacturers.--NSF has also developed a 
        program to focus on auditing and qualifying OTC drug 
        manufacturers. We understand that FDA does not have the 
        resources it needs to inspect all the facilities and this 
        program can help protect consumers. The program incorporates 
        elements of CFR, ICHQ10 and elements of FDASIA to ensure that 
        OTC manufacturers are complying with all necessary 
        requirements.
  --Support for Oversight of Asian Manufacturers.--Assisting FDA with 
        oversight of drug manufacturing and research in Asia by 
        providing audit/inspection support and GMP training.

                               CONCLUSION

    As the FDA seeks to cope with resource issues, NSF can align its 
programs with FDA's strategic goals in a manner that best supports the 
agency's public health mission. Such steps will allow the FDA to do 
more with less and at the end of day help reduce our Nation's budget 
deficit. We urge the committee to direct the FDA to consider such 
measures.
    We would be pleased to work with the subcommittee and FDA in this 
regard.
    Thank you for considering our views.

    [This statement was submitted by Kevan P. Lawlor, President and 
CEO, NSF International.]
                                 ______
                                 
    Prepared Statement of the Oregon Water Resources Congress (OWRC)

    The Oregon Water Resources Congress (OWRC) strongly supports the 
U.S. Department of Agriculture's (USDA) Natural Resources Conservation 
Service (NRCS) and is deeply concerned about reductions to programs 
important to our members for fiscal year 2014. OWRC is requesting that 
funding for NRCS' Environmental Quality Incentives Program (EQIP) be 
increased for fiscal year 2014 and that additional funding be dedicated 
to drought planning and assistance. Specifically, OWRC is requesting 
that funding for the Agricultural Watershed Enhancement Program (AWEP) 
portion of EQIP funded at a minimum of $70 million annually. Also, we 
request that the ``Bridging the Headgates'' MOU between NRCS and the 
Bureau of Reclamation be reactivated and expanded to include other 
Federal agencies to maximize Federal resources.
    OWRC is a nonprofit trade association that represents irrigation 
districts, water control districts, drainage districts, water 
improvement districts, and other local government entities that provide 
water for agricultural use. These water stewards operate complex water 
management systems, including water supply reservoirs, canals, 
pipelines, and hydropower production, and deliver water to roughly one-
third of all irrigated land in Oregon. OWRC has been promoting the 
protection and use of water rights and the wise stewardship of water 
resources on behalf of agricultural water suppliers for over 100 years.

           NEED FOR INCREASED FISCAL YEAR 2014 APPROPRIATIONS

    OWRC strongly supports USDA's strategic goal of ensuring ``our 
national forests and private working lands are conserved, restored, and 
made more resilient to climate change, while enhancing our water 
resources.'' Federal support of water conservation activities funded 
through NRCS programs like EQIP, which includes the Agricultural 
Watershed Enhancement Program (AWEP), Conservation Innovation Grant 
(CIG), and several other important programs are essential to the 
conservation of our natural resources and critical to protecting our 
food, energy and water supply. Financial assistance for AWEP and other 
EQIP programs has been declining over the past several years while the 
need for financial assistance to carry out conservation activities has 
only increased, particularly in regards to addressing endangered and 
threatened species, drought and potential impacts from climate change. 
We worry that a further decline of funding for fiscal year 2014 will 
severely impact districts and other agricultural water suppliers.
    While we recognize that the administration has increased funding 
for some of the NRCS programs, the need for additional financial 
assistance with conservation projects still far outweighs the budget. 
NRCS programs are essential to irrigation districts in developing and 
implementing conservation projects that benefit not only the individual 
farmers they serve but also the entire watershed and community as a 
whole. Furthermore, conservation projects also benefit the economy 
through job creation and ensuring the future viability of American 
agriculture.
    Increased fiscal year 2014 appropriations for NRCS programs will 
yield benefits nationally and in Oregon. Conversely reduced funding 
will have hamper existing conservation efforts and potentially have 
dire consequences for water and land conservation efforts. The need and 
demand for EQIP funded programs far outstrips the availability of funds 
in previous years and we are deeply concerned about the impacts of 
further reductions.
    For example, in 2012, Oregon NRCS requested approximately $3.1 
million for project funding, but only received $2.4 million for 
existing AWEP approved projects and also requested approximately $3.2 
million of CCPI funds, but received $3 million. In fiscal year 2013 
Oregon requested $2.7 million for AWEP funding, but received $1.78 
million and requested $1.3 million for CCPI, but received $1.03 
million. Funding requests for NRCS overall are not being met. For 
fiscal year 2013 Oregon requested $24.7 million in financial assistance 
for NRCS funding, but received approximately $20 million. We are 
concerned that this declining trend will hamper not only existing 
conservation efforts but the ability of new projects to be implemented.

                BENEFITS OF AWEP AND OTHER EQIP PROGRAMS

    OWRC strongly supports AWEP and other EQIP programs that are 
critical tools for districts and other agricultural water suppliers in 
developing and implementing water and energy conservation projects in 
Oregon. AWEP has been highly successful in developing cooperative 
approaches on a basin-wide scale. This program allows districts and 
other agricultural water suppliers to partner with farmers to address 
regional water quantity and quality issues in local watersheds.
    The Cooperative Conservation Partnership Initiative (CCPI) is a 
valuable program that allows eligible owners and operators of 
agricultural and nonindustrial private forest lands agricultural users 
to enter into multiyear agreements with NRCS to implement conservation 
measures using EQIP programs and other NRCS conservation programs 
authorized under the 2008 farm bill. CCPI is not a grant program, and 
therefore does not have a budget allocation, but we strongly support 
the continuance of this valuable program. CCPI allows partnerships to 
be formed with Federal, State and local interests to address Endangered 
Species Act (ESA) and Clean Water Act (CWA) issues in watershed basins 
and sub basins. We believe that water supply issues in Oregon and 
elsewhere in the Nation can be resolved best locally in cooperative 
partnership efforts that promote conservation with a more aggressive 
Federal funding partnership as defined in AWEP and CCPI.
    AWEP and CCPI help fill a funding void for multi-partner 
conservation projects. Often large conservation projects do not include 
individual on-farm projects which limits the effectiveness of the 
project. AWEP and CCPI allow farmers to pool together and leverage the 
dollars invested in the off-farm project with the addition of EQIP on-
farm projects. Due to the large number of successful project 
applications for AWEP, USDA will have to obligate a large amount of the 
proposed annual $60 million appropriation to existing multiyear 
projects. It is important that the funding for these projects not be 
interrupted so that they may be completed. However, it is equally 
important to have funding available for new eligible AWEP and CCPI 
projects that simultaneously benefit the environment and economy.
    Additionally, CIG is another important component of EQIP and NRCS' 
conservation efforts. CIG helps support the development of innovative 
methods to address natural resources challenges that are critical to 
having success on the ground. Additional assistance is also needed to 
help farmers and other agricultural users plan for and adapt to 
potential impacts from climate change and ongoing drought and CIG is a 
viable method to spur creative solutions.

             EXAMPLES OF SUCCESSFUL AWEP PROJECTS IN OREGON

    Oregon has had several successful AWEP applicants over the past 
several years, three from our member districts (described below). The 
full list of Oregon projects can be found on the Oregon NRCS website 
at: http://www.or.nrcs.usda.gov/programs/awep/index.html.
  --The Whychus Creek/Three Sisters Irrigation District Collaborative 
        Restoration Project focuses on irrigation water efficiency with 
        irrigation improvements in the Upper Division of the Three 
        Sisters Irrigation District, which is the project partner. The 
        effort will improve stream flows and water quality for native 
        fish while providing farmers a reliable supply of water. Fiscal 
        year 2013 funding: $180,000; fiscal year 2012 $251,300.
  --The Talent Irrigation District Project works with agricultural 
        producers to install conservation practices that will properly 
        utilize limited surface water resources, improve water quality 
        on flood irrigated land by converting to more efficient 
        irrigation systems, and apply irrigation water management to 
        eliminate irrigation runoff. Fiscal year 2013 funding: $0; 
        fiscal year 2012 funding: $4,470.
  --The Willow Creek Project helps landowners in the Lower Willow Creek 
        Watershed portion of Malheur County convert to water-saving 
        irrigation systems, reduce irrigation runoff, and improve water 
        quality in Willow Creek and Malheur River. The project partner 
        is the Vale Oregon Irrigation District. Fiscal year 2013 
        funding: $180,000; fiscal year 2012: $251,300.
    Additionally, Oregon NRCS is helping develop the Save Water, Save 
Energy Initiative, a multi-agency cooperative effort to develop a 
clearinghouse of information on financial incentives and technical 
expertise to assist districts and their water users in implementing 
conservation measures. Additional innovative projects like the ones 
above could be developed and implemented in Oregon if more funding is 
made available.

             BRIDGING THE HEADGATES MOU AND PLANNING NEEDS

    There is also a need for continued coordination among Federal 
agencies like NRCS, the Bureau of Reclamation (BOR), Bureau of Land 
Management (BLM), Environmental Protection Agency (EPA), NOAA 
Fisheries, U.S. Fish and Wildlife Service, and Army Corps of Engineers 
(ACOE), and planning assistance to address and plan for various water 
challenges. Reactivating and expanding the ``Bridging the Headgates'' 
MOU presents an opportunity to leverage shared Federal resources. With 
the loss of watershed planning funding, reactivating and expanding this 
program to other Federal agencies would be a very cost-effective 
alternative. In the past, Oregon NRCS used a watershed resources 
planning team to conduct Rapid Watershed Assessments throughout Oregon. 
This planning program helped prioritize projects to bring about the 
most benefit in critical watersheds and getting on-the-ground 
conservation projects completed in a timely manner. A number of NRCS 
funded district projects have been implemented using the data from this 
program.
    Following in the vein of the Rapid Watershed Assessments, Oregon 
has adopted a Strategic Approach to Conservation. The goal is to invest 
technical and financial resources to strategically solve natural 
resource problems and be more effective, efficient, and accountable for 
staffing, funding and partnerships. This strategy is intended to 
accelerate the conservation implementation and leverage technical and 
financial resources required to solve the problem. These types of 
program activities are effective tools that need a consistent funding 
source.
    Furthermore, reactivating and expanding the ``Bridging the 
Headgates'' program is a viable option to leverage scarce Federal 
resources to help plan for and address drought, other natural 
disasters, and potential impacts from climate change. There is no USDA 
budget item or program to address drought yet it is imperative that 
farmers and other agricultural users have Federal assistance to help 
not only deal with the current drought conditions but be able to plan 
for and address future shortages. A coordinated effort between Federal 
agencies will not only be fiscally prudent, but also an effective use 
of time, institutional knowledge, and respective authorities.

                               CONCLUSION

    Ensuring adequate water supplies for agriculture is of paramount 
importance to the continued economic, environmental, and cultural well-
being of not only Oregon but all of America. Oregon's agricultural 
community is actively committed to developing and implementing 
innovative water conservation projects, but the continued success of 
these efforts requires Federal participation and meaningful investment 
in valuable programs like EQIP. Our member districts, the farms and 
other water users they serve, and the communities in which they are 
located benefit greatly from the NRCS programs described in our 
testimony. Increasing the budget for NRCS programs is a strategic 
investment that will pay both environmental and economic dividends to 
Oregonians and America as a whole. We urge you to increase funding for 
AWEP and related EQIP programs for fiscal year 2014. Thank you for the 
opportunity to provide testimony for the record on the proposed fiscal 
year 2014 budget for the U.S. Department of Agriculture.

    [This statement was submitted by April Snell, Executive Director, 
Oregon Water Resources Congress.]
                                 ______
                                 
    Prepared Statement of the Pew Charitable Trusts--Kids' Safe and 
                     Healthful Foods (KSHF) Project

    Mr. Chairman, Ranking Member Blunt, and members of the 
subcommittee: I am pleased to provide testimony to this subcommittee on 
behalf of the Pew Charitable Trusts' Kids' Safe and Healthful Foods 
(KSHF) Project. The Kids' Safe and Healthful Foods Project provides 
nonpartisan analysis and evidence-based recommendations to policymakers 
to ensure that all foods and beverages sold in U.S. schools are as safe 
and healthful as possible. The following testimony details our support 
for the President's request for $35 million in new funding for the U.S. 
Department of Agriculture's (USDA) Food and Nutrition Service (FNS) to 
provide competitive equipment grants in support of local schools' 
efforts to upgrade and modernize their kitchens and cafeterias to 
prepare more nutritious foods and comply with new school nutrition 
standards.
    Today, in particular, I would like to draw your attention to the 
urgent challenges facing school districts and administrators who often 
lack the modern, high-quality kitchen equipment necessary to prepare 
and serve healthful, nutritious foods. Consider having only a deep-fat 
fryer or a microwave in your own kitchen for preparing meals. This is 
the reality for the countless schools that feed America's children each 
day. The foods served by schools are an important source of the 
nutrients our children need to grow, learn and succeed, yet many 
schools are unable to provide safe and balanced menus because of 
broken, outdated or absent kitchen equipment.
    The USDA, which administers school meal programs, has updated its 
nutrition standards to reflect the expert recommendations that children 
should eat more fruits, vegetables and whole grains. To meet these 
standards, schools need sufficient funds to replace outdated equipment 
and to train their staff in order to prepare safe, healthy meals. 
Unfortunately, many school kitchens were built decades ago and were 
designed with only the minimal capacity required to reheat and hold 
food. From the beginning of the National School Lunch Program (NSLP) in 
1946 to the early 1980s, the Federal Government periodically provided 
grant funding for school kitchen equipment. After a 25-year period 
without financial support, through this subcommittee's leadership, in 
2009 Congress provided $100 million for competitive assistance grants 
to States to support school kitchen equipment. Applications totaling 
more than $600 million poured in (see Appendix A)--a stark 
demonstration of the unmet need in schools eager to replace their 
antiquated equipment with steamers, ovens and salad bars. Research has 
shown that Government grants for kitchen upgrades and training can 
significantly improve the nutritional quality of school meals.
    Two recent examples illustrate the strong arguments for targeted 
investments in new kitchen equipment:

                              MISSISSIPPI

    Already a national leader in school nutrition standards, in 2009, 
Mississippi schools engaged in a statewide obesity prevention campaign 
and received $1.7 million in Federal funds to purchase kitchen 
equipment. Under the leadership of Governor Haley Barbour and the 
Governor's Taskforce on Childhood Obesity, the Healthy Kids, Healthy 
Mississippi initiative identified a wide range of policy options to 
help State leaders improve child health and reduce obesity in 
Mississippi, ranking school kitchen equipment upgrades among the top 
three priorities for State action. Replacing deep-fat fryers with 
combination oven-steamers enabled schools to serve baked chicken 
tenders and whole-grain rolls instead of fried chicken and other higher 
fat foods. Such changes have resulted in a significant reduction in the 
calories and saturated fat in school meals, and the healthier baked 
products received an overwhelmingly positive response from students and 
staff. And these changes may be paying off. Recent data suggests that 
rates of childhood obesity in Mississippi have started to decline.

                           MADISON, WISCONSIN

    The Whole Kids Foundation, a charitable arm of Whole Foods, 
recently donated 15 salad bars to Madison, Wisconsin-area elementary 
schools, a small investment that school administrators highly value. 
According to Steve Youngbauer, director of food services for the 
Madison Metropolitan School District, ``offering a salad bar option for 
students may be the most impactful change that school districts can 
make within a child nutrition program.'' The school district 
appreciates the healthier choices, but adding salad bars is not without 
cost to the district's budget. According to news reports, most Madison 
schools lack adequate kitchen infrastructure to fully support the 
fresh-prep salad bars. They may not have the appropriate refrigeration 
for fresh vegetables, or regulation sinks to wash tongs and trays. 
Targeted, competitive Federal grant funding is still needed in order to 
fully modernize basic kitchen and cafeteria infrastructure to help 
school districts meet the USDA's new nutritional standards for school 
meals, and ultimately, to help schools and parents improve kids' health 
and reduce the incidence of childhood obesity in the United States.
    Research co-funded by the Pew Charitable Trusts and the Robert Wood 
Johnson Foundation (RWJ), in cooperation with the School Nutrition 
Foundation (SNF), further underscores the need for stable, robust 
competitive grant funding for school food infrastructure and equipment. 
In 2011, USDA finalized regulations to update nutrition standards for 
the National School Lunch and School Breakfast Programs for the first 
time in 15 years. The updated regulations raised the bar for school 
nutrition and challenge schools to prepare healthier, lower calorie 
meals for children during the school day. Our pilot study explored the 
type of equipment and training necessary for schools to successfully 
meet USDA's updated nutrition standards. The results of this initial 
study represent only a small sample of schools, and Pew is currently 
finalizing its analysis of a comprehensive national survey to evaluate 
these trends in more detail. However, the vast majority of respondents 
indicated that they lack adequate funds to repair and/or purchase the 
kitchen equipment or provide the staff training needed to prepare and 
serve healthier meals that meet USDA's proposed nutrition standards. In 
addition, the expected costs of updating kitchen equipment needed to 
meet new USDA standards varied widely, with a median estimate of over 
$50,000 per school district. Our very preliminary analysis of data from 
Pew's upcoming national survey confirms that schools clearly need, and 
would value, additional funding to support kitchen infrastructure and 
equipment upgrades to meet the new USDA nutrition standards.
    Anecdotally, I can tell you that the majority of educators, 
parents, and school food service professionals I've been privileged to 
encounter over this first school year of the new nutrition standards 
are eager to provide healthy, nutritious, inviting meals to students, 
despite the equipment and infrastructure deficiencies facing our 
schools. I strongly urge the subcommittee to meet the President's 
request for $35 million for school equipment competitive grant funding 
in the fiscal year 2014 Agriculture Appropriations legislation. The 
Congress was extraordinarily generous and foresighted in committing $10 
million to fund this account in fiscal year 2013--schools use these 
investments wisely and your continued support will help educators and 
parents to stay focused on improving the health and well-being of our 
Nation's children. Today's economic austerity is an obstacle to 
providing funds for this effort, but I know that the subcommittee 
recognizes the importance of undertaking every possible strategy to 
reduce childhood obesity. You also know of the tremendous dividends 
this strategy will pay in our children's future. Thank you for your 
consideration.

     APPENDIX A--2009 ARRA FUNDING FOR NSLP EQUIPMENT ASSISTANCE \1\
------------------------------------------------------------------------
                  State/Territory Name                   Amount of Award
------------------------------------------------------------------------
Alabama................................................       $1,956,100
Alaska.................................................          286,227
Arizona................................................        2,208,964
Arkansas...............................................        1,274,260
California.............................................       12,864,683
Colorado...............................................        1,034,538
Connecticut............................................          785,878
DC.....................................................          215,765
Delaware...............................................          233,284
Florida................................................        5,403,280
Georgia................................................        4,420,793
Guam...................................................          215,764
Hawaii.................................................          348,600
Idaho..................................................          481,315
Illinois...............................................        3,657,300
Indiana................................................        1,937,595
Iowa...................................................          823,633
Kansas.................................................          849,759
Kentucky...............................................        1,769,888
Louisiana..............................................        2,069,399
Maine..................................................          307,008
Maryland...............................................        1,231,398
Massachusetts..........................................        1,404,025
Michigan...............................................        2,555,174
Minnesota..............................................        1,270,655
Mississippi............................................        1,720,968
Missouri...............................................        1,838,222
Montana................................................          224,981
Nebraska...............................................          532,209
Nevada.................................................          679,103
New Hampshire..........................................          215,765
New Jersey.............................................        1,859,763
New Mexico.............................................          924,743
New York...............................................        5,990,474
North Carolina.........................................        3,313,727
North Dakota...........................................          215,764
Ohio...................................................        2,957,271
Oklahoma...............................................        1,519,638
Oregon.................................................        1,030,828
Pennsylvania...........................................        2,872,047
Puerto Rico............................................        1,532,183
Rhode Island...........................................          268,131
South Carolina.........................................        1,836,195
South Dakota...........................................          255,465
Tennessee..............................................        2,275,738
Texas..................................................       11,517,159
Utah...................................................          721,186
Vermont................................................          215,765
Virgin Islands.........................................          215,764
Virginia...............................................        1,891,294
Washington.............................................        1,588,047
West Virginia..........................................          649,800
Wisconsin..............................................        1,316,711
Wyoming................................................          215,674
                                                        ----------------
      Totals...........................................      100,000,000
                                                        ================
National Totals:
    Total Amount Awarded...............................      100,000,000
    Total Amount Requested.............................      639,328,915
                                                        ----------------
      Difference.......................................     -539,328,915
------------------------------------------------------------------------
\1\ Data source: USDA, 2012.


    [This statement was submitted by Jessica Donze Black, RD, MPH, 
Director, Kids' Safe and Healthful Foods (KSHF) Project, the Pew 
Charitable Trusts.]
                                 ______
                                 
        Prepared Statement of Pickle Packers International, Inc.

     CONCERN FOR SUSTAINED AND INCREASED RESEARCH FUNDING USDA/ARS

Summary
    Sustained and increased funding is desperately needed to maintain 
the research momentum built over recent years and to defray rising 
fixed costs at laboratory facilities. Companies in the pickled 
vegetable industry generously participate in funding and performing 
short-term research, but the expense for long-term research needed to 
insure future competitiveness is too great for individual companies to 
shoulder on their own.
Additional Budget Requests for Fiscal Year 2014
    Funding needs for USDA/ARS laboratories are as follows:

          REQUESTS FOR PROGRAM ENHANCEMENT--PICKLED VEGETABLES
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Emerging Disease of Crops...............................        $500,000
Quality and Utilization of Agricultural Products and             500,000
 Food Safety............................................
Applied Crop Genomics...................................         500,000
Specialty Crops.........................................         550,000
                                                         ---------------
      Total Program Enhancements Requested--Pickled            2,050,000
       Vegetables.......................................
------------------------------------------------------------------------

    USDA/ARS research provides:
  --Consumers with over 150 safe and healthful vegetable varieties 
        providing vitamins A, C, folate, magnesium, potassium, calcium, 
        and phytonutrients such as antioxidant carotenoids and 
        anthocyanins.
  --Genetic resistance for many major vegetable diseases, assuring 
        sustainable crop production with reduced pesticide residues--
        valued at nearly $1 billion per year in increased crop 
        production.
  --Classical plant breeding methods combined with bio-technological 
        tools, such as DNA markers, genetic maps, and genome sequence 
        to expedite traditional breeding and increase efficiency.
  --New vegetable products with economic opportunities amidst 
        increasing foreign competition.
  --Improved varieties suitable for machine harvesting, assuring post 
        harvest quality and marketability.
  --Fermentation and acidification processing techniques to improve the 
        efficiency of energy use, reduce environmental pollution, and 
        reduce clean water intake while continuing to assure safety and 
        quality of our products.
  --Methods for delivering beneficial microorganisms in fermented or 
        acidified vegetables, and produce reduced sodium, healthier 
        products.
  --New technology and systems for rapid inspection, sorting and 
        grading of pickling vegetable products.

Health and Economical Benefits
    Health agencies continue to encourage increased consumption of 
fruits and vegetables, useful in preventing heart disease, cancer, 
stroke, diabetes, and obesity.
    Vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, and cabbage (sauerkraut), are considered ``specialty'' crops 
and not part of commodity programs supported by taxpayer subsidies.
    Current farm value for just cucumbers, onions and garlic is 
estimated at $2.4 billion with a processed value of $5.8 billion. These 
vegetables are grown and/or manufactured in all 50 States.

                              INTRODUCTION

    The pickled vegetable industry strongly supports and encourages 
your committee in its work of maintaining and guiding the Agricultural 
Research Service. To accomplish the goal of improved health and quality 
of life for the American people, the health action agencies of this 
country continue to encourage increased consumption of fruits and 
vegetables in our diets. Accumulating evidence from the epidemiology 
and biochemistry of heart disease, cancer, diabetes and obesity 
supports this policy. Vitamins (particularly A, C, and folic acid), 
minerals, and a variety of antioxidant phytochemicals in plant foods 
are thought to be the basis for correlation's between high fruit and 
vegetable consumption and reduced incidence of these debilitating and 
deadly diseases.
    As an association representing processors that produce over 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population that is encouraged to eat more vegetables. The profit 
margins of growers continue to be narrowed by foreign competition. This 
industry can grow by meeting today's lifestyle changes with reasonably 
priced products of good texture and flavor that are high in nutritional 
value, low in negative environmental impacts, and produced with assured 
safety from pathogenic microorganisms and from those who would use food 
as a vehicle for terror. With strong research to back us up, we believe 
our industry can make a greater contribution toward reducing product 
costs and improving human diets and health for all economic strata of 
U.S. society.
    Many small to medium sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (sauerkraut) and brussels sprouts, which 
are referred to as ``minor'' crops. None of these crops are in any 
``commodity program'' and do not rely on taxpayer subsidies. However, 
current farm value for just cucumbers, onions and garlic is $2.4 
billion with an estimated processed value of $5.8 billion. These crops 
represent important sources of income to farmers and rural America. 
Growers, processing plant employees and employees of suppliers to this 
industry reside in all 50 States. To realize its potential in the 
rapidly changing American economy, this industry will rely upon a 
growing stream of appropriately directed basic and applied research 
from four important research programs within the Agricultural Research 
Service. These programs contribute directly to top research priorities 
that the Research, Education, and Economics Mission Area (REE) of the 
USDA has identified in that they develop vegetable crop germplasm and 
preservation technology that contributes to improved profitability with 
reduced pesticide inputs in a safer, higher quality product grown by 
rural farm communities across the United States, consequently improving 
food security and food safety. Improved germplasm, crop management 
practices and processing technologies from these projects have 
measurably contributed to the profitability, improved nutritional value 
and increased consumption of affordable vegetable crops for children 
and adults in America and around the world.

                         APPLIED CROP GENOMICS

    The USDA/ARS has the only vegetable crops research unit dedicated 
to the genetic improvement of cucumbers, carrots, onions and garlic. 
ARS scientists account for approximately half of the total U.S. public 
breeding and genetics research on these crops. Their efforts have 
yielded cucumber, carrot and onion cultivars and breeding stocks that 
are widely used by the U.S. vegetable industry (i.e., growers, 
processors, and seed companies). These varieties account for over half 
of the farm yield produced by these crops today. All U.S. seed 
companies rely upon this program for developing new varieties, because 
ARS programs seek to introduce economically important traits (e.g., 
pest resistances and health-enhancing characteristics) not available in 
commercial varieties using long-term high risk research efforts. The 
U.S. vegetable seed industry develops new varieties of cucumbers, 
carrots, onions, and garlic and over 20 other vegetables used by 
thousands of vegetable growers. Their innovations meet long-term needs 
and bring innovations in these crops for the United States and export 
markets, for which the United States has successfully competed.
    ARS scientists have developed genetic resistance for many major 
vegetable diseases that are perhaps the most important threat to 
sustained production of a marketable crop for all vegetables. Genetic 
resistance assures sustainable crop production for growers and reduces 
pesticide residues in our food and environment. Value of this genetic 
resistance developed by the vegetable crops unit is estimated at $670 
million per year in increased crop production, not to mention 
environmental benefits due to reduction in pesticide use. New research 
has resulted in cucumbers with improved disease resistance, pickling 
quality and suitability for machine harvesting. New sources of genetic 
resistance to viral and fungal diseases, tolerance to environmental 
stresses, and higher yield have recently been identified along with 
molecular tools to expedite delivery of elite cucumber lines to U.S. 
growers. A new genetic resistance to nematode attack was found to 
almost completely protect the carrot crop from one major nematode. 
Carrots provide approximately 30 percent of the U.S. dietary vitamin A. 
New carrots have been developed with tripled nutritional value, and 
nutrient-rich cucumbers have been developed with increased levels of 
provitamin A. The genetic bases of onion flavor, as well as compounds 
that enhance cardiovascular health and have anti-carcinogenic effects 
have been determined and are being used to develop onions that are more 
appealing and healthier for consumers.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets should be enhanced. Genetic improvement of all the 
attributes of these valuable crops are at hand through the unique USDA 
lines and populations (i.e., germplasm) that are available and the new 
biotechnological methodologies that are being developed by the group. 
The achievement of these goals will involve the utilization of a wide 
range of biological diversity available in the germplasm collections 
for these crops. Classical plant breeding methods combined with bio-
technological tools such as DNA markers, genetic maps, and genome 
sequences to expedite traditional cucumber, carrot and onion breeding 
and increase its efficiency. With this, new high-value vegetable 
products based upon genetic improvements developed by our USDA 
laboratories can offer vegetable processors and growers expanded 
economic opportunities for United States and export markets.

    QUALITY AND UTILIZATION OF AGRICULTURAL PRODUCTS AND FOOD SAFETY

    The USDA/ARS maintains a food science research unit that our 
industry looks to for new scientific information on the safety of our 
products and development of new processing technologies related to 
fermented and acidified vegetables. ARS scientists have consistently 
provided innovative solutions to processing challenges which have 
helped this industry remain competitive in the current global trade 
environment. Major accomplishments include: pasteurization treatments 
currently used for most acidified vegetables; the preservation 
technology used for manufacturing shelf stable sweet pickles; and 
fermentation technology (purging) used to prevent the formation of air 
pockets within fermented pickles. These innovations have improved 
processing and product quality and yielded significant savings 
industry-wide. Furthermore, with the advent of the Food Safety 
Modernization Act, commercial producers of acidified foods must meet 
critical limits established for the microbial safety. Microbial studies 
to meet safety requirements may be a significant financial burden to 
industry. USDA/ARS is uniquely positioned to generate data that will 
aid industry and FDA with determining safe processing parameters for 
these products. The pickling industry in the United States relies on 
USDA/ARS for the development of new and improved technologies that will 
increase the economic value of processed vegetable products, provide 
consumers with safe, high quality, healthful vegetable products, and 
reduce the environmental impact of industrial activities. Additional 
funding is needed to support important new research initiatives.
    First, nearly all retail pickled vegetables are pasteurized for 
safety and shelf stability. Current steam and water bath pasteurizers 
rely on technology from the 1940s and 50s. Promising new technologies 
include continuous flow microwave technology and ``hot-fill-and-hold'' 
pasteurization. The objective is to reduce water use and significantly 
improve energy efficiency with new, scientifically validated thermal 
processing technology.
    Second, additional research that offers significant economic and 
environmental advantages to the U.S. industry includes the reduction or 
replacement of salt in commercial vegetable fermentations. Calcium 
substitution of salt in commercial vegetable fermentations has the 
potential to eliminate salt disposal problems and create opportunities 
to manufacture calcium enriched, reduced sodium, healthier vegetable 
products. Reducing environmental impact and production costs for the 
manufacture of healthier products is essential to the sustainability of 
the U.S. industry.
    Third, there is a growing body of research indicating that certain 
beneficial microorganisms (probiotics) improve human health by 
remaining in the intestinal tract after they are consumed. New 
processing technology is needed to develop high value probiotic 
vegetable products, opening new markets in the United States and 
improving the health benefits derived from consumption of fermented and 
acidified vegetables.

                            SPECIALTY CROPS

    The USDA/ARS has research programs that focus on the development of 
innovative engineering technologies for rapid, nondestructive 
measurement and grading of tree fruits and pickling vegetables to 
enhance product quality and marketability and achieve labor cost 
savings. ARS scientists apply state-of-the-art optical and computer 
technologies, coupled with advanced mathematical, statistical and 
pattern recognition methods, for automatic, intelligent classification 
of fruits and pickling vegetables based on important quality 
attributes. In recent years, the research program has developed several 
imaging- and spectroscopic-based sensors and sensing technologies for 
rapid detection of the texture, flavor, and quality defects of pickling 
vegetables and fruits. USDA/ARS is nationally and internationally 
recognized for its pioneering research and development and technology 
transfer effort in spectral imaging-based inspection technology, which 
has found wide applications in food quality and safety inspection. 
Currently, ARS researchers are developing a spectral imaging-based 
common inspection platform and other related sensing technologies with 
substantially improved capabilities for quality evaluation and grading 
of pickling vegetables and fruits at the processing facility and in the 
field. The outcome of the research would greatly improve the current 
pickle inspection technology, reduce labor cost and enhance final 
product quality.
    Quality inspection and assurance of pickling vegetables and other 
horticultural products is critical to growers and processors and 
ultimately consumers. Moreover, labor required for harvest and 
postharvest handling and processing operations represents a significant 
portion of the total production cost for specialty crops. While 
automatic systems are currently used in many vegetable and fruit 
processing facilities, they are only for inspecting product surface 
quality characteristics. Research is thus needed for developing more 
efficient and effective automated inspection technologies for internal 
quality assessment and grading of harvested pickling vegetables and 
other horticultural products. New and/or improved inspection 
technologies can help growers and processors assess, inspect and grade 
pickling vegetables and horticultural products rapidly and accurately 
for internal and external quality characteristics so that they can be 
directed to, or removed from, appropriate processing or marketing 
avenues. This will minimize postharvest losses of food that has already 
been produced, ensure high quality, consistent final product and end-
user satisfaction, and reduce production cost. Expanded effort should 
also be directed at developing cost-effective, readily deployable 
sensors and sensing systems for real-time monitoring and measurement of 
the maturity and health or condition of pickling vegetables and fruits 
during growth and harvest, so that optimal production and harvest 
management schemes can be implemented to achieve cost savings and 
enhance product postharvest quality.

                       EMERGING DISEASE OF CROPS

    USDA/ARS vegetable research addresses national problems confronting 
the vegetable industry of the southeastern United States. The mission 
of the laboratory is to develop disease and pest resistant vegetables, 
and also new, reliable, environmentally sound disease and pest 
management practices that do not rely on conventional pesticides. 
Programs currently address 14 crops, including those in the cabbage, 
cucumber, and pepper families, all of major importance to the pickling 
industry. USDA/ARS research is recognized worldwide, and its 
accomplishments include over 150 new vegetable varieties and many 
improved management practices.
    Expansion of this program would directly benefit the southeastern 
vegetable industry. Vegetable growers depend heavily on synthetic 
pesticides to control diseases and pests. Cancellations of many 
effective pesticides directly impacts future vegetable crop production. 
Without the use of certain pesticides, producers will experience crop 
failures unless other effective, non-pesticide control methods are 
readily identified. In this context, the research on improved, more 
efficient and environmentally compatible vegetable production practices 
and genetically resistant varieties continues to be absolutely 
essential. Research like this can help provide U.S. growers with a 
competitive edge they must have to sustain and keep their industry 
vibrant, allowing it to expand in the face of increasing foreign 
competition. Current cucumber varieties are highly susceptible to a new 
strain of the downy mildew pathogen; this new strain has caused 
considerable damage to commercial cucumber production in some South 
Atlantic and Midwestern States during the past 5 years, and a new plant 
pathologist position could address this critical situation.

                      FUNDING NEEDS FOR THE FUTURE

    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the United States now enjoys and to 
increase funding levels as warranted by planned expansion of research 
projects to maintain U.S. competitiveness. We also understand that 
discretionary funds are now used to meet the rising fixed costs 
associated with each location. Additional funding is needed for genetic 
improvement of crops essential to the pickled vegetable industry, and 
for development of environmentally sensitive technologies for improved 
safety and value to the consumer of our products. The fermented and 
acidified vegetable industry is receptive to capital investment in 
order to remain competitive, but only if that investment is 
economically justified. The research needed to justify such capital 
investment involves both short-term (6-24 months) and long-term (2-10 
years or longer) commitments. The diverse array of companies making up 
our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness. 
Donations of supplies and processing equipment from processors and 
affiliated industries have continued for many years.
    It is important to note that fiscal year 2013 continuing resolution 
funding for USDA/ARS laboratories totaled $11,005,000. However, funding 
for all cucurbits equaled just $3,939,000 with only $1,718,000 directed 
toward pickled vegetable research. For fiscal year 2014, PPI is 
requesting an additional $2,050,000 in program enhancements that will 
provide needed research for pickled vegetables.

                       EMERGING DISEASE OF CROPS

    There is a critical need to establish and fund a plant pathology 
position to address cucumber diseases, especially the disease caused by 
a new strain of the downy mildew pathogen responsible for recent 
extensive damage to cucumber production in South Atlantic and 
Midwestern States. The pathologist is needed to characterize pathogen 
strains and to develop new management approaches, as well as resistant 
cucumber varieties, to combat the disease. Ultimately, this proposed 
plant pathologist would accomplish research that results in effective 
protection of cucumbers from disease without the use of conventional 
pesticides.

------------------------------------------------------------------------
                                                    Amount
------------------------------------------------------------------------
Fiscal year:
    2012/2013 continuing resolution.  $456,100 (pickled vegetables)
    2014 (budget)...................  To be determined
    2014 Additional Request (Plant    $500,000
     Pathologist and support).
------------------------------------------------------------------------

    quality and utilization of agricultural products and food safety
    The current funding includes research and development for a variety 
of vegetable products, including fermented and acidified vegetables. 
For new research initiatives to reduce energy and water use, reduce 
environmental impact from commercial fermentations, and develop new 
health-promoting food (probiotic) technology, we request additional 
support of $500,000. This will provide support for Post-Doctoral or 
Pre-Doctoral research associates along with necessary equipment and 
supplies.

------------------------------------------------------------------------
                                                    Amount
------------------------------------------------------------------------
Fiscal year:
    2012/2013 continuing resolution.  $647,800 (pickled vegetables)
    2014 (budget)...................  To be determined
    2014 Additional Request (Post-    500,000
     doctoral and Pre-doctoral
     Research Associate and support)
------------------------------------------------------------------------

                         APPLIED CROP GENOMICS

    Emerging and persisting diseases, such as downy mildew, southern 
root knot nematode, and angular leaf spot of cucumber, threaten 
production of the crop in all production areas. We request an 
additional $500,000 to fully fund the scientists and support staff, 
including graduate students and post-doctorates for identifying and 
researching new sources of genetic resistance to emerging diseases.

------------------------------------------------------------------------
                                                    Amount
------------------------------------------------------------------------
Fiscal year:
    2012/2013 continuing resolution.  $456,600 (pickled vegetables)
    2014 (budget)...................  To be determined
    2014 Additional Request (Post-    500,000
     doctoral and Pre-doctoral
     Research Associate and support)
------------------------------------------------------------------------

                            SPECIALTY CROPS

    The current funding is far short of the level needed to carry out 
research on inspection, sorting and grading of pickling cucumbers and 
other vegetable crops to assure the processing and quality of pickled 
products. An increase of $550,000 in the current base funding level 
would be needed to fund the research engineer position.

------------------------------------------------------------------------
                                                    Amount
------------------------------------------------------------------------
Fiscal year:
    2012/2013 continuing resolution.  $157,500 (pickled vegetables)
    2014 (Proposed budget)..........  To be determined
    2014 Additional Request           550,000
     (Research Engineer and support).
------------------------------------------------------------------------

    Thank you for your consideration and expression of support for the 
USDA/ARS.
                                 ______
                                 
 Prepared Statement of the Rural Housing Development Corporation (RHDC)

    On behalf of Rural Housing Development Corporation (RHDC), I would 
like to thank the subcommittee for the opportunity to submit testimony 
on fiscal year 2014 appropriations for two of Department of Agriculture 
(USDA) Rural Housing Programs.
    Since 2010, USDA Rural Housing programs have been cut by nearly 
$400 million. Further cuts to Rural Housing programs proposed by the 
administration's budget request are unwise and unwarranted. As such, I 
strongly urge this subcommittee to fund USDA Rural Housing programs at 
the higher of the President's fiscal year 2014 budget request or fiscal 
year 2013 levels, prior to sequestration, including: (1) $900 million 
for Section 502 Direct Homeownership Loans; and (2) $30 million for 
Section 523 Mutual Self-Help Housing Program.
    RHDC is a nonprofit affordable housing organization in Utah. Since 
1998, RHDC has promoted affordable housing opportunities to low-income 
families living in Central Utah. Over 300 single family homes have been 
built through USDA's Mutual Self-Help Housing program using the 502 
loan in Central Utah and over 1,300 homes have been built across the 
State of Utah.

               ABOUT THE MUTUAL SELF-HELP HOUSING PROGRAM

    The Mutual Self-Help Housing program takes the rural tradition of 
barn-raising and puts it to use for families who, after working all day 
and all week, spend their nights and weekends building their own home. 
It is a model of how low-income families help themselves through sweat 
equity. Without the opportunity, many of these families would never own 
their own home. Consider the West family in Utah, a low-income family 
of five (three children ages 5, 3 and 1), who have lived in a two-room 
log cabin built in the 1880's. The cabin measures 21 by 26 feet, which 
is very similar to a two-car garage. In their own words:

``While we enjoy the `coziness' of our home, it does present some 
challenges. The cabin is not well insulated. We can feel the wind 
through the single-paned windows and cracks throughout the house. Big 
rainstorms cause leaks. Other than weather problems, we are not sure 
which we have the most of living in the walls of our home: bees, 
spiders or mice. Our home is on a cinderblock basement built into a 
dike constructed to control the flooding of the river in the 1980's. 
Because of our close proximity to the river and lake we have had to 
face additional challenges. This year the ground water is so high it 
fills the septic tank causing the sewer to back up. The high water flow 
in the river also caused the water to seep through the cracks in our 
basement floor. At the highest point we had almost 2 inches of standing 
water. Even though the water level has recently dropped, we are left 
with the challenge of the profuse growth of mold. Every summer we have 
a mold problem in the basement. However, this year with the flooding, 
the mold is 100 percent worse. This makes us concerned for our family's 
health.
``Unfortunately for us, moving is not an option at this time. For these 
reasons we are telling you our story--not to complain, but to ask you 
for the much needed financial assistance in purchasing a new healthy 
home for our family under the Self-Help Housing Program. We cannot 
better our situation without your help.''

    Families like the West family have found refuge in building their 
own home and for that reason, take great care in the homes they have a 
major stake in. Of the 1,300+ homes built in Utah, there is a 
foreclosure rate of around 1 percent. The 502 Direct Loans used to 
finance these homes are paid back with interest and are perpetuated for 
future families.

                            ECONOMIC IMPACT

    The economic impact in Utah has been substantial; it is anticipated 
that during 2012 and 2013, the Self-Help Housing program would bring 
Utah's economy approximately $40,335,444. The program also creates 
employment opportunities in rural areas; each year in Utah, over 400 
jobs are created for subcontractors, suppliers, realtors, land 
developers, etc.
    The section 502 program provides loans to low- and very-low income 
families at a low cost to the Government, and as mentioned, has a very 
low foreclosure rate. Sixty percent of the families borrowing direct 
loans from USDA have incomes at or below 60 percent of the area median 
income.
    Some contend that the 502 Guarantee Loan program can assist 
families who are now receiving direct loans. There is ample evidence to 
the contrary; including an Economic Research Service report indicating 
that the guarantee loan program does not work as well in smaller, more 
isolated communities. Nor does the Guarantee Loan product have a track 
record of serving households with incomes at 60 percent AMI or less, 
while the direct loan program does. Only the Section 502 Direct Loan 
program can provide homeownership opportunities for many of the current 
work force in rural areas, who struggle to find affordable rental 
housing that is both safe and adequate for their family size. The loss 
of this program will also destabilize rural workers, negatively 
impacting rural employers.
    I ask that the subcommittee look at ways to fund USDA Rural Housing 
programs at the higher of the President's fiscal year 2014 budget 
request or fiscal year 2013 levels, prior to sequestration, including: 
(1) $900 million for Section 502 Direct Homeownership Loans; and (2) 
$30 million for Section 523 Mutual Self-Help Housing Program.
    I appreciate your consideration of this request.

    [This statement was submitted by Brad Bishop, Executive Director, 
Rural Housing Development Corporation.]
                                 ______
                                 
           Prepared Statement of Self-Help Enterprises (SHE)

    Self-Help Enterprises is a regional nonprofit housing and community 
development organization serving eight expansive counties in 
California's agricultural San Joaquin Valley. Founded in 1965, Self-
Help Enterprises has developed nearly 6,000 Self-Help Homes and 1,200 
units of multifamily rental housing for farmworkers and other low-wage 
earners. In partnership with local governments, SHE has rehabilitated 
or replaced 6,000 homes, assisted 1,500 first-time homebuyers, and 
provided planning and technical assistance to dozens of small, 
unincorporated communities to help meet the needs for safe drinking 
water and wastewater treatment.
    Since 2010, U.S. Department of Agriculture (USDA) Rural Housing 
programs have been cut by nearly $400 million. Further cuts to Rural 
Housing programs proposed by the administration's budget request are 
unwise and unwarranted. USDA's Rural Housing Service programs continue 
to be the most effective, and in many cases, the only, Federal 
resources to address the critical housing needs of rural America. As 
such, Self-Help Enterprises strongly supports an appropriation to fund 
USDA Rural Housing programs at the higher of the President's fiscal 
year 2014 budget request or fiscal year 2013 levels, prior to 
sequestration, including: (1) $900 million for Section 502 Direct 
Homeownership Loans; (2) $28 million for Section 504 Very-Low Income 
Rural Housing Repair Loans; (3) $29.5 million for Section 504 Very-Low 
Income Rural Housing Repair Grants; (4) $26 million for Section 514 
Farm Labor Housing Program Loans; (5) $9 million for Section 516 Farm 
Labor Housing Program Grants; (6) $1.015 billion for Section 521 Multi-
Family Rental Housing Rental Assistance Program; (7) $30 million for 
Section 523 Self-Help Housing Program; (8) $3.6 million for Section 533 
Housing Preservation Grants Program; (9) $150 million for Section 538 
Guaranteed Multi-Family Housing Loans; (10) $32.6 million for the 
Multi-Family Housing Preservation and Revitalization Program; and (11) 
$6.12 million for the Rural Community Development Initiative. We 
recommend that the (12) Section 515 Rural Rental Housing Program be 
funded at fiscal year 2012 levels of $64.5 million.

              SECTION 523 MUTUAL SELF-HELP HOUSING PROGRAM

    No other program combines the unique features which make the Self-
Help program a success. The section 523 grants provide support to Self-
Help sponsors who provide technical assistance, recruiting, training, 
and supervising to families to earn ``sweat equity.'' This unique 
construction method also promotes strong communities by building close 
bonds among future neighbors. (PART review, www.expectmore.gov)
    Created by the Housing and Community Development Act of 1968, the 
USDA Rural Development Section 523 Mutual Self-Help Housing Program is 
one of the best and most successful avenues to sustainable 
homeownership for low-income rural Americans.
    With its roots in the tradition of barn raising, Mutual Self-Help 
Housing gives hardworking rural families the opportunity to work 
together to achieve the dream of homeownership which individually could 
not be attained. Mutual Self-Help Housing programs, which still retain 
a style reminiscent of pioneer barn raisings, provide the 
organizational structure that allows low-income families to build the 
homes they so desperately want and need. This includes the capital, 
training and supervision, coordination, accounting, and myriad of other 
technical skills necessary to any successful housing development 
effort.
    The concept is straightforward: groups of 6-12 low-income families 
join together to pool their labor to build each other's homes, in the 
process building a neighborhood for their community, for their 
children, and for themselves. The future homeowners commit to 
completing 65 percent of the work necessary to build the homes. At 
Self-Help Enterprises, these families pour the concrete, frame the 
walls, and install electrical wiring, heating ducts, roof framing, as 
well as all finish, tile, paint, and trim. Reducing the labor cost of 
the home reduces the total cost of the home, enabling lower income 
households to become homeowners and earn equity at the same time.
    The economic benefits extend far beyond the individual homeowners. 
As contractors are hired to turn raw land into subdivisions, local 
vendors provide building materials, and subcontractors complete 
technical work such as plumbing. Local governments receive building 
permit fees, and in the long term, property taxes from proud 
homeowners. Rural communities, often plagued with an abundance of 
substandard housing, gain an expanding stock of good housing and the 
stability that comes to a community of homeowners.
    In the San Joaquin Valley each year, as many as 120 hardworking 
families each commit 1,400 hours, 40 hours per week, week after week, 
through the heat of summer and the cold of winter, sharing the labor 
necessary to build homes for their neighbors, their children and 
themselves.
    It is popular today to talk about the importance for homebuyers to 
have ``skin in the game'' as protection against failed mortgages. 
Mutual Self-Help Housing families have more than skin in the game. They 
have skin, sweat, and occasionally a bit of blood as they invest 
themselves in the home of their dreams. And does it work? With 47 years 
of experience behind us, those of us at Self-Help Enterprises say 
``YES'' unequivocally. Self-Help homebuilders achieve remarkable 
stability. Despite being the lowest income of the section 502 
borrowers, our self-help homebuilders have lower delinquency rates and 
very low foreclosure rates.
    No other path to homeownership for low-income families has proven 
to be as successful.

                   SECTION 502 DIRECT LENDING PROGRAM

    The Section 502 Direct Loan program is an equally important element 
of Mutual Self-Help Housing, affording well-underwritten construction-
to-permanent mortgages that finance the home from the start of 
construction to the final mortgage payment. But the reach of this model 
mortgage program goes far beyond self-help households.
    Since the Housing Act of 1961, the USDA 502 Direct Loan Program has 
been a cornerstone of homeownership opportunity in rural America, with 
over 2 million homeowners seizing the opportunity for an affordable 
mortgage which would enable them to be homeowners in the town where 
they live and work. For a surprisingly low Federal budget cost, the 502 
Direct mortgage is a well underwritten, affordable, no gimmicks 
financing for rural families who want to invest in homes and in their 
communities.
    No other Federal home ownership program can match the profile of 
the families served by the section 502 direct loan program. The average 
income for families receiving direct loans is $27,000. By law, 40 
percent of families participating in the program have incomes that do 
not exceed 50 percent of the median income. For the past 2 years at 
Self-Help Enterprises, fully 60 percent of the borrowers have incomes 
below 50 percent of median.
    Despite serving families with limited economic means, the section 
502 direct loan program is the most cost effective affordable housing 
program in the Federal Government. In fiscal year 2011, the total per 
unit cost for a homeownership loan to a low income family was about 
$3,000. There are a number of reasons for this overall low cost to the 
Government. First, a low interest rate environment reduces the cost of 
borrowing. Less well known is a longstanding requirement to recapture 
subsidy when a house financed under section 502 is sold. Essentially a 
family and the Government share in the appreciation on a home, taking 
into account how long a family has lived in the house. Recapture 
provides a substantial return to the Government.
    Although the Section 502 Direct Loan Program lends to families with 
limited incomes, the program has a record of success not only in 
creating affordable homeownership opportunity, but also protecting the 
Federal investment. For example, in 2010, USDA Rural Development in 
California foreclosed on a mere 57 mortgages out of a loan portfolio of 
nearly 10,000 loans. This is a foreclosure rate of just over 0.5 
percent and stands in stark contrast to what is happening in the 
conventional market in California.
    It has been stated that the section 502 guarantee program is an 
alternative for families eligible for direct loans. It is not. The 
average annual income for families receiving the guarantee is $48,000. 
The majority of the loan guarantees go to households with incomes at or 
above 100 percent of the median, and only about 5 percent of families 
receiving guarantees make between 60-70 percent of the median. With the 
inevitable end of the current low interest rate environment, interest 
rates on 502 guarantee loans will once again rise, and the number of 
qualifying low income borrowers will drop, if not disappear altogether.

                                SUMMARY

    USDA's Rural Housing Service and the resources it delivers 
represent vital resources to the people and the economies of rural 
American communities so desperate for jobs. As the recession seems 
finally to be fading in some areas of the country, its grip on rural 
America is still devastatingly strong. This is no time to reduce the 
investment so important to the recovery of rural America.

    [This statement was submitted by Peter Carey, CEO, Self-Help 
Enterprises.]
                                 ______
                                 
   Prepared Statement of the Self-Help Housing Corporation of Hawaii

    Since 2010, U.S. Department of Agriculture (USDA) Rural Housing 
programs have been cut by nearly $400 million. Further cuts to Rural 
Housing programs proposed by the administration's budget request are 
unwise and unwarranted. As such, the Self-Help Housing Corporation of 
Hawaii is requesting that this subcommittee fund USDA Rural Housing 
programs at the higher of the President's fiscal year 2014 budget 
request or fiscal year 2013 levels, prior to sequestration, including: 
(1) $900 million for Section 502 Direct Homeownership Loans; and (2) 
$30 million for Section 523 Mutual Self-Help Housing Program.
    With the average sales price for a single-family house in Hawaii 
over $600,000, there would be no affordable homeownership opportunities 
in Hawaii without the USDA Rural Housing Programs. Because of the 
extreme gap of income levels for low-income families in Hawaii and the 
average housing prices, even the ``workforce'' of Hawaii cannot afford 
homeownership without subsidies offered by these programs.
    Through the recent development of its 72-lot subdivision in a 
rural, low-income neighborhood, SHHCH is able to offer homeownership 
opportunities to 72 very-low and low-income families who will build 
their own houses through the Section 523 Mutual Self-Help Housing 
program. In turn, this will create more than 200 jobs through the 
construction of infrastructure, materials and equipment from building 
supply houses, and services from title companies, appraisers, insurance 
companies, lenders, etc. With the Federal funding of these programs 
acting as a catalyst, SHHCH has been able to leverage another $11 
million in private financing to undertake this development. 
Additionally, very-low and low-income families, who presently live in 
substandard and severely crowded housing, not only improve their 
housing situations, but also gain equity, thereby continuing to improve 
their lives.
    The Self-Help Housing Corporation has built 591 Self-Help Housing 
units throughout Hawaii for our State's firemen, policemen, teacher's 
aides, hospital workers, hotel workers, laborers, and those considered 
the ``workforce'' of Hawaii.
    Currently, in a remote rural area of Maui, SHHCH is assisting 
Native Hawaiian low-income families to build three- and four-bedroom 
houses through the Section 523 Mutual Self-Help Housing and Section 502 
Direct Loan Programs. This is the first affordable housing program in 
Hana in 35 years. Some of these Self-Help Housing families have no 
electricity or potable water in their existing houses. Without these 
programs, these families--and thousands of rural, low-income families 
across the country--would continue to live in severely substandard 
conditions, similar to conditions I saw as a Peace Corps volunteer in 
third-world countries!
    In the past 3 years, more than 3,500 low income families in more 
than 37 States have built their own houses through the Section 523 
Mutual Self-Help Housing program, working in tandem with the Section 
502 Direct Loan program. Each Section 502 Direct Loan costs on average 
$7,200 over the entire 33 year amortization period. These programs are 
less expensive than rental subsidy programs.
    Through these programs, families can improve their living 
situation, gain equity, and learn invaluable skills in leadership, team 
work, and building skills. In addition, the community benefits with a 
broadening of the tax base, an enhancement of property values, and an 
establishment of stable neighborhoods with well maintained houses. 
Every 100 homes built in this program results in 324 jobs, $21.1 
million infused in the local economy, and $2.2 million paid in for tax 
revenues. These significant housing programs are assisting to rebuild 
the economy in rural areas.
    I urge you, as at the leaders of our country, to consider funding 
such valuable community development programs at the higher of the 
President's fiscal year 2014 budget request or fiscal year 2013 levels, 
prior to sequestration, including: (1) $900 million for Section 502 
Direct Homeownership Loans; and (2) $30 million for Section 523 Mutual 
Self-Help Housing Program.

    [This statement was submitted by Claudia Shay, Executive Director, 
Self-Help Housing Corporation of Hawaii.]
                                 ______
                                 
  Prepared Statement of the Society for Women's Health Research (SWHR)

    SWHR is pleased to submit written testimony to urge the committee 
to prioritize and provide an increase to the fiscal year 2014 budget 
authority (BA) appropriations (non-user fees) for the Food and Drug 
Administration (FDA) of $2.6 billion, and allocate $7 million for the 
Office of Women's Health for fiscal year 2014. This appropriation 
follows the President's request and is in line with the Alliance for a 
Stronger FDA, of which SWHR is represented on the Board of Directors. 
These recommended allocations will allow the agency to implement 
critical improvements in infrastructure, address resource shortages, 
and support needed investment into the Office of Women's Health (OWH), 
the focal point on women's health within the Agency.
    While SWHR recognizes the need for responsible discretionary 
spending, proper and sustained funding of the FDA must remain a public 
priority. Fiscal year 2014 appropriations must reflect the FDA's 
increased responsibilities and workload mandated by Congress. Americans 
rely on the FDA every day, from promoting wellness and meeting 
healthcare needs to ensuring the safety of our food and keeping drugs 
safe and effective. In total, 25 percent of every consumer dollar spent 
in America is on products regulated by the FDA.
    The FDA must meet the demands of American consumers and patients 
that expects proactive scientific and research leadership while 
assuring the safety and effectiveness of food, drugs and cosmetics. 
These demands result in the majority of FDA's budget, over 80 percent, 
already being allocated toward the salary of its scientists and staff; 
thus making needed investments in infrastructure, technology, and human 
collateral all but impossible. Each year brings new congressional 
mandates in addition to the increased globalization and complexity of 
our scientific research world. These challenges cannot be met without 
additional resources. Appropriate budgetary allocation must be provided 
to allow FDA to react acting in a proactive manner against emerging or 
known threats to food and drug security.
    SWHR recognizes that Congress is focused on reducing our Federal 
deficit; however, proper and sustained investment in the FDA is 
important to the health, economic and national security of the Nation. 
As the thought leader in research on biological differences in disease 
SWHR is dedicated to transforming women's health through science, 
advocacy, and education and believes that sustained funding for the FDA 
and its regulatory responsibilities is absolutely essential if the 
United States is to meet the needs of its citizens, especially women.
    In the past two decades, scientists have uncovered significant 
biological and physiological differences between men and women. 
Physiological differences and hormonal fluctuations may play a role in 
the rate of drug absorption, distribution, metabolism, elimination as 
well as ultimate effectiveness of response in females as opposed to 
males. However, information about the ways drugs may differ in various 
populations (e.g., women may require a lower dosage because of 
different rates of absorption or metabolism) are often unexplored, or 
female enrollment in studies is too low to adequately power 
statistically significant results. America's biomedical development 
process, while continuing to advance in delivering new and better 
targeted medications to combat disease, does not routinely analyze and 
reported sex differences. Though, recently the FDA did take the 
appropriate steps to inform the public about important sex differences 
finding in the dosing for sleep medications, however, FDA's requirement 
that the data acquired during research of a new drug or device's safety 
and efficacy be reported and analyzed as a function of sex is not 
universally enforced.
    Under section 907 of the Food and Drug Administration Safety and 
Innovation Act of 2012 (FDASIA) the FDA now must prepare a 
congressional report and publish on the FDA website on the inclusion of 
demographic subgroups in clinical trials and data analysis in drugs, 
biologic and device applications submitted to the agency. The official 
response to this mandate is being coordinated by the Office of Women's 
Health (OWH) and the Office of Minority Health (OMH) and the FDA has 
established a Clinical Trials Data Workgroup to compile and share 
inclusion data from across the FDA. SWHR believes this important 
report, the publication on the website and internal FDA actions will 
help to rapidly transform our medical knowledge.
    Sex differences data discovered from clinical trials can be 
presented to the medical community and to patients through education, 
drug labeling and packaging inserts, and other forms of alerts directed 
to key audiences. The FDA must assure accurate, sex-specific drug and 
device labeling to better serve male and female patients, as well as to 
ensure that appropriate data analysis of post-market surveillance 
reporting for these differences is placed in the hands of physicians 
and ultimately the patient.
    The FDA must have the information technology to meet the daily 
demands of increased scientific complexity, globalization, the American 
public and Congress in order to guard the safety, efficacy, and 
security of human drugs, biological products, and medical devices. It 
was only 6 years ago in a Science Board Report review of the FDA, 
requested by then Commissioner von Eschenbach, that it was found that 
FDA's information technology (IT) systems were inefficient and 
incapable of handling the current demands placed on the Agency (2007). 
We do not want the FDA to fall behind again. Through advocacy efforts 
and appropriations increases, tremendous advances have been made 
throughout the Agency to modernize in the 6 years since that Science 
Board's report; however, it still remains a challenge for the Agency to 
access and maintain the information technology needed to meet the 
growing expectations from the American public and to fulfill its 
mission. FDA IT systems and infrastructure must be given the dedicated 
resources needed from appropriated dollars and user fees to meet the 
complex global and scientific world in which it operates.

                      FDA OFFICE OF WOMEN'S HEALTH

    OWH like the Agency that houses it, requires steady and sustained 
investment to remain a key resource in advancing regulatory science and 
reporting of sex differences. OWH's programs endeavor to ensure that 
sex and gender differences in the efficacy of drugs (such as metabolism 
rates), devices (sizes and functionality) and diagnostics are taken 
into consideration in reviews and approvals. OWH seeks to correct sex 
and gender disparities within FDA jurisdiction and monitors women's 
health priorities, providing both leadership and an integrated approach 
to problem solving across the FDA.
    OWH provides women with invaluable tools for their health. Each 
year, OWH exhausts its budget as its consumer pamphlets are the most 
requested of any documents at the Government printing facility in 
Colorado. More than 8 million OWH pamphlets were distributed to women 
across America, including target populations such as Hispanic 
communities, seniors and low-income citizens on topics such as breast 
cancer screening, diabetes, menopause hormone therapy, and medication 
use during pregnancy. OWH also partnered with the Federal Citizen 
Information Center and Usa.gov to conduct outreach promotions to 
disseminate OWH consumer publications to targeted minority groups and 
other special populations such as college students. During National 
Women's Health Week, May 2012, FDA OWH collaborated with the nationally 
syndicated Dear Abby advice column and the Federal Citizen Information 
Center to distribute 1.7 million OWH publications and 35,000 
publications downloads as a part of OWH's ``Healthy Women Action Kit''. 
Such important outreach will be repeated this year. Further, OWH's 
intramural research program funded over 21 new and 17 continuing 
research studies conducted by FDA scientists in 2012 and 14 out of 22 
concept papers have been selected in 2013.
    Women across our great Nation rely on the high quality, timely 
information they need by OWH to make medical decisions on behalf of 
themselves and their families. OWH's website is regarded as a vital 
tool for consumers and physicians, providing free, downloadable fact 
sheets on over 100 different illnesses, diseases, and health related 
issues for women, as well as web trainings and online courses for 
medical professionals. OWH has created medication charts on several 
chronic diseases, listing all the medications that are prescribed and 
available for each disease. These are vital functions that our 
healthcare professionals and the public understand and utilize daily to 
make healthcare decision and must be maintained.

    [This statement was submitted by Martha Nolan, Vice President, 
Public Policy, Society for Women's Health Research.]
                                 ______
                                 
  Letter From the Southern Nevada Water Authority (SNWA) and Colorado 
                   River Commission of Nevada (CRCN)
                                                    April 25, 2013.
Hon. Mark Pryor, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies,
Washington, DC.

RE: Continued Funding for the Colorado River Basin Salinity Control 
        Program Under USDA's Environmental Quality Incentives Program 
        (EQIP)
    Dear Senator Pryor: As Congress continues work on the fiscal year 
2014 budget, we urge you to support as a priority the continued funding 
for the Colorado River Basin Salinity Control Program (Program) under 
USDA's Environmental Quality Incentives Program (EQIP). This includes 
fiscal year 2014 Federal funding of $17 million to $18 million for 
salinity-specific projects to prevent further degradation of the 
quality of the Colorado River and increased downstream economic 
damages.
    Salinity concentrations of Colorado River water are lower by more 
than 100 milligrams per liter (mg/L) since the initiation of the 
Program. The concentrations of salts in the Colorado River cause 
approximately $376 million in quantified damages in the Lower Basin 
each year and significantly more immeasurable damages. Modeling by the 
U.S. Bureau of Reclamation (Reclamation) indicates that quantifiable 
damages will rise to approximately $577 million per year by the year 
2030 without the Program's continuation.
    Colorado River water salinity increases from about 50 mg/L at its 
headwaters to more than 700 mg/L in the Lower Basin. High salt levels 
in the water cause significant economic damages downstream. For 
example, damages occur from:
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of water pipe systems, water 
        heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the Colorado River's flow. The Program benefits 
Colorado River water users in both the Upper Basin through more 
efficient water management, and the Lower Basin through reduced 
salinity concentration of Colorado River water.
    To deal with salinity level concerns, the Colorado River Basin 
Salinity Control Act (Act) was signed into law in 1974. The Act 
provides for the Secretary of the Interior to develop a comprehensive 
program for minimizing salt contributions to the Colorado River from 
lands administered by the Bureau of Land Management. Geological 
conditions and past management practices have led to human-induced and 
accelerated erosion processes from which soil and rocks, heavily laden 
with salt, are deposited in various stream beds or flood plains. As a 
result, salts are dissolved into the Colorado River system causing 
water quality problems for Lower Basin water users.
    In enacting the Act, Congress directed that the Program be 
implemented in the most cost-effective way. The Program is currently 
funded under EQIP through the Natural Resources Conservation Service 
and under Reclamation's Basinwide Program. The Act has a cost-share 
requirement with all basin states through the Basin States Program 
(BSP). The BSP provides 30 percent of the total amount that is spent 
each year by the combined EQIP and BSP effort. To foster interstate 
cooperation and coordinate the basin states' efforts on salinity 
control, the seven basin states formed the Colorado River Basin 
Salinity Control Forum.
    The Program has proven to be a very cost-effective approach to help 
mitigate increased salinity impacts on the Colorado River. Continued 
Federal funding of this Basinwide Program is essential to the Southern 
Nevada Water Authority and the Colorado River Commission of Nevada.
    Again, we urge you to support continued funding of $17 million to 
$18 million for the Colorado River Basin Salinity Control Program under 
USDA's Environmental Quality Incentives Program for fiscal year 2014 to 
prevent further degradation of Colorado River water and increased Lower 
Basin economic damages, and to provide improved drinking water quality 
to nearly 40 million Americans.
            Sincerely,
                                   Patricia Mulroy,
                                           General Manager, Southern 
                                               Nevada Water Authority.
                                   Jayne Harkins, P.E.,
                                            Executive Director, 
                                               Colorado River 
                                               Commission of Nevada.
                                 ______
                                 
 Prepared Statement of the Southern Nevada Water Authority (SNWA) and 
               Colorado River Commission of Nevada (CRCN)

    Waters from the Colorado River are utilized by approximately 40 
million people for municipal and industrial purposes, and also are used 
to irrigate approximately 4 million acres in the United States. Natural 
and man-induced salt loading of the Colorado River creates 
environmental and economic damages. The U.S. Bureau of Reclamation 
(Reclamation) has estimated the current quantifiable damages at about 
$376 million per year. Modeling by Reclamation indicates that the 
quantifiable damages will rise to approximately $577 million per year 
by the year 2030 without continuation of the Colorado River Basin 
Salinity Control Program (Program). Congress authorized the Program in 
1974 to offset increased damages caused by continued development and 
use of the waters of the Colorado River. The United States Department 
of Agriculture (USDA) portion of the Program, as authorized by Congress 
and funded and administered by the Natural Resources Conservation 
Service (NRCS) under the Environmental Quality Incentives Program 
(EQIP), is an essential part of the overall effort. A funding level of 
$17 million to $18 million annually is required to prevent further 
degradation of the quality of the Colorado River and increased 
downstream economic damages.
    In enacting the Colorado River Basin Salinity Control Act in 1974, 
Congress directed that the Program should be implemented in the most 
cost-effective way. The Program is currently funded under EQIP through 
NRCS and under Reclamation's Basinwide Program. The act requires that 
the seven basin States (Basin States) cost-share 30 percent of the 
overall effort (Basin Funds). Historically, recognizing that 
agricultural on-farm improvements were some of the most cost-effective 
strategies, Congress authorized a program for the USDA through 
amendment of the act in 1984. With the enactment of the Federal 
Agriculture Improvement and Reform Act of 1996, Congress directed that 
the Program should continue to be implemented as part of the newly 
created Environmental Quality Incentives Program. Since the enactment 
of the Farm Security and Rural Investment Act in 2002, there have been, 
for the first time in a number of years, opportunities to adequately 
fund the Program within EQIP. In 2008, Congress passed the Food, 
Conservation and Energy Act (FCEA), which addressed the cost-sharing 
required from the Basin Funds. In so doing, the FCEA named the cost-
sharing requirement as the Basin States Program (BSP). The BSP will 
provide 30 percent of the total amount that will be spent each year by 
the combined EQIP and BSP effort.
    The Program, as set forth in the act, is to benefit Lower Basin 
water users hundreds of miles downstream from the sources of salinity 
in the Upper Basin. The salinity of Colorado River waters increases 
from about 50 mg/L at its headwaters to more than 700 mg/L in the Lower 
Basin. There are very significant economic damages caused downstream by 
high salt levels in the water. EQIP is used to improve upstream 
irrigation efficiencies, which in turn reduce leaching of salts to the 
Colorado River. There also are local benefits from the Program in the 
form of soil and environmental benefits, improved water efficiencies, 
reduced fertilizer use, and lower labor costs. Local producers submit 
cost-effective applications under EQIP in Colorado, Utah and Wyoming 
and offer to cost-share in the acquisition of new irrigation equipment. 
The mix of funding under EQIP, cost-share from the Basin States, and 
efforts and cost-share brought forward by local producers has created a 
most remarkable and successful partnership.
    After longstanding urgings from the Basin States and directives 
from Congress, NRCS has recognized that this Program is different from 
small watershed enhancement efforts common to EQIP. In the case of the 
Colorado River salinity control initiative, the watershed to be 
considered stretches more than 1,400 miles from the Colorado River's 
headwaters in the Rocky Mountains to the terminus in the Gulf of 
California in Mexico. Each year, the NRCS State Conservationists for 
Colorado, Utah and Wyoming prepare a 3-year funding plan for the 
salinity efforts under EQIP. The Colorado River Basin Salinity Control 
Forum (Forum) supports this funding plan which recognizes the need for 
$17.3 million in fiscal year 2014. This includes the funds needed for 
both farm and technical assistance. State and local cost-sharing is 
triggered by the Federal appropriation. The States and local producers 
are able and anxious to participate in the Program. The Forum 
appreciates the efforts of NRCS leadership and the support of this 
subcommittee in implementing the Program.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming, and is 
charged with reviewing the Colorado River's water quality standards 
every 3 years. In so doing, it adopts a Plan of Implementation 
consistent with these standards. The level of appropriation requested 
in this testimony is in keeping with the adopted Plan of 
Implementation. If adequate funds are not appropriated, significant 
damages from the higher salinity concentrations in the water will be 
more widespread in the United States and Mexico.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
immeasurable damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of water pipe systems, water 
        heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Over the years, NRCS personnel have developed a great working 
relationship with farmers within the Colorado River basin. Maintaining 
salinity control achieved by implementation of past practices requires 
continuing education and technical assistance from NRCS personnel. 
Additionally, technical assistance is required for planning and design 
of future projects. Last, the continued funding for the monitoring and 
evaluation of existing projects is essential to maintaining the 
salinity reduction already achieved.
    In summary, implementation of salinity control practices through 
EQIP has proven to be a very cost effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
EQIP with adequate funding levels for salinity control within this 
program will assist in preventing further degradation of the water 
quality of the Colorado River and significant increases in economic 
damages to municipal, industrial and irrigation users. A modest 
investment in source control pays huge dividends in improved drinking 
water quality to nearly 40 million Americans.
    As Congress continues work on the fiscal year 2014 budget, we urge 
you to support as a priority the continued funding for the Colorado 
River Basin Salinity Control Program (Program) under USDA's 
Environmental Quality Incentives Program (EQIP). This includes fiscal 
year 2014 Federal funding of $17 million to $18 million for salinity-
specific projects to prevent further degradation of the quality of the 
Colorado River and increased downstream economic damages.
    Salinity concentrations of Colorado River water are lower by more 
than 100 milligrams per liter (mg/L) since the initiation of the 
Program. The concentrations of salts in the Colorado River cause 
approximately $376 million in quantified damages in the Lower Basin 
each year and significantly more immeasurable damages. Modeling by the 
U.S. Bureau of Reclamation (Reclamation) indicates that quantifiable 
damages will rise to approximately $577 million per year by the year 
2030 without the Program's continuation.
    Colorado River water salinity increases from about 50 mg/L at its 
headwaters to more than 700 mg/L in the Lower Basin. High salt levels 
in the water cause significant economic damages downstream. For 
example, damages occur from:
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of water pipe systems, water 
        heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the Colorado River's flow. The Program benefits 
Colorado River water users in both the Upper Basin through more 
efficient water management, and the Lower Basin through reduced 
salinity concentration of Colorado River water.
    To deal with salinity level concerns, the Colorado River Basin 
Salinity Control Act was signed into law in 1974. The act provides for 
the Secretary of the Interior to develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by the Bureau of Land Management. Geological conditions 
and past management practices have led to human-induced and accelerated 
erosion processes from which soil and rocks, heavily laden with salt, 
are deposited in various stream beds or flood plains. As a result, 
salts are dissolved into the Colorado River system causing water 
quality problems for Lower Basin water users.
    In enacting the act, Congress directed that the Program be 
implemented in the most cost-effective way. The Program is currently 
funded under EQIP through the Natural Resources Conservation Service 
and under Reclamation's Basinwide Program. The act has a cost-share 
requirement with all basin States through the Basin States Program 
(BSP). The BSP provides 30 percent of the total amount that is spent 
each year by the combined EQIP and BSP effort. To foster interstate 
cooperation and coordinate the basin States' efforts on salinity 
control, the seven basin States formed the Colorado River Basin 
Salinity Control Forum.
    The Program has proven to be a very cost-effective approach to help 
mitigate increased salinity impacts on the Colorado River. Continued 
Federal funding of this Basinwide Program is essential to the Southern 
Nevada Water Authority and the Colorado River Commission of Nevada.
    Again, we urge you to support continued funding of $17 million to 
$18 million for the Colorado River Basin Salinity Control Program under 
USDA's Environmental Quality Incentives Program for fiscal year 2014 to 
prevent further degradation of Colorado River water and increased Lower 
Basin economic damages, and to provide improved drinking water quality 
to nearly 40 million Americans.

    [This statement was submitted by Patricia Mulroy, General Manager, 
Southern Nevada Water Authority, and Jayne Harkins, P.E., Executive 
Director, Colorado River Commission of Nevada.]
                                 ______
                                 
            Prepared Statement of The Wildlife Society (TWS)

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2014 budgets for the Animal and 
Plant Health Inspection Service, National Institute of Food and 
Agriculture, Natural Resources Conservation Service, and Farm Service 
Agency. The Wildlife Society was founded in 1937 and is a nonprofit 
scientific and educational association representing nearly 11,000 
professional wildlife biologists and managers, dedicated to excellence 
in wildlife stewardship through science and education. Our mission is 
to represent and serve the professional community of scientists, 
managers, educators, technicians, planners, and others who work 
actively to study, manage, and conserve wildlife and habitats 
worldwide. The Wildlife Society is committed to strengthening all 
Federal programs that benefit wildlife and their habitats on 
agricultural and other private land.

               ANIMAL AND PLANT HEALTH INSPECTION SERVICE

    Wildlife Services, a unit of APHIS, is responsible for controlling 
wildlife damage to agriculture, aquaculture, forest, range, and other 
natural resources, monitoring wildlife-borne diseases, and managing 
wildlife at airports. Its activities are based on the principles of 
wildlife management and integrated damage management, and are carried 
out cooperatively with State fish and wildlife agencies. In fiscal year 
2014, the budget proposal includes a proposal to implement a national 
feral swine control program, which are a growing problem causing 
billions of dollars in damages nationwide, working cooperatively with 
the 38 States currently experiencing issues with feral swine. The 
President's request is a $13 million increase from fiscal year 2013. In 
recognition of the important work that Wildlife Services performs 
regarding methods development and wildlife damage management, we 
request that Congress support the President's request of $104 million 
to Wildlife Services in fiscal year 2014.
    A key budget line in Wildlife Service's operations is Methods 
Development, which funds the National Wildlife Research Center (NWRC). 
Much of the newest research critical to State wildlife agencies is 
being performed at NWRC. In order for State wildlife management 
programs to be the most up-to-date, the work of the NWRC must continue. 
We recommend funding Methods Development at $18 million in fiscal year 
2013.

               NATIONAL INSTITUTE OF FOOD AND AGRICULTURE

    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater than ever because of continuing 
fragmentation of land ownership, urbanization, diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
increasing human impacts on natural resources. The Wildlife Society 
recommends that the Renewable Resources Extension Act be funded at $10 
million.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on non-industrial private forestlands 
while conserving natural resources, including fish and wildlife. As the 
demand for forest products grows, privately held forests will be 
increasingly needed to supplement supplies obtained from national 
forest lands. However, commercial trees take many decades to produce. 
In the absence of long-term research, such as that provided through 
McIntire-Stennis, the Nation might not be able to meet future forest-
product needs as resources are harvested. We appreciate the $33 million 
in fiscal year 2013 and urge that amount to be continued in fiscal year 
2014, per the President's request.

                 NATURAL RESOURCES CONSERVATION SERVICE

    Farm bill conservation programs are more important than ever, given 
the huge backlog of qualified applicants, increased pressure on 
farmland from biofuels development, urban sprawl, and the concurrent 
declines in wildlife habitat and water quality. The Natural Resources 
Conservation Service (NRCS), which administers many farm bill 
conservation programs, is one of the primary Federal agencies ensuring 
our public and private lands are made resilient to climate change. NRCS 
does this through a variety of programs that are aimed at conserving 
land, protecting water resources, and mitigating effects of climate 
change.
    One key program within the overall NRCS discretionary budget is 
Conservation Operations. The total fiscal year 2014 request for 
Conservation Operations is $808 million, down from $833 million in 
fiscal year 2013. Conservation Operation's Technical Assistance (TA) 
subactivity provides funding for NRCS to support implementation of the 
various farm bill programs. The fiscal year 2014 budget recommends $713 
million in funding for TA, a decrease of $21 million from the fiscal 
year 2013 level of $734 million. The Wildlife Society encourages you to 
return funding for TA to the fiscal year 2011 level of $755 million.
    Overall, The Wildlife Society believes more attention to TA 
delivery is needed. Changes in the 2008 farm bill greatly increased the 
number of conservation programs NRCS was required to support through 
delivery of TA. In addition, Congress expanded TA eligible activities 
in the 2008 farm bill to include conservation planning, education and 
outreach, assistance with design and implementation of conservation 
practices, and related TA services that accelerate conservation program 
delivery. TA will require funding levels from OMB that are more than 
what was historically allocated if NRCS is to fulfill congressional 
intent as expressed in the 2008 farm bill. Recently, Congress allowed 
the use of mandatory funds for TA and, under current economic 
conditions, The Wildlife Society believes that such funds must continue 
to be utilized for effective delivery to occur. The Wildlife Society 
urges Congress to authorize up to 30 percent of each mandatory 
program's funding for Technical Service Provider provisions as mandated 
by the 2008 farm bill and additional technical assistance to provide 
resources necessary to help meet NRCS TA shortfalls. Similarly, we 
strongly encourage Congress to explore new ways of funding technical 
assistance in fiscal year 2014 and beyond.
    The Wildlife Society also supports the continuation of funding for 
the Conservation Effects Assessment Project. Information gathered from 
this effort will greatly assist in monitoring accomplishments and 
identifying ways to further enhance effectiveness of NRCS programs.
    The Wildlife Society recommends farm bill conservation programs be 
funded at levels mandated in the 2008 farm bill. Demand for these 
programs continues to grow during this difficult economic climate at a 
time when greater assistance is needed to address natural resource 
challenges and conservation goals, including climate change, soil 
quality deficiencies, declining pollinator health, disease and invasive 
species, water quality and quantity issues, and degraded, fragmented 
and lost habitat for fish and wildlife.
    We would like to specifically highlight the Wildlife Habitat 
Incentive Program (WHIP), a voluntary program for landowners who want 
to improve wildlife habitat on agricultural, non-industrial, and Indian 
land. WHIP plays an important role in protecting and restoring 
America's environment, and is doubly important because it actively 
engages public participation in conservation. We urge Congress to fully 
fund WHIP at $85 million.
    The Voluntary Public Access and Habitat Incentives Program was 
first authorized in the Food, Conservation, and Energy Act of 2008 
(2008 farm bill) for $50 million for fiscal year 2008-2012, and was 
administered by the Farm Service Agency. This funding has expired, and 
the fiscal year 2014 budget includes $5 million for the program within 
the NRCS budget. The Wildlife Society commends the administration for 
continuing to fund this program in fiscal year 2014. These funds will 
assist State and Tribal governments with needed resources to provide 
the public with additional outdoor opportunities. In addition, 
increased public access opportunities will help create jobs and 
stimulate rural economies. Continuity of program funding is critical to 
these programs that rely on landowner interest across multiple years.

                      FARM SERVICE ADMINISTRATION

    The administration's request would increase funding for the 
Conservation Reserve Program (CRP) to $2.16 billion in fiscal year 
2014, up from $2.107 billion in fiscal year 2013. This increase assumes 
a CRP enrollment of about 2.8 million acres in 2013. The Wildlife 
Society applauds FSA efforts to have a general sign-up in 2013 and each 
year in the foreseeable future, and to more fully utilize CRP 
enrollment authority to address conservation needs. Lands enrolled in 
CRP are important for the conservation of soil on some of the Nation`s 
most erodible cropland. These lands also contribute to water quantity 
and quality, provide habitat for wildlife that reside on agricultural 
landscapes, sequester carbon, and provide a strategic forage reserve 
that can be tapped as a periodic compatible use in times when other 
livestock forage is limited due to drought or other natural disasters. 
We strongly encourage Congress to fund CRP at a level that fully 
utilizes program enrollment authority through CRP general sign-up. We 
are pleased with and support the coming general sign-up. However, we 
are concerned about the proposed reduction in the acreage cap from 32 
million to 25 million by 2018.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 
             Prepared Statement of the USA Rice Federation

    Dear Chairman Pryor and Ranking Member Blunt: This is to convey the 
rice industry's requests for fiscal year 2014 funding and related 
policy issues for selected programs under the jurisdiction of your 
subcommittee. The USA Rice Federation appreciates your assistance in 
making this statement a part of the hearing record.
    The USA Rice Federation is the global advocate for all segments of 
the U.S. rice industry with a mission to promote and protect the 
interests of producers, millers, merchants, and allied businesses. USA 
Rice members are active in all rice-producing States: Arkansas, 
California, Florida, Illinois, Kentucky, Louisiana, Mississippi, 
Missouri, Tennessee, and Texas. The USA Rice Producers' Group, the USA 
Rice Council, the USA Rice Millers' Association, and the USA Rice 
Merchants' Association are members of the USA Rice Federation. The rice 
industry annually supports about 128,000 jobs and more than $34 billion 
of economic output nationally.
    USA Rice understands the budget constraints the subcommittee faces 
when developing the fiscal year 2014 appropriations bill. We appreciate 
past support for initiatives that are critical to the rice industry and 
look forward to working with you to meet the continued needs of 
research, food aid, and market development in the future.
    A healthy U.S. rice industry is also dependent on the program 
benefits offered by the farm bill. Therefore, we oppose any attempts to 
modify the farm-safety-net support levels provided by this vital 
legislation through more restrictive payment limitations or other means 
and encourage the subcommittee and committee to resist such efforts 
during the appropriations process, especially given that the 2008 farm 
bill has been extended for 1 year, is paid for, and represents a 
contract with America's producers. In addition, the House and Senate 
Agriculture Committees are working currently to reauthorize the farm 
bill this year. USA Rice also strongly opposes reducing the farm-safety 
net to appropriate funds for other Federal programs. We urge that the 
President's fiscal year 2014 legislative proposals be rejected that 
would eliminate direct payments and change crop-insurance provisions. 
We also urge that the planned submission of legislation for a user fee 
to help cover the costs of conservation planning services by the 
Natural Resources Conservation Service be rejected.
    A list of the programs the USA Rice Federation supports for 
appropriations in fiscal year 2014 are as follows:

                             MARKET ACCESS

    Exports are critical to the U.S. rice industry. About 50 percent of 
the U.S. crop is exported annually in a highly competitive world-rice 
market. Those directly involved in U.S. rice exports contributed $6 
billion in output and supported more than 14,000 jobs. The Market 
Access Program (MAP) and Foreign Market Development (FMD) Program play 
key roles in helping to promote U.S. rice overseas. USA Rice Federation 
industry members spend $5 in matching funds for each $1 of FAS funds 
received. The USA Rice Federation currently is using MAP and FMD 
funding in 30 markets to conduct successful export-market-development 
initiatives.
    The Foreign Market Development Program allows USA Rice to focus on 
importer, foodservice, and other non-retail promotion activities around 
the world. This program should be fully funded for fiscal year 2014 at 
$34.5 million.
    The Market Access Program (MAP) allows USA Rice to concentrate on 
consumer promotion and other activities for market expansion around the 
world. This program should also be fully funded for fiscal year 2014 at 
$200 million.
    In addition, the Foreign Agricultural Service should be funded to 
the fullest degree possible to ensure adequate support for trade-policy 
initiatives and oversight of export programs. These programs are 
critical for the economic health of the U.S. rice industry.

                                FOOD AID

    Food-aid sales historically account for an important portion of 
U.S. rice exports.
    For Public Law 480 Title II/Food for Peace, we strongly support 
funding title II up front at $2.5 billion, which would help to make 
possible satisfying the 2.5 million MT amount required by statute. We 
encourage the subcommittee to fund title II at the higher level to 
ensure consistent tonnage amounts for the rice industry. We strongly 
oppose the shifting of any title II funds to USAID, which the 
President's budget proposes. Title II funds have traditionally been 
contained within USDA's budget.
    We believe all U.S. food-aid funds should continue to be used for 
food-aid purchases of rice and other commodities from only U.S. origin.
    The McGovern-Dole International Food for Education and Child 
Nutrition Program is a proven success and it is important to provide 
steady, reliable funding for multiyear programming. USA Rice supports 
funding for this education initiative because it efficiently delivers 
food to its targeted group, children, while also encouraging education, 
a primary stepping-stone for populations to improve economic 
conditions.

                                RESEARCH

    U.S. agricultural-research needs are great and the challenges are 
plentiful. USA Rice strongly supports funding for the core-capacity 
programs at land-grant institutions, USDA's intramural-research 
activities, and the National Institute of Food and Agriculture and its 
Agriculture and Food Research Initiative at levels that would continue 
the commitment to strong agricultural research by and through USDA.
    Specifically, we support the President's request of $1.124 billion 
for the Agricultural Research Service (ARS), which includes the 
National Rice Research Center at Stuttgart, Arkansas, where key rice 
research is conducted. The research areas include important and 
emerging issues, such as sustainability, water-use efficiency, and 
arsenic-related issues in rice. Adequately funding these research 
priorities is critical to the competitiveness and long-term viability 
of the U.S. rice industry.

  FARM SERVICE AGENCY, RISK MANAGEMENT AGENCY, AND NATURAL RESOURCES 
                          CONSERVATION SERVICE

    We encourage the subcommittee to provide adequate funding so the 
agencies can deliver essential programs and services, including for 
improved computer hardware and software. Our members fear a serious 
reduction in service if sufficient funds are not allocated, 
particularly because USDA could be called on in 2013 to implement a new 
farm bill, with implementation extending into fiscal year 2014.
    Please feel free to contact us if you would like further 
information about the programs we have listed. Additional background 
information is available for all of the programs we have referenced; 
however, we understand the volume of requests the subcommittee receives 
and have restricted our comments accordingly.
    Thank you for your consideration of our recommendations.

    [This statement was submitted by Reece Langley, Vice President, 
Government Affairs, USA Rice Federation.]

</pre></body></html>
